<html>
<title> - IMPLEMENTING THE AGRICULTURAL ACT OF 2014: CONSERVATION PROGRAMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     IMPLEMENTING THE AGRICULTURAL ACT OF 
                      2014: CONSERVATION PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2015

                               __________

                           Serial No. 114-17
                           
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                                ____________
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
95-134 PDF                  WASHINGTON : 2015                        


For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4b3a4bb94b7a1a7a0bcb1b8a4fab7bbb9fa">[email&#160;protected]</a>  

                       
                       
                       
                       
                       
                       COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

                 GLENN THOMPSON, Pennsylvania, Chairman

FRANK D. LUCAS, Oklahoma             MICHELLE LUJAN GRISHAM, New 
STEVE KING, Iowa                     Mexico, Ranking Minority Member
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
DAN BENISHEK, Michigan               SUZAN K. DelBENE, Washington
RICK W. ALLEN, Georgia               ANN KIRKPATRICK, Arizona
MIKE BOST, Illinois

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     4
Kuster, Hon. Ann M., a Representative in Congress from New 
  Hampshire, opening statement...................................     3
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     4
Thompson, Hon. Glenn, a Representative in Congress from 
  Pennsylvania, opening statement................................     1
    Prepared statement...........................................     2

                               Witnesses

Weller, Jason, Chief, Natural Resources Conservation Service, 
  U.S. Department of Agriculture, Washington, D.C................     6
    Prepared statement...........................................     9
    Submitted questions..........................................    55
Dolcini, J.D., Val, Administrator, Farm Service Agency, U.S. 
  Department of Agriculture, Washington, D.C.....................    12
    Prepared statement...........................................    13
    Submitted questions..........................................    67
Van Dyke, Brent, First Vice President, National Association of 
  Conservation Districts, Hobbs, NM..............................    27
    Prepared statement...........................................    29
Allen, William ``Buddy'' H., Member, Conservation Committee, USA 
  Rice Federation; rice producer, Tunica, MS.....................    31
    Prepared statement...........................................    33
Martynick, Hon. Karen L., Executive Director, Lancaster Farmland 
  Trust, Strasburg, PA...........................................    36
    Prepared statement...........................................    37
Inglis, James E., Governmental Affairs Representative, Pheasants 
  Forever, Inc. and Quail Forever, Upper Sandusky, OH............    41
    Prepared statement...........................................    43

 
    IMPLEMENTING THE AGRICULTURAL ACT OF 2014: CONSERVATION PROGRAMS

                              ----------                              


                        THURSDAY, JUNE 11, 2015

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 1300, Longworth House Office Building, Hon. Glenn Thompson 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Thompson, Lucas, Gibson, 
Allen, Bost, Conaway (ex officio), Lujan Grisham, Kuster, 
Nolan, DelBene, Kirkpatrick, and Peterson (ex officio).
    Staff present: Jackie Barber, Josh Maxwell, Matt Schertz, 
Mollie Wilken, Patricia Straughn, Skylar Sowder, Faisal 
Siddiqui, John Konya, Anne Simmons, Evan Jurkovich, and Nicole 
Scott.

 OPENING STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. Good morning, everyone. This hearing of the 
Subcommittee on Conservation and Forestry to review 
implementing the Agricultural Act of 2014: conservation 
programs, will come to order.
    Welcome to today's hearing. Since 1985, Congress has 
created over 20 farm bill conservation programs to address 
specific natural resource concerns. With this piecemeal 
approach over the past 30 years, we were left with programs 
that started as regional initiatives and were duplicative of 
national approaches. And many programs had overlapping 
functions and goals.
    The Agricultural Act of 2014 reversed this trend by looking 
at conservation programs in a more comprehensive way. The 2014 
Farm Bill made significant reforms by streamlining and 
consolidating 23 conservation programs into 13, while still 
maintaining the core function and goals of conservation 
initiatives. These reforms are estimated to not only save the 
American taxpayer over $6 billion but were also intended to 
improve conservation delivery. Through assistance and 
incentives provided by farm bill conservation programs, our 
farmers and ranchers have voluntarily reduced soil erosion, 
protected wetlands, improved water quality and quantity, and 
preserved farmland and wildlife habitat. These environmental 
gains they have achieved are testimony to our producers who 
truly are the most dedicated conservationists.
    Today, we will hear from Chief Jason Weller of the Natural 
Resources Conservation Service and Administrator Val Dolcini of 
the Farm Service Agency, whose agencies have spent the last 
year and half implementing the many reforms and changes found 
in the conservation title of the farm bill. I will be 
interested to hear about the status of implementation for each 
program and hear the Administration's view on how consolidation 
has impacted program delivery.
    Since June 1, the deadline for producers to file their AD-
1026 form has recently passed. And it is very timely to receive 
feedback on issues related to conservation compliance, with 
crop insurance. And I appreciate both gentlemen taking the time 
to be here today.
    We are also going to hear from a panel of stakeholders who 
are directly impacted by the implementation of these programs 
and the changes made by Congress. Consolidation of programs was 
necessary for funding and administering the programs. But we 
need to make sure it actually works on the ground. These 
stakeholders will be able to give us their perspectives on how 
they feel implementation is going and how the different 
programs are working. I look forward to hearing about our 
witnesses' experiences with the newly created Regional 
Conservation Partnership Program, RCPP in the acronym world.
    RCPP is an innovative approach to targeting conservation 
initiatives and leveraging funds. In the initial roll out, RCPP 
funded 115 projects across all 50 states and matched $370 
million in program dollars with $400 million with partner 
contributions. Important programs like EQIP and CSP had 
relatively small changes in the Agricultural Act of 2014. 
However, they remain integral tools in conserving our natural 
resources.
    The longest-standing conservation program, the Conservation 
Reserve Program, CRP, saw a significant reduction in the 
maximum acres allowed to be enrolled in the program. But in 
exchange the the 2014 Farm Bill afforded landowners more 
flexibility, especially for haying and grazing. It will be 
interesting to see the impacts the reduced acreage cap has had 
on the CRP program. And I am intrigued to hear our witnesses' 
opinions on it.
    Easement programs are an important conservation tool in my 
region. I would like to personally welcome Ms. Karen Martynick, 
who is representing the Lancaster Farmland Trust in Strasburg, 
Pennsylvania. The consolidation of farmland, grassland, and 
wetland easement into one program, the Agricultural 
Conservation Easement Program, ACEP, will streamline delivery 
as well and has provided permanent baseline funding for future 
conservation programs.
    I would like to thank all the witnesses for taking the time 
to be here today. I look forward to hearing each of your 
testimonies.
    [The prepared statement of Mr. Thompson follows:]

Prepared Statement of Hon. Glenn Thompson, a Representative in Congress 
                           from Pennsylvania
    Good morning. Welcome to today's hearing to review the 
implementation of conservation programs in the Agricultural Act of 
2014.
    Since 1985, Congress created over 20 farm bill conservation 
programs to address specific natural resource concerns.
    With this piecemeal approach over the past 30 years, we were left 
with programs that started as regional initiatives and were duplicative 
of national approaches and many programs that had overlapping functions 
and goals.
    The Agricultural Act of 2014 reversed this trend by looking at 
conservation programs in a more comprehensive way. The 2014 Farm Bill 
made significant reforms by streamlining and consolidating 23 
conservation programs into 13 while still maintaining the core 
functions and goals of the conservation initiatives.
    These reforms are estimated to not only save the American taxpayer 
over $6 billion but are also are intended to improve conservation 
delivery.
    Through assistance and incentives provided by farm bill 
conservation programs, our farmers and ranchers have voluntarily 
reduced soil erosion, protected wetlands, improved water quality and 
quantity, and preserved farmland and wildlife habitat.
    These environmental gains they have achieved are a testament to our 
producers who truly are the most dedicated conservationists.
    Today, we will hear from Chief Jason Weller of the Natural 
Resources Conservation Service and Administrator Val Dolcini of the 
Farm Service Agency whose agencies have spent the past year and a half 
implementing the many reforms and changes found in the conservation 
title of the farm bill.
    I will be interested to hear about the status of implementation for 
each program and to hear the Administration's view on how consolidation 
has impacted program delivery.
    Since the June 1 deadline for producers to file their AD-1026 form 
has recently passed, it is very timely to receive feedback on issues 
related to conservation compliance with crop insurance. I appreciate 
both the gentlemen taking the time to be here today.
    We will also hear from a panel of stakeholders who are directly 
impacted by the implementation of these programs and the changes made 
by Congress.
    Consolidation of programs was necessary for funding and 
administering the programs, but we need to make sure it actually works 
on the ground.
    These stakeholders will be able to give us their perspectives on 
how they feel implementation is going and how the different programs 
are working.
    I look forward to hearing about our witnesses' experiences with the 
newly-created Regional Conservation Partnership Program (RCPP).
    RCPP is an innovative approach to targeting conservation 
initiatives and leveraging funding. In the initial rollout, RCPP funded 
115 projects across all 50 states and matched $370 million in program 
dollars with $400 million from partner contributions.
    Important programs like the Environmental Quality Incentives 
Program (EQIP) and the Conservation Stewardship Program (CSP) had 
relatively small changes in the Agricultural Act of 2014; however they 
remain integral tools in conserving our natural resources.
    The longest-standing conservation program, the Conservation Reserve 
Program (CRP), saw a significant reduction in the maximum acres allowed 
to be enrolled in the program, but in exchange, the 2014 Farm Bill 
afforded landowners more flexibility, especially for haying and 
grazing.
    It will be interesting to see the impacts the reduced acreage cap 
has had on the CRP program, and I am intrigued to hear our witnesses' 
opinions on it.
    Easement programs are an important conservation tool in my region. 
I would like to personally welcome Ms. Karen Martynick who is 
representing the Lancaster Farmland Trust in Strasburg, Pennsylvania.
    The consolidation of farmland, grassland and wetland easements into 
one program--the Agricultural Conservation Easement Program (ACEP)--
will streamline delivery as well as provide permanent baseline funding 
for future conservation programs.
    Again, thank you to all of the witnesses for taking time to be here 
today. We look forward to hearing each of your testimony.

    The Chairman.I am pleased to yield for an opening 
statement.

 OPENING STATEMENT OF HON. ANN M. KUSTER, A REPRESENTATIVE IN 
                  CONGRESS FROM NEW HAMPSHIRE

    Ms. Kuster. Good morning. I am pleased to be here today for 
the Subcommittee's first in-depth look at the implementation of 
the Agricultural Act of 2014's Title II conservation programs.
    I want to thank Chairman Thompson and our Ranking Member, 
Ms. Lujan Grisham, for holding this important hearing and for 
their leadership on this Subcommittee. The 2014 Farm Bill made 
reforms to the conservation title in order to make conservation 
programs more efficient, effective, and user-friendly for 
producers. These programs serve as important tools that our 
farmers and ranchers use to improve water quality, mitigate 
drought, and improve soil health.
    From New Mexico to New Hampshire, conservation programs 
like the Conservation Stewardship Program and the Environmental 
Quality Incentives Programs, EQIP, are helping farmers and 
ranchers endure drought conditions and allowing rural families 
to remain on their land and ranches. In fact, New Mexico is one 
of the leading states in CSP with close to 1 million acres 
enrolled and funded through this program. In addition to these 
traditional conservation programs, New Mexico has also 
benefited from the Regional Conservation Partnership Program, 
which is one of the new conservation programs the farm bill 
created.
    The RCPP aims to encourage innovative partnerships through 
a Federal/non-Federal cost-share in order to accomplish 
important conservation work at a watershed level. New Mexico's 
four RCPP projects are going to help the state prevent 
wildfires, combat invasive species, and preserve traditional 
communal irrigation systems. I am disappointed that our 
conservation programs have endured some cuts that will 
ultimately mean fewer resources for farmers and ranchers. But I 
am looking forward to hearing how this Committee can continue 
to support these programs which are vital in protecting 
rangelands, wildlife habitat, and water quality.
    I thank the witnesses for taking the time to be here with 
us today and share their testimony and expertise. And on behalf 
of Representative Lujan-Grisham, I want to extend a special 
welcome to Brent Van Dyke from New Mexico on the second panel. 
I look forward to the discussion. And with that, Mr. Chairman, 
we yield back.
    The Chairman. I thank the gentlelady. I am actually pleased 
to acknowledge the presence of our full Committee Chairman who 
I understand does not have an opening statement. But I want to 
wish him a very happy birthday today.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Well I thank the Chairman. I appreciate that 
and yield back. I appreciate the birthday wish. Thank you.
    The Chairman. I appreciate you sharing your birthday with 
the Subcommittee.
    Mr. Conaway. Actually I am sharing it with a baseball team 
tonight. That is our secret weapon. To win the Congressional 
baseball game tonight is my birthday present to myself, and it 
will be a victory by the Republicans. I yield back.
    The Chairman. I am pleased to recognize the full 
Agriculture Committee Ranking Member, Mr. Peterson, for an 
opening statement.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Well thank you, Mr. Chairman. And thank you 
for holding this hearing. And I want to thank the folks from 
the Department and their hard work and the other witnesses that 
are here. And Chief Weller, I thank you for the work you have 
done on the RCPP in our part of the world. We appreciate that. 
And we continue to work on implementing that. So that has been 
very much appreciated.
    I just want to bring up a couple concerns that I have heard 
too. I haven't looked into this as much, but I have been having 
farmers talk to me here the last month or 2 that they are not 
able to qualify to get back into the CSP. I don't know exactly 
what is going on, if it is a limitation on the dollars or what 
it is. But I have had two or three of them talk to me about it. 
Mostly, I want to discuss the CRP a little bit.
    A history lesson for those that haven't followed farm 
policy since 1985, which is a long time ago, the original CRP 
program was not a conservation program. The original CRP 
program was to reduce production because prices had collapsed, 
we had to get land out of production because we had too much 
production. And so we set up the CRP as a production control 
mechanism. Back in the 1950s, we had the forerunner, the Soil 
Bank. And back in those days, in my area, my home county, we 
had pheasants and ducks all over the place. And then 
Eisenhower, Ezra Taft Benson, came in, got rid of it. And I 
have been around too long.
    And we today haven't got a pheasant or a duck in that 
county. And the reason is we lost the Soil Bank and we never 
got it back in. Because by the time we reestablished the CRP 
program, that land had become too valuable. And it is all being 
farmed. So what I am concerned about is that we have added 
environmental factors into the CRP as we have gone along. Back 
in 1996, the one thing that was positive in the 1996 Farm Bill 
was that I convinced Chairman Roberts to raise the cap on CRP 
to 36 million acres. What that did is it spread out CRP all 
over the country. And it put in a lot of big tract CRP, which 
is the main reason why wildlife really responded to the CRP 
program. Because we had big tracts of half a section or a 
section where you could spread the predators out and they 
weren't able to zero in and wipe out all the wildlife like they 
do on the wildlife management areas in these 40 acre tracts and 
so forth. So that was really positive.
    But as we have gone forward, we keep putting more and more 
restrictions on the CRP. And we are narrowing where this can 
be, where people can get in. And I am concerned that where we 
are heading with CRP is going to really erode the wildlife 
benefits of the program. And we still have in the statute that 
\1/3\ of this is supposed to be wildlife benefits, which are 
supposed to be one of the primary reasons for the CRP.
    So I am somewhat disappointed and I have had discussions 
with the Secretary about the fact that we are not having a 
general sign-up this year. They have extended the contracts 
another year. And there is going to be a sign-up, as I 
understand it, probably the 1st of December, which, for 
Minnesota, that means nothing happens until the year after 
this. So I am concerned about the fact that we are not doing it 
this year. And there was an announcement made, there is going 
to 800,000 acres targeted. And, frankly, I am a little bit 
concerned about that. Because what we are doing, once again, is 
pushing all of these targeted programs which are okay to some 
extent. But \1/2\ of the 800,000 acres is going to go to be 
SAFE acres which are basically controlled by the state DNRs. 
And they have their agenda.
    And there is another 300,000 acres for nesting habitat 
which, apparently, you have to be able to prove that you have 
nesting pairs of ducks in your field in order for you to 
qualify. I am not that familiar with it. But that is what I 
have been told. And then we have the wetland restoration which 
makes you plug ditches and allow the wetlands to be restored 
which, I guess, means you are going to have wetlands on your 
land from that time forward, which has caused some controversy.
    And so these targeted programs have contributed to people 
setting up folks to help get people into these programs. And so 
in North Dakota, we have a big controversy that has developed 
because Ducks Unlimited have put a whole bunch of biologists in 
the FSA offices in North Dakota. And part of the criticism is 
that we have not funded the technical assistance, so this is 
necessary. But what is happening is they are pushing people 
into these other programs and now there is a backlash going on 
in North Dakota where they want to have a, they are talking 
about having a bill to tell them they can't have Ducks 
Unlimited people involved. So it has created some controversies 
out there.
    So I am a little concerned about where we are headed with 
all this. And I just think as we get to the next general sign-
up, I just hope that we can ramp down some of these 
environmental things so that we can still have big tract CRPs 
spread across the country and get these wildlife benefits, in 
addition to the environmental benefits. So with that, Mr. 
Chairman, I will yield back. And, again, I appreciate you 
having this hearing.
    The Chairman. I thank the gentleman. The gentleman yields 
back. The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony, to ensure there is ample time for questions.
    The chair would like to remind Members that they will be 
recognized for questioning in order of seniority for Members 
who were present at the start of the hearing. After that, 
Members will be recognized in the order of arrival. I 
appreciate the Members' understanding.
    Witnesses are reminded to limit their oral presentations to 
5 minutes. All written statements have been distributed ahead 
of time and will be included within the record.
    I would like to welcome our first panel witnesses who are 
at the table. Chief Jason Weller, Natural Resources 
Conservation Service, and Administrator Val Dolcini, Farm 
Service Agency. Thank you, gentlemen for being here today and 
for your leadership. And Chief Weller, please begin whenever 
you are ready.

           STATEMENT OF JASON WELLER, CHIEF, NATURAL
RESOURCES CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, D.C.

    Mr. Weller. Well good morning, Mr. Chairman, and Ranking 
Member Lujan Grisham. Nice to see you. And I appreciate very 
much the opportunity to be here before the Committee this 
morning. And if nothing else, I just want to express the 
gratitude and how grateful I am for the authorities and the 
resources this Committee provides to USDA and the stewardship 
you provide for America's private lands incentive-based 
conservation programs.
    Through the 2014 Farm Bill, what you provided, what you 
crafted in that bill provides USDA enormous flexibilities and 
authorities to go out, in partnership with farmers and 
ranchers, deliver real results for agriculture, to help them 
maintain, if not boost their production, but also then help 
them manage their natural resource challenges in a way that is 
really effective. And in that farm bill, as you know, you have 
streamlined a lot of programs. You have maintained 
flexibilities, even enhanced flexibilities, and then really 
emphasized the value and the importance of partnerships.
    And so with these authorities, on behalf of NRCS, we have 
been able to deliver very significant results just in the last 
year alone. But also looking back over previous farm bills too, 
there are some very significant results across America that I 
would like to talk about very briefly this morning. The bottom 
line is you can be extremely proud of the work that is being 
done in partnership with producers through the programs and 
authorities that you have authorized and funded through your 
hard work in the 2014 Farm Bill.
    Speaking of birthdays, Mr. Chairman, our agency celebrated 
our 80th birthday 2 months ago. So 2 weeks after Black Sunday 
in April 1935, President Roosevelt, in partnership with 
Congress, enacted and put into law what created the Soil 
Conservation Service. So 80 years of history working in 
partnership with farmers and ranchers, on a collaborative 
voluntary basis, working with soil and water conservation 
districts, state agencies and other private partners across 
America. I am very honored to represent the 10,000 
professionals that work at NRCS, work in field offices across 
America, in state offices, in centers, and in national 
headquarters. These men and women are true professionals. They 
do a lot of unheralded work that, in my view, is very honorable 
and is very valuable. And it is truly on behalf of America's 
farmers and ranchers. I am very honored to represent NRCS and 
hopefully convey a little bit about the results we are helping 
to deliver in partnership with producers.
    So, first, let me talk a little bit about some of the soil 
benefits. In the Chesapeake Bay region alone, since 2006, 
producers have put in place effective conservation practices to 
reduce sediment loss from their crop fields, upwards of 62 
percent. That translates into over 15 million tons of sediment 
that no longer flows in the Chesapeake Bay estuary. That is 
enough sediment to fill 150,000 train cars which would stretch 
from D.C. to Albuquerque, New Mexico every year.
    In terms of soil health, Mr. Chairman, you hosted and 
invited us to participate in a soil health briefing last year. 
And we heard from producers like Mr. Groff from Pennsylvania on 
how they have experimented and put in place soil health 
management practices. In the case of Mr. Groff, he manages 225 
acres in Pennsylvania. He has put in place soil health systems 
going back decades. And he reports yield boosts of upward of 
ten percent above local averages because of cover crops and 
wise tillage practices he has in place.
    Well since 2012, NRCS, through your programs, has put in 
place 3.7 million acres of cover crops, to help farmers put in 
place 1.7 million acres of no-till practices, to help protect 
the soils. And in periods of drought, back in 2012, when 
producers were surveyed in the heartland states, this one 
practice alone, cover crops, produces a reported yield benefits 
of 12 to 15 percent for corn and beans above conventional 
farmers that did not incorporate cover crops as part of their 
rotation.
    In terms of water, sometimes there is too much, sometimes 
there is too little, and sometimes we need to protect the water 
we have. In terms of water protection, because of the programs 
that you have authorized, we have partnered with producers in 
Arkansas to focus results. And because of that collaborative 
approach to protect water resources, the State of Arkansas is 
going to be able to de-list two waters from the section 303(d) 
impaired lists in Arkansas. And in Mr. Lucas' home State of 
Oklahoma, since 2007, the state, NRCS in partnership with 
Oklahoma Conservation Commission, de-listed upwards of 40 
streams and river segments in the state, 900 miles of stream 
segments taken off 303(d) lists because of positive proactive 
conservation on behalf of farmers.
    In terms of water conservation, the Ogallala Aquifer 
Region, in over 4 years we have put in place an effective 
irrigation efficiency practice with farmers that we estimate 
save 1.5 million acre feet of water. That is enough water to 
supply drinking water for 3.3 million households every year, an 
incredible quantity of water that is sustaining the healthy 
aquifer, maintaining productivity in the agricultural 
heartland, and also allowing for industry and municipalities to 
have access to that important water.
    Sometimes it rains too much like in Oklahoma and Texas. 
Because of wise investments that this Committee has made in 
previous decades, we estimate we have helped protect and 
prevent $130 million worth of flood damages that would have 
occurred but for the infrastructure. This Committee, in the 
2014 Farm Bill, invested in the rehab programs to help protect 
that infrastructure investment. And because of the wise 
investments, we were able to protect hundreds of thousands of 
families, communities, homes, public infrastructure, railways, 
bridges, schools, and hospitals, because of the hard work this 
Committee put in place.
    One final example, in terms of animals, just incredible 
benefits on wildlife. And, oftentimes, wildlife can be the best 
indicator. When you manage your forests, your grasslands, your 
crop fields effectively, nature will respond. Just 2 weeks ago 
with the Louisiana black bear, Secretary Jewell, Governor 
Jindal proposed removing the Louisiana black bear from the 
endangered species list, because of investments through private 
lands conservation easements.
    In Louisiana alone, over 217,000 acres were put in place 
through the Wetlands Reserve Program. And because of wise 
targeting and partnership with the state, we helped put in 
place a network of habitat that is good for protecting 
farmlands, protecting the values of those lands, but also 
protecting wetland resources, migratory bird resources. In this 
case, the Louisiana black bear.
    North in Montana, the Arctic Fluvial Grayling was taken off 
the candidate list because of actions of producers, of 
ranchers. In Oregon, the Oregon chub, was the first fish in 
history to be taken off the list not because it was extinct or 
extirpated, but because it came back. Conservation investments 
through your authorities brought the Oregon chub back from a 
population of less than 1,000 fish, today over 140,000 fish and 
growing.
    And then, most recently, the bi-state population of sage 
grouse on the border between California and Nevada, taken off 
the candidate list. Again, because of proactive investments 
through private lands conservation and the partnership of 
private landowners, ranchers, making a difference on their 
operations, going to keep them intact, keep them operating, 
keep them on their land, but also, in this case, keep the bird 
off the endangered species list.
    Thank you very much, Mr. Chairman, for inviting me here 
today. And I look forward to your questions.
    [The prepared statement of Mr. Weller follows:]

     Prepared Statement of Jason Weller, Chief, Natural Resources 
 Conservation Service, U.S. Department of Agriculture, Washington, D.C.
    Mr. Chairman, Ranking Member, and distinguished Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss implementation of the conservation programs authorized by 
the Agricultural Act of 2014 (2014 Farm Bill). The continuing support 
of this Subcommittee for voluntary private lands conservation is making 
a critical difference. Farm bill conservation programs provide 
America's farmers, ranchers and others with technical and financial 
assistance to enable conservation of natural resources while protecting 
and improving agricultural operations. Seventy percent of the American 
landscape is privately owned, making private lands conservation 
critical to the health of our nation's environment and ability to 
ensure our working lands are productive.
Farm Bill Implementation
    The 2014 Farm Bill was signed into law on February 7, 2014. The new 
farm bill delivered a strong conservation title that makes robust 
investments to conserve and support America's working lands and 
consolidates and streamlines programs to improve efficiency and 
encourage participation. The Natural Resources Conservation Service 
(NRCS) has the privilege of administering many of these programs, 
including the: Environmental Quality Incentives Program (EQIP), 
Conservation Stewardship Program (CSP), Agricultural Conservation 
Easement Program (ACEP), Regional Conservation Partnership Program 
(RCPP), Healthy Forests Reserve Program (HFRP), and Voluntary Public 
Access and Habitat Incentive Program (VPA-HIP).
    Enacted in early 2014, the 2014 Farm Bill initially allowed NRCS to 
continue to serve customers using existing program rules. As a result, 
FY 2014 service proceeded seamlessly and NRCS enrolled approximately 20 
million acres in voluntary conservation programs and obligated nearly 
$3 billion. At the same time, NRCS moved swiftly to draft rules, 
program guidance, and policies to support full implementation of the 
new and modified programs. The following provides an overview of 2014 
Farm Bill implementation activity:

  <bullet> Since the Conservation Stewardship Program (CSP) started in 
        2009, the program has become a major force for agricultural 
        conservation, and it continues to inspire action to enhance 
        America's natural resources. In FY 2014 NRCS enrolled about 9.6 
        million acres and now CSP enrollment exceeds 60 million acres, 
        about the size of Iowa and Indiana, combined.

      The CSP Interim Final Rule was published in November 2014, 
        reflecting statutory changes to the acreage enrollment cap, 
        stewardship levels, contract modifications, and CRP and certain 
        easement land eligibility. Public comments were accepted 
        through January 20, 2015. NRCS received nearly 500 individual 
        comments; most related to access to the program, minimum 
        payments, contract rates, and stewardship thresholds. We are 
        working to address the public comments and expect to publish 
        the final rule in Summer 2015.

  <bullet> Through the Environmental Quality Incentives Program (EQIP) 
        producers addressed their conservation needs on over 11 million 
        acres in FY 2014; over $928 million was obligated in nearly 
        40,000 contracts to support this conservation work.

      The EQIP Interim Final Rule was published in December 2014, 
        reflecting the statutory changes to incorporate the purposes of 
        the former Wildlife Habitat Incentive Program and address the 
        payment limitation and waiver authority, advance payments for 
        historically under-served producers, and preferences to certain 
        veteran farmers and ranchers. Public comments were accepted 
        through February 10, 2015. NRCS received over 330 individual 
        comments; most related to the irrigation history, confined 
        animal feeding operations, EQIP plan of operations, program 
        administration, payment rates and limitations, application 
        selection, and funding levels for wildlife practices. The final 
        rule is targeted for completion in early Fall 2015.

  <bullet> Conservation Innovation Grants--In September 2014, NRCS 
        awarded $15.7 million in CIG to 47 organizations that will help 
        develop and demonstrate cutting-edge ideas to accelerate 
        innovation in private lands conservation. The FY 2015 Funding 
        Announcement was released in January 2015 offering up to $20 
        million. Project selection is targeted for late Summer 2015.

  <bullet> Landowners participating in the Agricultural Conservation 
        Easement Program (ACEP) enrolled an estimated 143,833 acres of 
        farmland, grasslands, and wetlands through 485 new ACEP 
        easements (88,892 acres in Ag Land Easements, and 54,941 acres 
        in Wetland Reserve Easements) with the $328 million in FY 2014 
        funding. These easements will help preserve important 
        agricultural lands and agricultural viability while they create 
        and protect habitat for migratory birds and other important 
        species.

      The ACEP Interim Final Rule was published in February 2015, 
        reflecting statutory changes to consolidate the purposes of 
        FRPP, GRP (easement component only) and WRP and address the 
        certification process for ACEP-ALE; authority to subordinate, 
        modify, or terminate an easement; grasslands of special 
        environmental significance; and the agricultural land easement 
        plan. Public comments were accepted through May 28, 2015. NRCS 
        is evaluating public comments presently and developing 
        recommendations for the final rule.

  <bullet> The Regional Conservation Partnership Program (RCPP) created 
        a new platform for engaging partners and leveraging the Federal 
        conservation investment. The first RCPP announcement of over 
        $370 million in program funding was rolled out on May 27, 2014. 
        Following a rigorous two-stage competitive process, 115 high-
        impact projects across all 50 states and the Commonwealth of 
        Puerto Rico were selected in January 2015. Partners brought 
        forward an estimated $400 million in their own contributions 
        for a total investment of nearly $800 million that will go to 
        improve the nation's water quality and supply, support wildlife 
        habitat and enhance agricultural production and the 
        environment. The FY 2016 funding announcement was released in 
        May 2015, making available up to $235 million for new 
        agreements. This round of RCPP will have an even greater 
        emphasis on partnerships, leveraging, and diversity to achieve 
        innovative solutions to locally identified issues.

  <bullet> The Voluntary Public Access and Habitat Incentives Program 
        (VPA-HIP) assists states and Tribes to increase public access 
        to private lands for wildlife-dependent recreation, such as 
        hunting, fishing and hiking. In FY 2014, NRCS made $20 million 
        available for VPA-HIP awards and was able to fund ten of the 30 
        proposals received. In February 2015, NRCS announced the 
        availability of $20 million for VPA-HIP projects. Project 
        selection is targeted for Summer 2015.

  <bullet> The Mitigation Banking program provision will be implemented 
        directly through an announcement of program funding. The 
        implementation approach is being finalized with an expected 
        announcement in Summer 2015.

    In addition to the major rule changes discussed above, minor 
statutory changes to Technical Service Providers; State Technical 
Committees; Healthy Forests Reserve Program; Small Watershed Program; 
Regional Equity; Voluntary Public Access and Habitat Incentives 
Program, and Agricultural Management Assistance were published in a 
consolidated Interim Final Rule in August 2014. The few public comments 
received were addressed in the final rule published in April 2015.
Farm Bill Conservation Programs Deliver
    With the tools and resources provided through the 2014 Farm Bill, 
USDA and its partners are positioned to help agriculture make a major 
difference in the lives of farming and ranching families and the 
quality of natural resources. While these programs work well 
independently, they are a family of tools that are providing 
comprehensive landscape-scale solutions and benefits. Below are a few 
highlights of how farm bill conservation programs are achieving natural 
resource results in balance with productive agriculture.
    The right conservation practices put in the right places are an 
effective means to achieve cleaner more abundant water for farmers, 
ranchers, communities, and wildlife. Using farm bill programs through 
the Mississippi River Basin Initiative (MRBI), NRCS has invested 
significantly in high-priority water quality projects in the Basin 
delivering on the ground benefits. For example, as a result of MRBI 
conservation efforts, Arkansas was able to remove two stream segments 
from the State's Clean Water Act 303(d) impairment designation. Working 
with partners and using farm bill tools, farmers, ranchers and other 
landowners have helped remove nine more streams from Oklahoma's 303(d) 
list of impaired streams in 2014. Oklahoma ranks second in the nation 
for EPA-recognized water quality success stories. And in the region 
overlying the Ogallala Aquifer in the Central Plains, farm bill 
programs have allowed NRCS to partner with farmers to install water 
conservation practices that conserved an estimated 1.5 million acre-
feet of groundwater over 4 years, or enough water to provide annual 
water needs for about 3.3 million households.
    If the widespread drought has shown us anything, it is the value of 
crop resilience through good soil health management systems. Using farm 
bill programs, NRCS has been accelerating adoption of soil health 
practices and helping producers build resilience in their production 
systems. Soil health management systems help increase organic matter, 
reduce soil compaction, improve nutrient storage and cycle and increase 
water infiltration and water availability to plants. These benefits 
lead to greater resiliency to adverse conditions but also boost yields. 
For example, a national survey of farmers documented an increase in 
yields of nine percent for corn following cover crops and ten percent 
for soybeans after cover crops.
    The StrikeForce for Rural Growth and Opportunity initiative targets 
farm bill programs in persistent poverty communities to assist farmers 
and ranchers achieve economic and environmental objectives. Since 2010, 
NRCS and other USDA agencies have focused assistance and outreach in 
over 880 counties, parishes, boroughs, and Census areas, and in Indian 
reservations in 22 states. In FY 2014 alone, NRCS invested $286 million 
in partnership with producers in high-poverty communities to help their 
operations be more economically successful and environmentally 
sustainable. For example, NRCS in partnership with Tuskegee University 
has invested about $1 million to help nearly 40 producers in Alabama 
StrikeForce counties to incorporate innovative practices on their 
farming operations, including retro-fits for current irrigation 
systems, new wells, solar powered wells, and drip irrigation systems 
that will make their operations more productive and sustainable.
    Farm bill programs and conservation efforts of farmers and ranchers 
have had major positive and measurable impacts on wildlife species. For 
example, the August 2014 decision by the U.S. Fish and Wildlife Service 
(USFWS) to not list the arctic fluvial grayling under the Endangered 
Species Act was a direct result of voluntary conservation work done by 
30 landowners on more than 150,000 acres. The February 2015 decision to 
de-list the Oregon chub is another success story, with farm bill 
programs helping producers improve their operations at the same time 
delivering benefits to fish habitat. In April 2015, USFWS announced its 
decision to withdraw the proposal to list the bi-state population of 
greater sage grouse in California and Nevada as threatened under the 
ESA, based on the success of voluntary conservation efforts to recover 
this species and its habitat.
    Voluntary conservation efforts are improving air quality in 
California's San Joaquin Valley. In April, EPA published a revision to 
California's State Implementation Plan that for the first time credits 
producer actions in clearing the air. Farmers and ranchers, with 
assistance from NRCS, have replaced aging diesel engines used for 
agricultural purposes with new, lower exhaust-emitting engines. Since 
2008, NRCS has co-invested more than $100 million in this effort with 
producers and offset the equivalent of emissions from one million cars. 
The agriculture sector achieved its air quality improvement target 3 
years ahead of the schedule mandated by state regulations--the only 
regulated sector to do so. Farm bill Programs are demonstrating how the 
voluntary actions by producers can translate to quantified air quality 
improvements in California's San Joaquin Valley.
Conclusion
    Mr. Chairman and Members of the Subcommittee let me conclude by 
saying that our nation's farmers and ranchers have a tremendous track 
record of success in conserving our nation's soil and water resources. 
Through the work of this Subcommittee in providing the programs of the 
2014 Farm Bill, NRCS has the tools to continue assisting these stewards 
to achieve their production and operational goals in balance with 
natural resource objectives that benefit rural communities and the 
nation as a whole. Voluntary conservation is working, and the programs 
and authorities provided through The Agricultural Act of 2014 are 
providing the programs and services that help strengthen agriculture, 
the environment, and rural economies. Thank you for the opportunity to 
be here today and update the Committee on our Agency's efforts to 
effectively implement the 2014 Farm Bill. I would be happy to respond 
to any questions at this time.

    The Chairman. Chief, thank you so much. Thanks for the 
insight on those southern black bears. I thought they only 
liked my corn farmers' fields.
    Administrator Dolcini, please go ahead and proceed with 
your 5 minutes. Thank you.

  STATEMENT OF VAL DOLCINI, J.D., ADMINISTRATOR, FARM SERVICE 
    AGENCY, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Mr. Dolcini. Thank you, sir. Mr. Chairman, Members of the 
Subcommittee, I appreciate this opportunity to discuss FSA's 
implementation of the farm bill's conservation title. Like 
Chief Weller, I would like to thank this Subcommittee and the 
full Committee in this Congress and in past Congresses for the 
support that you have shown our programs, our people, and our 
resources. And like Chief Weller, I want to call out the hard 
work of 15,000 FSA employees in 2,124 service centers across 
this country, along with the 7,000 or so farmer-elected county 
committee men and women that support the work of FSA. They are 
our competitive edge. It is not the work that I do here in 
Washington, it is the work that is done in the field every day.
    And to stay on the birthday band wagon, I will start my 
testimony with a note that the Conservation Reserve Program 
turns 30 this year. And so we are celebrating all year long the 
30th anniversary of conservation achievements across the 
American landscape. CRP is a voluntary program that allows USDA 
to contract with farmers and ranchers so that environmentally 
sensitive lands and lands with wildlife benefits are not farmed 
or ranched, but, instead, are used for conservation benefits. 
Participants establish long-term covers, such as approved 
grasses or trees, to control erosion and water quality. And, in 
return, we provide participants with rental payments, cost-
sharing, and other incentives for the period of the contract. 
CRP restores habitat for ducks, pheasants, deer, and other 
wildlife. And in doing so, it spurs hunting, fishing, 
recreation, tourism, and other forms of local economic 
development. We have a large number of partners who work 
collaboratively with FSA and contribute to these achievements, 
including our sister agency, NRCS, as well as numerous non-
Federal partners that you will hear from later this morning.
    Currently, 24.3 million acres are enrolled in CRP 
contracts, including 18.1 under general sign-up authority and 
6.2 million under continuous sign-up authority. CRP contracts 
on 1.9 million acres will expire at the end of this fiscal 
year. With the enactment of the farm bill, the total number of 
CRP acres that can be enrolled nationwide has been reduced from 
32 to 24 million beginning in Fiscal Year 2017. And as a 
result, we anticipate that CRP will increasingly focus on the 
most sensitive acreage and that the sign-ups will be 
increasingly competitive. To target this high-benefit acreage, 
Secretary Vilsack announced on May 29 that an additional 
800,000 acres would be available under certain continuous 
authorities, including, as Congressman Peterson pointed out, 
300,000 acres for duck habitat, 100,000 acres for wetlands, and 
400,000 acres for the SAFE acre program.
    He also announced that the next general enrollment period 
will begin on December 1 and will conclude on February 26 of 
2016. Participants with eligible CRP contracts that expire this 
fiscal year will be provided an option on a 1 year extension. 
USDA also restarted continuous enrollment activity in the 
Transitions Incentive Program, the TIP program. This encourages 
transfer of expiring CRP lands to beginning and socially-
disadvantaged farmers and ranchers. Other farm bill provisions, 
such as changes to haying and grazing, tree thinning and 
grasslands, require rulemaking and National Environmental 
Policy Act analysis. Both of these efforts are underway and 
both are nearing completion.
    The 2014 Farm Bill also requires compliance with highly-
erodible land and wetland conservation requirements in order to 
be eligible for crop insurance premium subsidies. While most 
farmers have a certification form on file, I would say many 
farmers do, USDA conducted informational meetings and training 
sessions all across the country for those who may not. And we 
reached tens of thousands of stakeholders to ensure that 
affected producers who filed their form by the June 1 deadline 
can remain eligible for premium supports during the 2016 
reinsurance year.
    In light of recent natural disasters, such as the serious 
flooding we have seen in Oklahoma and Texas and continued 
drought conditions in California and elsewhere in the West, I 
would like to also reemphasize the importance of our Emergency 
Conservation Program. ECP provides emergency funding and 
technical assistance to help farmers and ranchers rehabilitate 
farmland damaged by natural disaster. It also helps livestock 
producers enhance water supplies during severe drought. And we 
are standing by to assist states in need with that program.
    Mr. Chairman, Members, as you have noted, our nation's 
farmers and ranchers are dedicated stewards of land 
conservation. For 30 years, their participation in CRP has 
prevented billions of tons of soil from eroding, reduced 
nitrogen and phosphorus run-off significantly, sequestered 
millions of tons of greenhouse gasses, and has protected about 
170,000 miles of streams and creeks throughout this nation. 
Last month, we also reached the 1 million acre milestone in the 
SAFE acre program. And throughout the course of the year, we 
will be highlighting success stories from all over the nation 
to mark 30 years of successful CRP conservation work.
    Farmers and ranchers are doing great things to conserve the 
environment in your Congressional districts and to build 
habitat. And they can count on FSA's support in those efforts. 
This concludes my testimony. And I am happy to answer any 
questions that you may have.
    [The prepared statement of Mr. Dolcini follows:]

 Prepared Statement of Val Dolcini, J.D., Administrator, Farm Service 
        Agency, U.S. Department of Agriculture, Washington, D.C.
    Mr. Chairman and Members of the Subcommittee, I appreciate this 
opportunity to provide information on the Farm Service Agency's (FSA's) 
implementation of the conservation programs of the Agricultural Act of 
2014 (the 2014 Farm Bill).
CRP and the Road to 24 Million Acres
    The Conservation Reserve Program (CRP) first appeared in the 1985 
Farm Bill and is one of USDA's largest conservation programs. CRP 
allows USDA to contract with landowners so that environmentally 
sensitive land is not farmed or ranched, but instead used for 
conservation benefits. Participants establish long-term, resource-
conserving cover and, in return, FSA can provide participants with 
annual rental payments, incentive payments, and cost-share assistance. 
Contract duration is between 10 and 15 years. CRP improves water 
quality, reduces soil erosion, and restores habitat for ducks, 
pheasants, turkey, quail, deer and other wildlife. In doing so, CRP 
spurs hunting, fishing, recreation, tourism, and other economic 
development across rural America.
    Currently, 24.3 million acres are enrolled in CRP contracts, 
including 18.1 million acres under general sign-up enrollment authority 
and 6.2 million acres under continuous sign-up enrollment authority. 
CRP general sign-up is a competitive process conducted on a periodic 
basis. The last general sign-up occurred in the spring of 2013. CRP 
continuous sign-up occurs on a continuous basis throughout the year and 
does not involve a discrete sign-up period. CRP contracts on 1.9 
million acres (combined general and continuous) are set to expire on 
September 30, 2015.
    The 2014 Farm Bill reduces the cap on overall CRP enrollment 
authority incrementally from 32 million acres to 24 million acres 
starting in Fiscal Year 2017. As a result of the enrollment cap and 
expected increase in demand for CRP due to lower commodity prices, we 
expect general enrollments to become more competitive in the future and 
the environmental benefits achieved per acre of CRP will potentially 
increase. We will also continue to pursue continuous enrollments to 
target the most environmentally-sensitive acreage to help address 
national, regional, state, and local resource concerns.
    To mark the 30th anniversary of CRP, Secretary Vilsack announced an 
effort on May 29 to target the most valuable conservation land by 
increasing acreage allocations under certain continuous wetland and 
wildlife initiatives by 800,000 acres. This increase was offset by a 
combination of cost savings and efficiencies and includes 300,000 acres 
for duck nesting habitat (doubling the available acres); 100,000 for 
wetland restoration initiatives; and an added 400,000 acres for State 
Acres for Wildlife Enhancement (SAFE). In addition, the Secretary also 
announced that the next CRP general signup offer period will begin on 
December 1, 2015, and extend through February 26, 2016. We will enroll 
sufficient CRP acreage to closely meet as possible, but not exceed, the 
statutory acreage limits set in the 2014 Farm Bill.
    Program participants with contracts expiring September 30, 2015, 
and less than 15 years in duration, have the option of a 1 year 
extension. Those with continuous sign-up contracts are eligible to re-
enroll in CRP.
    FSA is proud of the vital impact that CRP has had on the landscape. 
Since its inception, we estimate that CRP has prevented more than 8 
billion tons of soil from eroding and reduced nitrogen and phosphorous 
runoff by 95 percent and 85 percent, respectively, on enrolled lands. 
In addition, CRP has sequestered an estimated 43 million tons of 
greenhouse gases annually, which is equal to taking eight million cars 
off the road.
Future CRP Actions and Activity in 2014
    In addition to reducing the CRP acreage cap, the 2014 Farm Bill 
made other changes to the program. For example, it mandated that non-
easement functions of the repealed Grassland Reserve Program be carried 
out under CRP, with enrollment of up to 2 million acres authorized. 
These enrollments count against the statutory CRP acreage cap. In 
addition, the 2014 Farm Bill mandates changes to routine, prescribed, 
and emergency grazing, managed harvesting frequency, tree thinning 
payments, and other provisions. Our rulemaking to implement those 
changes is well underway, as is the process to complete the National 
Environmental Policy Act requirements.
    Some 2014 Farm Bill provisions could be implemented without 
regulatory changes and these provisions were implemented early in the 
summer of 2014. For example, continuous sign-up was re-started on June 
9, 2014 after ceasing on September 30, 2013, when enrollment authority 
ended. Since sign-up re-started, roughly 600,000 new continuous sign-up 
acres have been enrolled.
    Similarly, the Transition Incentives Program (TIP) was also re-
started on June 9, 2014, which provides 2 additional years of payments 
for retired farmers and ranchers who transition expiring CRP acres to 
socially disadvantaged, veteran, or beginning farmers and ranchers who 
make conservation and land improvements, begin the certification 
process under the Organic Foods Production Act of 1990, or return the 
land to sustainable grazing or crop production. TIP was first 
introduced by the 2008 Farm Bill, and the $25 million funding provided 
in the 2008 Farm Bill was completely expended. The 2014 Farm Bill 
increased TIP funding, providing up to $33 million through 2018. For 
2014 CRP contract expirations, nearly $9 million of TIP funding was 
obligated.
    The 2014 Farm Bill also allows termination of a CRP contract during 
Fiscal Year 2015, if the contract has been in effect for a minimum of 5 
years and certain other conditions are met. Preliminary data indicate 
contracts associated with only about 90,000 CRP acres have been 
terminated to date in Fiscal Year 2015.
Emergency Assistance through non-Title II Conservation Programs
    Given the increasing incidence of serious natural disasters, the 
Emergency Conservation Program (ECP) is of heightened importance. This 
program, which was first enacted in the Agricultural Credit Act of 
1978, provides emergency funding and technical assistance to farmers 
and ranchers to rehabilitate farmland damaged by natural disasters and 
for implementing emergency water conservation measures during periods 
of severe drought. FSA has allocated $6 million over the past year to 
California farmers and ranchers to enhance livestock water supplies. 
With recent flooding in Texas and Oklahoma, we stand ready to provide 
ECP funding, within our available resources, to farmers and ranchers in 
those states to restore livestock fences and conservation structures, 
remove flood debris, and rehabilitate farmland.
2014 Farm Bill Conservation Compliance Provisions
    The 2014 Farm Bill re-established the link between Highly Erodible 
Land and Wetland Conservation provisions and crop insurance subsidies. 
To be eligible for premium subsidy for the 2016 Federal Crop Insurance 
Corporation reinsurance year (which runs from July 1, 2015 to June 30, 
2016), producers purchasing crop insurance were required to file form 
AD-1026, ``Highly Erodible Land Conservation (HELC) and Wetland 
Conservation (WC) Certification'' with their local FSA office by June 
1, 2015. This form is already required for participants in most FSA and 
Natural Resources Conservation Service (NRCS) programs, so an AD-1026 
will already be on file for these producers.
    Producers who are most likely to need to file an AD-1026 for the 
first time are specialty crop farmers who may not participate in other 
USDA programs. To reach these and other producers, FSA, NRCS, and the 
Risk Management Agency (RMA) have worked closely over the past several 
months on a coordinated outreach effort. We've deployed a variety of 
informational documents and online resources including news releases, 
fact sheets, frequently asked questions, and brochures to help farmers 
understand what they need to do. We have also coordinated with groups 
that helped us reach affected producers, and conducted informational 
meetings and training sessions for nearly 6,000 stakeholders across the 
country.
    FSA could not implement our conservation programs without the 
extremely valuable assistance provided by our inter-agency and non-
Federal partners. NRCS and the Forest Service, as well as non-Federal 
providers, have for many years provided technical assistance associated 
with CRP implementation. Since 1985, we have worked closely with NRCS 
to implement conservation compliance provisions. The 2014 Farm Bill has 
intensified our interaction with RMA, particularly in areas of data-
sharing to run FSA's farm programs, and we look forward to seamless 
interaction regarding conservation compliance implementation as well.
    This concludes my testimony. I am happy to answer any questions you 
may have.

    The Chairman. Thank you, Administrator.
    And I will take the liberty of the first 5 minutes of 
questioning. And thank you for your leadership of, really of 
implementing the farm bill that we worked on so diligently in 
this Committee. I appreciate your leadership with 
implementation. I have a question regarding, I know that 
conservation compliance was something that was in the farm bill 
and specifically impacting--I have a question related, probably 
mostly about specialty crop growers and possibly some, I am 
hearing maybe this impacts livestock as well.
    In order to be eligible, there was a requirement to submit 
by June 1, which date has come and gone, the AD-1026. My 
understanding is the agencies have very aggressively tried to 
communicate and get the word out that in order to be eligible 
for the subsidy, crop insurance subsidy, you were going to be 
required to submit this form. And if they don't, then basically 
they would lose the subsidy. And they may not know that until 
the bill comes due in October. So a bit of a delay here. I 
wanted to see, and I appreciate what has been described as your 
aggressive notification process. Any estimate in terms of 
actual completion or perhaps those who have not submitted by 
that date, and what type of follow-up measures to make sure 
that, specifically specialty crop and, again, possibly 
livestock producers.
    Mr. Dolcini. Sure, Mr. Chairman, I will take the first 
crack at that answer. I appreciate the fact that you have noted 
that we have done a pretty good job, thus far, with 
implementation. Implementing a farm bill is a real team effort. 
And at the Department of Agriculture, we work hand in glove on 
a variety of different issues, but mostly in the conservation 
compliance realm with our sister agencies, the Risk Management 
Agency, as well as the Natural Resources Conservation Service, 
to make sure that we are reaching everybody who potentially 
would be able to participate in that RMA program. Our primary 
goal is to make sure that farmers and ranchers, our customers, 
have as much access to information as they possibly can in 
order to make well-educated decisions about programs that they 
may or may not want to participate in.
    And so in the case of conservation compliance, which was 
obviously re-linked in this last farm bill, the need to comply 
with highly-erodible land and wetland requirements and 
receiving Federal crop insurance premium subsidies. I would 
also add, sir, that many of our farmers already have AD-1026s 
on file. If they participated in our marketing assistance loan 
program or disaster assistance, perhaps other USDA programs, 
they already have an AD-1026 on file. We really went the extra 
mile, beginning last year, sending mail notifications, 
postcards by the Farm Service Agency. We held tens, if not 
hundreds, of public meetings around the country with specific 
commodity organizations. We participated in a conference call 
before that June 1 deadline to make sure their membership knew 
what the requirements were and that they needed to get an AD-
1026 into the office by June 1. We did special outreach 
activities in every state, particularly those that grow 
specialty crops, like my home State of California. I traveled 
to California and conducted some meetings myself to make sure 
that commodity organizations and specialty crop growers and the 
affected industry, the insurance industry, knew about the June 
1 deadline and that they would have as much access to FSA and 
USDA information as we possibly could make available. We are 
reconciling those numbers now, sir. And I don't have definitive 
numbers for you this morning, but we will certainly share those 
with the Subcommittee when we have completed that process. But 
I do want you to know that from the perspective of this three-
agency effort, we really feel like we left no stone unturned 
when it came to making certain that people knew about the 
program and the deadline.
    The Chairman. Thank you. My second question, and probably 
by the time I get done asking it, I will have run out of time. 
But let me ask it and then look forward to getting some type of 
follow up on it. I want to follow up on the Ranking Member's 
issue that he had raised. And it seems to me there is certainly 
a benefit of what the agency has done perhaps on its own 
initiative of creating or broadening a public-private 
partnership, of bringing biologists and individuals in from 
some great organizations that are involved in habitat and 
wildlife. But I would really like to get a feel nationwide how 
many individuals do we have now that are working within our 
agencies, that are perhaps from organizations, great 
organizations like Ducks Unlimited or National Wild Turkey 
Federation. I am not sure what organizations may be involved.
    How many, what the role is, and also what are the 
safeguards, because we need to make sure that obviously, first 
and foremost, that this is driven by, for our farmers and 
ranchers. We know the wildlife benefit, as Members of this 
Committee, quite frankly, as a sportsman myself, but I want to 
see what are the safeguards, make sure we are avoiding any kind 
of conflict of interest within those roles. I think those are 
important lines to define. And the Ranking Member had those 
concerns. And I have heard from folks that are raising kind of 
the same questions. So it would be good to get the information 
out. With that, my time has expired. And I am pleased to 
recognize the Ranking Member for 5 minutes of questioning.
    Ms. Lujan Grisham. Thank you very much, Mr. Chairman. Chief 
Weller and Administrator, thank you very much for being here. I 
agree, the entire Committee, appreciates your efforts and 
diligence. And the update of that, how we are proceeding and 
updating the latest investments and new authorities in the farm 
bill. Chief Weller, in your testimony and in your written 
testimony as well, you have mentioned the importance of the 
conservation programs and investments and their impact on 
yields and endangered species listings. Specifically today you 
talked about two, the Louisiana black bear and the Oregon chub. 
I really appreciate that because in that context, that is what 
we all want those positive end results, but I continue to hear, 
of course, concerns in my state and district from landowners 
and the industry about how listing of a species impacts their 
livelihood and their businesses. And I also hear, frankly and 
interestingly enough, those same concerns from environmental 
and conservation groups on how species population numbers and 
those critical habitats continue to shrink.
    It is clear to me that both these groups may have a 
different means to an end, but they are concerned, quite 
frankly, about the very same things. They want to protect 
species. And they want to prevent listings. And I have seen 
stakeholders from many different backgrounds, frankly, come 
together and work toward this goal very successfully. And I 
will give you an example. In 2011, the oil and gas industry in 
my state was very concerned about the dunes sagebrush lizard 
listing that would eliminate drilling in the Permian Basin 
which produces 20 percent of all the oil in the lower 48 
states. Now, as you might imagine, this has a significant set 
of consequences not only for my state and district, but for the 
entire country. Now, thankfully, the listing was avoided 
because landowners in New Mexico and Texas proactively took 
steps to remove the threats to the listing on 600,000 acres 
which covered 88 percent of the lizard's habitat. What I would 
love to do is replicate those efforts as often as I can. And I 
believe, of course, that NRCS is in a position to encourage 
real innovation.
    What I worry about, however, is that stakeholders continue 
to tell me they don't have the information or the resources 
that they need to adequately participate in the conservation 
programs or to collaborate effectively so that they can have 
those kind of results. So I would love it if you would walk me 
through and describe what kind of outreach is going on, how are 
we educating and engaging landowners in the conservation 
programs. And as you do that, how you are encouraging them, as 
you reach out to that group of stakeholders, to have 
relationships with the environmental community, not only in 
their communities and their states but around the country so 
that you achieve the successes that you identified in your 
testimony and I identified in my question.
    Mr. Weller. Thank you for the recognition of the 
contributions that the USDA programs are providing for wildlife 
or, in this case, to also help producers be productive and stay 
on their lands. In my view and the view of my colleagues at 
NRCS, the common thread between the environmental interests, 
the wildlife interests, and agriculture, at the end of the day, 
it is in everyone's interest to keep working lands working. You 
have to keep people on the land. You want them working the 
range. You want them working the crop field. You want them 
working the forests. When those lands are either abandoned, 
like in the West where you then lose the forests to wildfire 
threats because those are no longer managed or fire is not 
allowed to be part of the ecosystem. Or when lands are 
developed, they are converted to other economic uses. It has an 
impact on wildlife, it has an impact on the agricultural 
economy and the integrity of that economy, and has impacts on 
waters. So in terms of how we are doing the outreach, it first 
starts with our partnership with agricultural groups. At the 
end of the day, a farmer or rancher can be our best salesperson 
on the value of conservation.
    Ms. Lujan Grisham. Can you give me a little more 
specificity about that partnership, I have about 40 seconds 
left, really looking at how I help my folks know exactly what 
to do.
    Mr. Weller. So often, for example, like in Wyoming, it is 
with the Wyoming Stock Growers Association, they are avid 
proponents for the value of easements, the value of range 
conservation. And with them, we have partnered with the Wyoming 
Stock Growers Association to put in place, in my view, one of 
the most effective sage step conservation efforts, frankly, in 
history, to help address concerns with sage grouse. But, in 
this case, it is also about keeping intact Wyoming ranching 
operations. It is also working through local soil and water 
conservation districts. They know, they have the local networks 
of relationships with producers. They can then have the 
networks and partnerships with agricultural groups at the local 
level, can help get the work out about opportunities, about how 
to work better with NRCS, but other opportunities that may be 
available through the state or other private groups.
    Ms. Lujan Grisham. Thank you.
    The Chairman. I thank the gentlelady. Now I am pleased 
recognize Mr. Lucas, for 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman. And perhaps for a 
moment before we get into a lot of the details, considering the 
80th anniversary of the founding of the NRCS's predecessor not 
many days ago, the 30th anniversary of CRP, we almost need to 
take a victory lap here, consider the progress and the great 
accomplishments of your predecessors out there, gentleman, over 
the course of the last 80 years. And, for that matter, our 
predecessors here. In my region of the country, in the last 
4\1/2\, 5 weeks have had 22" of rain. I average 24-28" a year 
on the farm where I live. In 2011, we had 14" for the entire 
year. It came at the wrong time of the year. And for the first 
time in my memory or the memory of any senior members of my 
community, we actually had substantial amounts of native 
grasses in the pastures die from dry freezes in the wintertime. 
We have bounced back and forth through these weather patterns. 
And in this last calendar year, another 14" of rain.
    The fact that we could go 5 years in the Southwest region 
of the country, where the Chairman and I are from, through 
those kind of conditions and not have the most amazing dust 
storms, not have the most amazing environmental collapse is an 
amazing compliment to the work of your predecessors and to the 
work of our predecessors on this Committee, absolutely amazing. 
And then to have Mother Nature change course and drop 22" of 
rain where I live in 4-5 weeks and not have massive flooding, 
massive loss of human life, massive degrading of the 
environment, the wildlife up and down those streams is a 
statement once again about the work of all of our predecessors. 
The upstream flood control programs, the rehab programs, all of 
those things. So in the very cynical world that we live in, it 
is worth acknowledging for just a moment we have done some good 
stuff together here in the course of 80 years. And it gives us 
a tremendous foundation to build forward.
    The Ranking Member alluded to the CRP situation. And he is 
exactly right. CRP, in its earlier reincarnation, was a 
creation, was the Soil Bank of the 1950s, a response to the 
price issues facing production agriculture. An acknowledgment 
that the programs from that period back to the AAA Act of 1933 
had not always been cost effective or effective in providing 
relief. The Soil Bank, at least from the perspective of my 
predecessors in the early 1960s came to an end because it began 
the dramatic depopulation of the southern plains. You put your 
farm in the program, you sold your equipment, you moved to 
wherever the kids lived. We re-encountered that in the 1985 
program. But that said, the effect that it has had on the 
environment, on the wildlife, on a variety of things across the 
country is without measure. At the time, the Ranking Member and 
I in this Committee worked to put the 2014 Agricultural Act 
together, we had $7 corn for much of that period. CRP, being a 
voluntary program, 7 million acres approximately, we predicted, 
would come out. And under the Budget Act of 1974, which I am 
not as impressed with as I have been impressed with all our 
conservation actions of the last 80 years, we were compelled to 
reduce the number of authorized acres to reflect what the 
market decisions were being made in order to preserve that 
revenue stream to be able to do the farm bill, as the Ranking 
Member well knows. We don't have $7 corn anymore. We have 
amazing weather patterns around the country.
    At some point, as a Committee, we have to reassess our CRP 
situation. Wouldn't you agree, Mr. Ranking Member? We have to 
reassess that. But that said, we have a vehicle that is both 
good for the farm economy generally and good for wildlife 
generally that we can work with. And that is the legacy of the 
2014 Agricultural Act. It has built off the good work for 
generations. If I get a little wound up, understand that I come 
from and live in that region on the east side of the Rockies, 
in the southern part of the plains, it was so miserably 
horrible in the 1930s, thanks to Mother Nature and thanks to, 
in many cases, bad policy decisions. That same area that went 
through the drought of the 1950s, that same area that went 
through the horrible economic bust of the 1980s. Once again, 
many bad policy decisions. I just encourage all of us at this 
hearing to think not only about the circumstances now, but 5, 
10, 20, 25 years down the road, to build off of the work that 
has been laid for us, to make sure that by accident or 
intention, we never have another 1930s or 1950s or 1980s. That 
is our responsibility. Again, gentlemen, thank you for your 
good work. And, Mr. Director, everything that you can do when 
it comes to the issue of the AD-1026s that Chairman Thompson 
referenced. We, as Members who spend a lot of time at home, may 
be about to discover that a lot of farmers perhaps didn't pay 
quite as close attention to their mail as they should have. And 
we will have to address that when the time comes. I yield back, 
Mr. Chairman.
    The Chairman. I thank the gentleman. I am now pleased to 
recognize the full Committee Ranking Member, Mr. Peterson, for 
5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman. Mr. Dolcini, do you 
have any idea at this point what, the amount of acres you are 
going to be looking at with the general sign-up December 1?
    Mr. Dolcini. Sir, I don't have a specific number of acreage 
that might get enrolled in that general sign-up. As you pointed 
out earlier, the Secretary announced about 800,000 acres in the 
continuous part of CRP. We have authority for 1.9 million acres 
that we may be able to enroll. But it will be a very 
competitive process beginning in December. And we are hopeful 
that we get a lot of good applications for participation in the 
program----
    Mr. Peterson. Well, what I can tell, apparently you can 
have 25 million acres in Fiscal Year 2016. And you have to go 
to 24 in Fiscal Year 2017. So you could go into 25 million 
acres in this sign-up from what I can tell. Am I right about 
that?
    Mr. Dolcini. Sir, I don't know the exact number of acreage, 
of acres that may be----
    Mr. Peterson. Anyway, it looks like if the whole 800,000 
acres are signed up, given what is expiring, it would be 22 
million acres and potentially, so you might have, if you went 
to the maximum, you might have 3 million acres you could 
enroll. I doubt you are going to do that. I understand that. 
So, anyway, one thing I am concerned about is, with the $7 
corn, as Mr. Lucas pointed out, we had people tearing out CRPs 
all over the country, including my area, taking out shelter 
belts and plowing up land that should not be farmed because 
they could make a little money renting it out and whatever. And 
now with what is going on, all of a sudden, as I tried to tell 
them at the time, now some of them are not so sure they made 
the right decision. So now they are looking at how am I going 
to get back into the program and so forth. It is going to be 
competitive and it has all these requirements. And I understand 
that.
    But we have gotten carried away with some of this stuff. I 
don't know if any other Members here have tried to establish 
CRP but I have. And it is not easy to do. One of the things 
that bothers me about what we have been doing is in order to 
get back into the program, you have to plow up what you have 
basically. If you don't and re-seed, you are not going to get 
enough points to get in. That is just the reality of what the 
situation is. In some cases, that is the right thing to do. In 
some cases, the CRP is not in good shape and needs to be 
redone. But in a lot of cases, it is fine. And when you plow 
that stuff up, you stir up a weed situation in a lot of cases. 
The weeds have been there for 20 years laying under the ground. 
And all of a sudden, you have a mess depending on what happens 
if you got a drought or wet or whatever the situation is. And 
then you make it worse with this pollinator stuff, which I also 
have experience with because I tried to put in 2.3 acres under 
the CSP. And basically what I got out of that, I spent $350 an 
acre and I got a weed patch. That is what a lot of people have 
experienced with the pollinator. I support trying to get this 
out there. And I have bees on my property. But this is not 
easy. And so I just think, I have had more complaints from 
farmers that are interested in getting back in about this idea 
that they got to plow out. I just think that somehow or another 
we have to have some kind of recognition of a good quality CRP 
that is established in this process. And so we don't force 
people to plow up what shouldn't be plowed up and cause maybe a 
deterioration in the habitat. Is anything being done to look at 
that situation?
    Mr. Dolcini. It absolutely is, sir. And I appreciate your 
comments and your support over the years of CRP. You have 
really been a stalwart in trying to develop programs that USDA 
can use to enhance wildlife benefits around the country, as 
well as environmental and other program benefits. CRP has 
changed quite a bit since 1985 when it was first signed into 
law by President Reagan. And we are always trying to make what 
is a good program an even better program, particularly in this 
year that we are celebrating its 30th anniversary. I was just 
in Howard County, Maryland last week talking with a farmer who 
has CREP land and is interested potentially in a pollinator 
strip but doesn't want to just put in something that he thinks 
might be a weed patch. So we are trying to work locally with 
farmers around the nation on doing things that make sense for 
their communities and for their landscape. This fall, I am 
going to be in Otter Tail County and would love to come out and 
meet with you or your staff or your constituents and really 
work through some of the local issues that you have identified 
there. But we are doing that all over the nation, sir. And the 
Conservation Reserve Enhancement Program, which is an element 
of CRP, has been a success in Minnesota and elsewhere. I think 
we now have 47 projects in 34 states. So we are trying to look 
at the continuum of what CRP offers and how it was refined in 
the 2014 Farm Bill to make a good program, one that has been a 
very successful conservation program throughout the American 
countryside, a better one. And I would love to continue to meet 
with you and your staff to work on those issues.
    Mr. Peterson. Thank you. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. I am now pleased to 
recognize the gentleman from Georgia, Mr. Allen, for 5 minutes.
    Mr. Allen of Georgia. Thank you, Mr. Chairman. And I 
appreciate you holding this hearing. I appreciate your work at 
USDA and conservation. I have worked with a few of my 
constituents that are working on the CRP opt-outs. And I want 
to let you know that I appreciate you all working with me on 
that. And it sounds like we have had a lot of folks who maybe 
have opted out of that program. Is there, how many folks have 
opted out of the CRP programs? And has it been just 
concentrated in areas? Because I represent the 12th District of 
Georgia. Where has the concentration been and how many opt-outs 
have you all seen in that program?
    Mr. Dolcini. Sir, I will provide a more detailed responses 
to your office and to the Subcommittee with that answer.
    Mr. Allen of Georgia. Okay. That would be great.
    Mr. Dolcini. With regard to the issue that you and I have 
been working on and that our staffs have been working on, I 
really want to say that we are continuing to explore options. I 
think our Office of General Counsel at USDA determined there 
was a certain path that we couldn't really go beyond. 
Unfortunately, that wasn't really transmitted to you or to your 
constituents in a very clear way.
    Mr. Allen of Georgia. Right. Exactly.
    Mr. Dolcini. But I want you to know that I am happy to 
continue to work with you to explore options there. And with 
regard to the detailed response, we can get that back to you 
and the Subcommittee.
    Mr. Allen of Georgia. Well, I really appreciate and yes, 
you have been very diligent in responding and working with our 
office and our clients. I appreciate everything you are doing 
for us there. And we look forward to resolving that issue. 
Another comment is we have about 14.3 million acres of 
Georgia's forestland and it is owned by 504,000 families and 
individuals. Several of the conservation programs are important 
to provide these family forest owners with tools to do 
conservation practices on the ground, from tree planting to 
firebreaks to improvements for wildlife habitat and water 
quality. Given that the technical assistance needed to work 
with forest owners may be different from other producers, what 
is NRCS or FSA doing to continue to encourage coordination with 
the forest agencies at the state and local levels?
    Mr. Weller. I will take the first stab at that, sir. In 
part, in Georgia, but also along the Southeast, we are really 
focused with private landowners on the Longleaf pine ecosystem 
as one of the areas. And we have put a lot of assistance on the 
ground, partnering with other Federal agencies, like the 
Department of Defense, as well as Forest Service, but, 
crucially, with local landowners and locally led associations 
to really try and protect, but also recover and restore the 
Longleaf pine ecosystem. Just in the last 4 years, for example, 
we have helped put in place forestry management practices on 
about 260,000 acres of the Longleaf pine ecosystem, in a 
targeted fashion though, for example, around military 
installations, to provide an operating buffer around military 
bases, to reduce the pressure, development pressures, so the 
military can keep doing what they need to do to train, make 
sure they are prepared and ready, but also to offset some of 
the environmental pressures the bases themselves feel with ESA 
constraints and really provide a safety valve, a cushion around 
military installations.
    So it is everything from, as you said, forest stand 
improvements, replanting, firebreaks, prescribed fire burns, a 
lot of different types of practices that, at the end of the 
day, empowering private landowners to better manage their 
stands for timber protection, but also to keep those stands 
intact from an ecosystem protection standpoint.
    Mr. Allen of Georgia. And we are coordinating those with 
the local forestry groups and the local county agencies and 
whatnot?
    Mr. Weller. Absolutely. So we work with the State Foresters 
and local forestry groups as well. At the county level, we work 
with local communities and counties to really focus, because we 
don't have enough resources to do it by ourselves. It is truly 
a network of folks bringing the expertise, the forestry 
expertise, a little bit of financial assistance to help 
producers and landowners put in place the practices they need. 
But we are just, at the end of the day, a small component of a 
much bigger network of groups helping with forestry management 
in Southeast.
    Mr. Allen of Georgia. They know the land. They know the 
habitat. And they know the conservation needs. And so thank you 
for coordinating with them locally. Did you have any comments?
    Mr. Dolcini. I do, sir. And I have an answer to the 
question that you first posed about how many acres have opted 
out. It is 266,000. But we will get a more fulsome letter back 
to the Committee with some details around that.
    Mr. Allen of Georgia. Okay.
    Mr. Dolcini. With regard to Longleaf pine, we have 
established about 250,000 acres of Longleaf pine and have a CRP 
practice devoted to the Longleaf pine that has created a lot of 
habitat for a variety of different species there. And we are 
doing it in consultation with local and regional partners. 
After we publish the CRP rule, which will happen in the near 
term, we will be able to implement some tree thinning 
provisions and other management activities to enhance these 
stands as well. I think that a good practice will be made a 
better one.
    Mr. Allen of Georgia. Good. Great. Thank you very much. I 
yield back the time I don't have.
    The Chairman. I thank the gentleman. I am now pleased to 
recognize the gentlelady from Arizona, Mrs. Kirkpatrick, for 5 
minutes.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman and Ranking 
Member, for having this hearing. And I first want to take a 
moment just to thank my colleagues, Representative Lucas from 
Oklahoma and Representative Peterson from Minnesota, for their 
leadership on this Committee. And it just really shows that 
when we come together in a thoughtful, commonsense way, we can 
enact policy that makes our country better. And I just want to 
publicly thank them for their leadership and their example that 
they set for us as Members of this Committee. My mother's 
family were ranchers in Arizona. I have always said that 
ranchers are our original conservationists. Because healthy 
land means healthy cattle means healthy people. And the same 
thing can be said for our farmers. Healthy land means healthy 
crops means healthy people. And so I thank you for the work 
that you have done, especially in Arizona. We have two 
projects, two Regional Conservation Partnership Programs that 
have brought about $6 million to rural Arizona in purchase of 
materials, hiring local contractors, recreational activities. 
And that is great. Arizona Game and Fish tells me they have 
been excellent programs and they have worked really well. You 
have probably heard me say on this Committee before that I 
represent 12 land-based Tribes. And so my question to you, both 
of you, today is what incentives do we have for Tribes in terms 
of management of their land, their conservation efforts, their 
natural resources? And what can we do to make sure that they 
see the same economic benefits that we are seeing on non-Tribal 
land?
    Mr. Weller. It begins, again, at the local level as we 
talked about with Mr. Allen. In this case, working with the 
Tribal community and the Tribal government, and, first, truly 
understanding what is it they need and what is it they want to 
have happen on their lands, on their reservation? And that can 
be both a formal consultation. But, more importantly, it is 
really the day-to-day informal interaction we have. And more 
often than not, we actually co-locate, like in Arizona, we have 
field offices on the Navajo Nation, where we have employees who 
work full-time doing nothing but partnering with the Navajo 
Nation and members of the nation to, first, identify what their 
agricultural production goals are and then what assistance can 
we bring to help the nation be more efficient with water, to 
recover the range, to improve pasture, put in place low-cost 
infrastructure to help them irrigate. So there are examples of 
that across Arizona, but really across the United States.
    We really start from the local level of the Tribe, 
listening, and then helping them identify what are some 
practices, whether they are culturally specific, to help them 
grow food that is appropriate for their nation or what are some 
of the expertise, whether it is engineering expertise, range, 
agronomy expertise, forestry expertise, at the end of the day, 
managing their Tribal land for productive purposes. One 
example, and it is actually from New Mexico, working with the 
Pueblo. It is a much smaller community. But it is an example, 
and this is the Santo Domingo Pueblo near Albuquerque. I had an 
opportunity to visit with the Pueblo and understand the value 
of what our assistance really means. In this case, they were 
using what they called Indian ditches which had been in place 
for centuries. And these ditches were worn out, really 
inefficient. And they were losing land, arable land. And you 
want to talk about producing food in a food desert, they 
literally are growing food in a desert. So they were very much 
concerned about maintaining the culture and the integrity of 
the Pueblo. And they wanted to be able to attract members back 
to the Pueblo, young families who were leaving because they 
didn't have economic opportunity.
    Well, then NRCS came in, and we retrofitted their ditches, 
put in gravity pressurized subsurface pipes, and what used to 
take days, literally, for the water to flood irrigate a field, 
we can now irrigate in a matter of hours. They are able bring 
to bring back 200 acres into production, growing native 
culturally specific foods as part of their healthy diet, and I 
talked to veteran farmers who just had serviced the nation by 
defending us, had returned to the Pueblo solely because they 
had an economic opportunity.
    It is examples like that where we are working with Tribal 
governments, Tribal communities to help them benefit from their 
lands and also do a better job of resource stewardship.
    Mrs. Kirkpatrick. Thank you, Chief. I have about 30 seconds 
left to hear from the Administrator, just your thoughts about 
that.
    Mr. Dolcini. Our approach is much the same as NRCS when it 
comes to reaching out to folks all over the country, including 
in Indian Country. We worked through the Council of Native 
American Farming and Ranching that I sit on and others around 
the nation do to make sure that our programs are open, 
accessible, understood, and available. And I spent a lot of 
time working one-on-one with individuals that have had 
challenges, but I also talked with larger groups and 
organizations about things that are going right with our 
relationship with Native American farming organizations around 
the nation. So we have a lot of work yet to do, Congresswoman, 
but we are on the right path.
    Mrs. Kirkpatrick. Great. I think it is a real opportunity 
for our Tribes in terms of economic development but also in 
terms of health opportunities, so I thank you, and I yield 
back.
    The Chairman. I thank the gentlelady. I now recognize my 
colleague from New York, Mr. Gibson, for 5 minutes.
    Mr. Gibson. Well, thanks, Mr. Chairman, and I thank the 
panelists as well and agree with some of the sentiment 
expressed by my colleagues earlier. This is an issue area where 
we have worked together. I think it is really a great news 
story. I appreciate the leadership of the Administration on 
that score.
    I do want to echo some of the concerns about the 
information flow and the June 1 deadline, and I would like to 
perhaps address another facet of that, which is the challenge, 
of course, that you are having in completing all these and 
getting it back out. And I just want assurances that for those 
that did get their paperwork in prior to June 1, that if they 
have some inaccuracy on their application, they still get 
credit for having been sent in by June 1?
    Mr. Dolcini. I can give you those assurances, sir. For 
forms that need to be perfected, and it might be a transposed 
number or a name that is misspelled, we will use that period 
after the 1st of June to make sure that those corrections are 
made appropriately.
    Mr. Gibson. Very well. That is reassuring. And then how is 
it going as far as just addressing the backlog?
    Mr. Dolcini. With regard to the receipt of the forms in FSA 
offices around the nation, it is going reasonably well. It is a 
big chunk of paperwork, to be sure, coming at a time when we 
are doing a lot of other important office work throughout our 
nation's field office infrastructure.
    But I am hearing good things thus far about the way things 
are going. I think the fact that we really beat the drum so 
loudly over the course of the 2 or 3 months leading up to June 
1 got people into the offices a little bit earlier than they 
might have otherwise. Certainly there is going to be a flood of 
activity towards the end of a deadline period. That is true for 
all of our programs, but we felt good about getting people in 
the door prior to June 1, and just really made the point to 
them that you have to get us your form, it has to be at least 
postmarked by the 1st of June in order for you to continue to 
receive these RMA crop insurance premium subsidies, and that 
was a message that most everyone heard loud and clear.
    Mr. Gibson. Well, thank you. I want to move now to the 
administration of the Forest Legacy Program, and I am curious 
on your feedback on this proposal. I guess it has been a little 
over a dozen years now, and I am just interested in the 
feedback in general about an important facet of a conservation 
program.
    About a little over a dozen years ago there were a series 
of reports that really led to a policy change in pulling up to 
the state level, the management of easements as it relates to 
Forest Legacy. From my listening to folks, and I am from 
upstate New York, and then also listening to folks in LTA, it 
appears that the conditions may be set now where we could allow 
for states to make a decision as to whether or not we want land 
trusts to manage the easement.
    The arguments that are propounded is that they have the 
resources to better manage these easements, and they make the 
case that they actually can get more benefit, more usage and 
benefit of the potential program. I am just curious what the 
thinking is at USDA of that potential policy proposal?
    Mr. Weller. Well, sir, the NRCS does not administer the 
Forest Legacy Program, and so you can talk a little bit about 
our experiences of working through our portfolio, and I would 
be more than happy to take back any concerns or ideas to my 
counterpart Chief Tidwell at the U.S. Forest Service, as the 
Forest Service administers the Forest Legacy Program.
    But through the Committee's programs, the Agricultural 
Conservation Easement Program, which is the main farm bill 
working lands focused program, there are two components, one of 
which is a little bit analogous to the Forest Legacy Program, 
and that is the Agricultural Land Easement Program, and truly 
is a partnership with land trusts.
    The second panel is going to be one of our partners in 
Pennsylvania is going to be testifying, and through this 
program, we provide financial assistance actually directly to a 
partner, whether a state agency or through a land trust 
organization or conservancy, and they are the ones, at the end 
of the day, that close the deal, that work with the landowner, 
negotiate, enter into the easement, and they are really 
responsible for the long-term stewardship and management of 
that conservation easement.
    So there are examples of this that the Committee supported 
where that locally-led approach through a partner like a land 
trust has been very effective, and together, in a partnership, 
we have been able to protect over a million acres of these 
easements, working land easements across the United States.
    Mr. Gibson. Well, I thank you, and I think that, in 
general, that empowerment at the local level is one that we are 
going to find that benefits all. There has to be quality 
control, obviously, but I am looking at that proposal, and I do 
appreciate if you could take that back.
    So thank you, Mr. Chairman.
    The Chairman. I thank the gentleman, and I thank both the 
Chief and the Administrator for taking time out of a busy 
schedule and coming and being here. We look forward to 
continue--the Subcommittee and the full Committee--we look 
forward to continuing to work with you as we provide our 
function of oversight, and your leadership and work in terms of 
the implementation of the 2014 Farm Bill, so I appreciate your 
testimony, and we will dismiss you gentlemen, and I will call 
up our second panel. Thank you very much.
    Mr. Dolcini. Thank you, sir.
    The Chairman. As we make the transition here, I would like 
to welcome our second panel of witnesses to the table. Mr. 
Brent Van Dyke, First Vice President of the National 
Association of Conservation Districts from Hobbs, New Mexico. 
Mr. Buddy Allen, rice producer, USA Freedom--or USA Rice 
Federation. That was a legislation a couple of weeks ago, I 
guess. USA Rice Federation.
    Ms. Karen Martynick, Executive Director of Lancaster 
Farmland Trust from Strasburg, Pennsylvania. I thought it was 
probably Starsburg when I read it the first time. When it says 
Strasburg, I am thinking that has to be Starsburg but maybe 
there is a little township I don't know about in Lancaster 
County. And Mr. Jim Inglis, Governmental Affairs 
Representative, Pheasants Forever and the Quail Forever from 
Upper Sandusky, Ohio.
    And our panelists are all in place. Thank you so much for 
being here to each of you. And Mr. Van Dyke, please begin when 
you are ready.

  STATEMENT OF BRENT VAN DYKE, FIRST VICE PRESIDENT, NATIONAL 
        ASSOCIATION OF CONSERVATION DISTRICTS, HOBBS, NM

    Mr. Van Dyke. Well, thank you very much, and good morning, 
Chairman Thompson, Ranking Member Lujan Grisham, and Members of 
the Subcommittee. I thank you for the opportunity to come 
before you to testify this morning on conservation programs in 
the 2014 Farm Bill.
    I am Brent Van Dyke, First Vice President of the National 
Association of Conservation Districts, and as a retired 
agriculture teacher and FFA advisor for 31 years, my wife and I 
farmed, irrigated alfalfa and Coastal Bermuda hay in Hobbs, and 
also run a commercial and registered cattle operation in 
southeastern New Mexico.
    NACD in America represents 3,000 soil and water 
conservation districts and 17,000 elected government officials 
that take conservation to the local level. The conservation 
districts are local units of government established under state 
law to carry out natural resource management programs at the 
local level.
    Conservation districts work with cooperating landowners and 
operators in all 50 states as well as U.S. territories to help 
manage and protect land and water resources on private lands as 
well as lands of the United States. Our nation's farmers and 
landowners deserve to have long-term certainty to effectively 
and efficiently manage their land. Locally led conservation is 
critical for America's long-term environmental and economic 
stability.
    Not only do farm bill conservation programs play a key role 
in supporting clean air, clean water, and productive soils, 
they also help producers avoid unnecessary regulation and 
promote our nation's food security and sustainability.
    NACD appreciates the leadership of this Subcommittee in 
crafting a successful conservation title in the 2014 Farm Bill. 
We worked closely with the Committee throughout the process in 
developing the bill and strongly supported its final passage. 
Since that time, we have remained focused on successful program 
implementation to ensure programs work efficiently and 
effectively for landowners. We thank USDA for moving programs 
forward with an efficient and aggressive implementation 
process.
    In the inaugural year of Regional Conservation Pilot 
Program, conservation districts are one of the most highly 
represented entities among the selected proposals. In New 
Mexico, RCPP is allowing for us to forge new partnerships with 
other Federal agencies and allowing ranches with Forest Service 
and BLM permits to do landscape scale projects and management 
and improvements of their entire operation.
    The checkerboard ownership that has made this kind of 
watershed projects impossible in the past, but this year, last 
month, as a matter of fact, I met with NRCS Chief Jason Weller 
in Espanola, New Mexico, where we toured the oldest acequia in 
the nation. And acequia is a traditional water management 
system dating back to the Spanish colonial times.
    The program has helped fund acequias and other critical 
irrigation systems through RCPP. This is just one example of 
the successful projects being implemented at local levels 
thanks to this new program.
    Local soil and water districts also remain key partners 
within NRCS to efficiently and effectively enroll landowners 
into two key programs that enable them to best manage their 
resources on their land, the Conversation Stewardship Program, 
CSP, and Environmental Quality Incentives Program, better known 
as EQIP. The 2014 Farm Bill made a historic commitment to 
maintaining and repairing infrastructure associated with the 
nation's thousands of small watershed structures. Some of these 
structures are decades past their original design lifespan. The 
small watershed program benefits to rural and urban communities 
across the country add up to stronger infrastructure, better 
water management, and national disaster mitigation.
    Increasing funds for conservation technical assistance 
remains a top priority for conservation districts in Fiscal 
Year 2016 agriculture appropriation funding. Districts are 
uniquely positioned to work with NRCS technical service 
providers and other partners to expand CTA capacity to get more 
conservation to the ground. In New Mexico, CTA has been 
expanded thanks to partnerships that matches Federal funding 
with state funding.
    Before I close, I want to thank the Chairman and Ranking 
Member for sponsoring the Concurrent Resolution 30, which 
recognizes the value of locally led soil and water conservation 
and the role of conservation districts within those efforts 
across the nation.
    The Senate unanimously agreed to the resolution last month, 
and we look forward to working with you to move it forward in 
the House.
    Thank you for the opportunity to testify today on behalf of 
the nation's conservation districts and their state and 
territory associations. I will be happy to answer any 
questions.
    [The prepared statement of Mr. Van Dyke follows:]

 Prepared Statement of Brent Van Dyke, First Vice President, National 
            Association of Conservation Districts, Hobbs, NM
    Good morning, Chairman Thompson, Ranking Member Lujan Grisham, and 
Members of the Subcommittee. Thank you for the opportunity to testify 
this morning on Conservation Programs in the 2014 Farm Bill.
    I am Brent Van Dyke, First Vice President of the National 
Association of Conservation Districts (NACD), and a retired Agriculture 
Education teacher and FFA advisor. I am a life-long resident of New 
Mexico, where my wife and I farm irrigated alfalfa and coastal Bermuda 
hay in Lea County and run a commercial and registered cattle operation 
in Southeastern New Mexico. I have worked with USAID for more than 15 
years on projects in Eastern Europe and Eurasia.
    NACD represents America's 3,000 conservation districts and the 
17,000 men and women who serve on their governing boards, as well as 
their respective state and territory associations. Conservation 
districts are local units of government established under state law to 
carry out natural resource management programs at the local level. They 
serve as the local component of the Federal, state, and local 
government and private sector conservation delivery system in this 
country. Conservation districts work with cooperating landowners and 
operators in all fifty states as well as the U.S. territories to help 
manage and protect land and water resources on private working lands 
and many public lands in the United States.
    The association was founded on the philosophy that conservation 
decisions should be made at the local level with technical and funding 
assistance from partners in Federal, state, and local governments and 
the private-sector. As the national voice for all conservation 
districts, NACD supports voluntary, incentive-based natural resource 
conservation programs that benefit all citizens.
    Our nation's farmers and landowners deserve to have long-term 
certainty to effectively and efficiently manage their land, resources 
and businesses for the years ahead. Locally-led conservation is 
critical for America's long-term environmental and economic stability. 
Not only do farm bill conservation programs play a key role in 
supporting clean air, clean water and productive soils, they also help 
producers avoid unnecessary regulation and promote our nation's food 
security and sustainability.
    NACD appreciates the leadership of this Subcommittee in crafting a 
successful conservation title in the 2014 Farm Bill. We worked closely 
with the Committee throughout the process of developing the bill and 
strongly supported its final passage. Since that time we have remained 
focused on successful program implementation to ensure programs work 
effectively for landowners, and we thank USDA for moving programs 
forward with an efficient and aggressive implementation process.
    I would like to briefly touch on some of our specific priority 
areas for farm bill implementation, starting with the new Regional 
Conservation Partnership Program (RCPP). In the inaugural year of RCPP, 
conservation districts were one of the most highly represented entities 
among the selected proposals. More than 200 conservation districts are 
directly involved in over 100 projects selected for state, national or 
Critical Conservation Area RCPP funding. We also recognize that many 
additional districts will be involved as partners as projects are 
implemented within their jurisdiction.
    It is no surprise that districts are so heavily represented in 
these projects. After all, locally-led partnerships are what we are all 
about. Districts have a strong history of engaging with a variety of 
stakeholders at the local level to enact meaningful conservation on the 
landscape.
    RCPP is about empowering local project sponsors in designing and 
delivering solutions that benefit natural resources where they live and 
work. As trusted and respected sources for conservation planning and 
assistance at the local level, conservation districts are well 
positioned to be leaders in these projects. We appreciate USDA's 
commitment to this locally-led approach to natural resource 
conservation.
    Through its flexible, public-private partnership approach, RCPP is 
empowering partners to come together to deliver practical and effective 
solutions to address local communities' specific resource concerns. By 
leveraging Federal and private dollars, all stakeholders are closely 
invested in the project resulting in a stronger return on our combined 
conservation investment. In addition, RCPP's ability to utilize other 
program funds such as EQIP, CSP and ACEP not only increases the overall 
effectiveness of the program, it will help states to fully utilize all 
of their allocated funding.
    It has always been our philosophy that ``every acre counts.'' RCPP 
allows us to reach beyond the traditional scope of partners and 
projects. The program expands our opportunities to reach a higher level 
of commitment to conservation delivery on the working landscape in 
America.
    In New Mexico, RCPP is allowing us to forge new partnerships with 
other Federal agencies and allowing ranches with Forest Service and/or 
BLM permits to do landscape scale management and improvements on the 
entire operation. The checkerboard ownership has made this kind of 
watershed project impossible in the past. Last month I had the pleasure 
of joining NRCS Chief Jason Weller at an RCPP event near Espanola, New 
Mexico where we toured the oldest acequias in the nation--a traditional 
water management system dating back to Spanish colonial times. The 
program has helped fund acequias and other critical irrigation systems 
through the RCPP. This is just one example of a successful project 
being implemented at the local level, thanks to this new program.
    I want to thank NRCS for their tireless work to implement this new 
and innovative program, and for considering our comments and feedback 
on ways to continue to grow and improve RCPP. We are pleased with the 
positive direction and look forward to even greater conservation 
district involvement.
    Local soil and water conservation districts also remain key 
partners with NRCS to efficiently and effectively enroll landowners in 
two key programs that enable landowners to best manage natural 
resources on their land: the Conservation Stewardship Program (CSP) and 
the Environmental Quality Incentives Program (EQIP).
    CSP has been invaluable in New Mexico, helping to keep ranchers on 
the land despite the extreme drought conditions. Allowing the 
enrollment of CRP land into CSP, in the last year of its contract, and 
allowing the transfer of land from CSP to CRP, ACEP or other Federal or 
state program that offers greater natural resource protection is also 
extremely important. These adjustments will help ensure that producers 
keep their working lands enrolled in programs that benefit the natural 
resource base, while emphasizing the most effective programs offered. 
Rolling open enrollment is also important for CSP to remain an option 
for producers at all times throughout the year. This convenience helps 
prevent backlog and increases the efficiency of the program.
    EQIP remains the foundation of voluntary conservation programs for 
agriculture and forest producers on private lands. Local soil and water 
conservation districts are poised to help landowners enroll in and 
implement EQIP practices on the landscape. NACD advocated for 
streamlining of conservation programs as one of our top priorities for 
the 2014 Farm Bill and we are happy to see it materializing as EQIP is 
being implemented as a versatile working lands program that improves 
natural resources for farmers, ranchers and wildlife.
    NACD also supports the policy of re-linking conservation compliance 
to crop insurance premium subsidies as included in the 2014 Farm Bill. 
Conservation districts will play an important role in compliance, 
especially with helping provide technical assistance to producers. As 
the statute correctly provided, flexibility is critical for producers 
who are subject to compliance for the first time, including beginning 
and socially disadvantaged producers, as well as for specialty crop 
growers. NACD and our partners continue to work to ensure this 
provision is implemented in a manner that safeguards natural resources 
while maintaining critical safety net supports for eligible producers.
    The 2014 Farm Bill made a historic commitment to maintaining and 
repairing the infrastructure associated with the nation's thousands of 
small watershed structures. Some of these structures are decades past 
their original designed lifespan. The small watershed program benefits 
to rural and urban communities across the country add up to stronger 
infrastructure, better water management and natural disaster 
mitigation. In addition, the program represents opportunity for both 
natural resource protection and the creation of economic opportunity 
and jobs in rural America.
    In addition to securing healthy natural resources, investing in 
watershed structures provides invaluable benefits to community 
operations and infrastructure. Recent weather events in Texas and 
Oklahoma highlight the need for reinvigorated funding for the small 
watershed program, which continues to be a priority for NACD in Fiscal 
Year 2016 (FY16) appropriations.
    Increasing funds for Conservation Technical Assistance (CTA) 
remains a top priority for conservation districts in FY16 Agriculture 
Appropriation funding. Districts are uniquely positioned to work with 
NRCS, Technical Service Providers and other partners to expand CTA 
capacity to get more conservation on the ground. In New Mexico, CTA has 
been expanded thanks to a partnership that matches Federal funding with 
state funding.
    CTA is designed to help landowners take the critical first step of 
understanding the need for and benefits of conservation practices and 
to create solid conservation plans which outline necessary steps or 
actions to address solutions, including farm bill conservation program 
participation. CTA is utilized by landowners for all elements of 
conservation planning--from design and layout to implementation.
    With ever increasing demand for farm bill conservation programs, it 
is essential that CTA funding sees a correlating increase in capacity 
in order to maximize landowner participation and realize a full return 
on conservation investments. Technical assistance is the backbone of 
Federal conservation programs, enabling local NRCS field staff and 
districts to assist landowners as well as state and local agencies to 
address local resource concerns.
    In addition, NACD supports maintaining all mandatory conservation 
program funding for FY16 as allocated in the 2014 Farm Bill. We remain 
steadfastly opposed to changes in mandatory program spending, also 
known as CHIMPS, to farm bill conservation programs during the 
appropriations process. NACD signed a letter along with 130 other 
organizations opposed to such cuts.
    At a time when farmers and ranchers are facing increased pressure 
to produce food and fiber for a growing population, it is extremely 
important they have full access to the tools and resources needed to 
implement conservation practices on their land. Further cuts to vital 
conservation program funding will hinder the implementation of 
voluntary, locally-led conservation on the ground, putting our land and 
natural resources at risk for the future. This is especially true as 
economic and regulatory pressures continue to increase on the 
landscape. Conservation funding helps incentivize landowners and 
producers to voluntarily implement best management practices at the 
local level, while mitigating the threat of burdensome top-down 
regulation.
    Before I close, I want to thank the Chairman and Ranking Member for 
sponsoring the concurrent resolution H. Con. Res. 30, which recognizes 
the value of locally-led soil and water conservation and the role of 
conservation districts within those efforts across the nation. The 
resolution expresses support for: the designation of the year 2015 as 
the ``International Year of Soils;'' the 80th Anniversary of the Soil 
Conservation Act; and soil conservation through partnerships with the 
nation's 3,000 locally-led soil and water conservation districts. It 
also encourages voluntary landowner participation in Federal 
conservation programs. The resolution has wide ranging support from 27 
farm, commodity, crop insurance and conservation groups.
    The Senate unanimously agreed to the resolution last month, and we 
look forward to working with you to move it forward here in the House.
    Thank you for the opportunity to testify today on behalf of the 
nation's 3,000 conservation districts and their state and territory 
associations. I will be happy to answer any questions you may have.

    The Chairman. Thank you, Mr. Van Dyke.
    Mr. Allen, go ahead and proceed with 5 minutes of 
testimony, please, whenever you are ready.

        STATEMENT OF WILLIAM ``BUDDY'' H. ALLEN, MEMBER,
  CONSERVATION COMMITTEE, USA RICE FEDERATION; RICE PRODUCER, 
                           TUNICA, MS

    Mr. Allen. Well, good morning, Chairman Thompson, Ranking 
Member Lujan Grisham, and Members of the Subcommittee. I am 
honored to have opportunity to be before you this morning and 
give my view on the implementation of the conservation title of 
the farm bill, Agricultural Act of 2014.
    My name is Buddy Allen. I am a producer in Tunica, 
Mississippi. I grow cotton, rice, soybeans, corn, and wheat. I 
am passionate about conservation. I am also a partner in a 
California-based almond farm. I serve as Chairman of the Tunica 
County Soil and Water Conservation District. I am a member of 
the Mississippi Rice Council, Mississippi Association of 
Conservation Districts, Conservation Committee of the USA Rice 
Federation, and several other state and local conservation 
groups.
    Conservation is a significant part of my agribusiness. As I 
implement stewardship on my farm, my productivity increases, 
and it makes me more sustainable. So I am very grateful for the 
programs that are authorized by this Subcommittee in the Farm 
Bill of 2014.
    I can't thank the Committee enough for the hours and the 
work you and your staff put into the passage of this farm bill. 
This piece of legislation provides a safety net that gives 
farmers certainty and tools to stay in business during tough 
times, which are now, as has been mentioned already this 
morning. And it also incentivizes us to invest in valuable 
conservation practices on our land. Voluntary incentive-based 
conservation programs are the first line of defense against the 
need for regulation.
    In 2012, the USA Rice Federation and Ducks Unlimited forged 
a model of collaboration between a farm group and a 
conservation organization, the Rice Stewardship Partnership. 
This partnership has been working tirelessly to improve three 
of the nation's critical, national, and economic resources, 
working ricelands, water, and waterfowl.
    This is an unlikely partnership between our organizations, 
and it is historic. One of the programs new to the recent farm 
bill is the Regional Conservation Partnership Program. Key to 
this program is leveraging Federal funds with private, state, 
and local assets. It empowers partnerships to design solutions 
and deliver measurable results. The partnerships draw on local 
knowledge and resources.
    This locally-led approach is critical to the effectiveness 
of the program. RCPP offers the use of existing conservation 
programs such as CSP and EQIP to help reach a specified goal 
and helps to target critical conservation areas where the work 
is most needed. The partnership submitted in RCPP proposal, 
which was accepted in January entitled, Sustaining the Future 
of Rice, this project is a natural fit for our organizations to 
pursue and offers rice producers from every major rice growing 
county in each of the six rice growing states the assistance 
needed to address water quantity, water quality, and wildlife 
habitat on our farms.
    NRCS is providing $10 million in funding to the project 
leveraged by $6.8 million of cash and in-kind contributions 
from private sector partners to utilize EQIP and CSP on rice 
farms. Each of the six states involved are set to receive a 
minimum of $1 million of the combined funding towards 
implementation.
    One thing that is helpful about the flexibility built into 
RCPP is the ability to tailor programs such as EQIP and CSP, 
which as stand alone programs, are not necessarily geared 
towards rice production. We have been able to do just that and 
make a particular use of these very successful programs and 
make them available on rice working lands.
    NRCS staff, under the leadership of Chief Weller has worked 
tirelessly to ensure that this program has been implemented as 
smoothly as possible. The announcement for program funding 
stayed very true to the intent of what Congress authorized in 
the statute and was able to maintain the flexibility of 
language throughout the application process.
    USA Rice and Ducks Unlimited have had a very positive 
experience during the negotiation process, but because our 
final contract within NRCS is very complex, we have just 
recently finalized our agreement last week, as a matter of 
fact. As an industry, rice producers have put years of work 
into finding new ways to reduce erosion, reduce water use, save 
energy, and address a number of other critical conservation 
priorities. For those unfamiliar with rice production, rice 
fields are flooded during the growing season to provide water 
the plants need and control weeds and pests. Because of this 
unique method of raising a crop in a flooded environment, rice 
farming, compared to other commodity production, is more 
sensitive to water quantity, water quality, and soil stability, 
and they are essential to maintain our operations.
    That being said, RCPP is a natural fit for our industry to 
further our conservation goals. I appreciate the work that all 
of you have done to ensure that farmers have the tools they 
need to implement conservation practices on the landscape. It 
is a vital part of our industry and a necessary investment if 
we want to leave our farms as a legacy.
    Again, thank you for your leadership and the opportunity to 
offer my testimony, and I would be happy to respond to any 
questions.
    [The prepared statement of Mr. Allen follows:]

Prepared Statement of William ``Buddy'' H. Allen, Member, Conservation 
       Committee, USA Rice Federation; Rice Producer, Tunica, MS
Introduction
    Chairman Thompson, Ranking Member Lujan Grisham, and Members of the 
Subcommittee, thank you for holding this hearing on the implementation 
of the conservation title of the Agricultural Act of 2014. I appreciate 
the opportunity to offer testimony on behalf of the USA Rice 
Federation.
    My name is Buddy Allen. I grow rice, cotton, soybeans and corn in 
Tunica, Mississippi. In addition to my row crops, I provide local 
ground and aerial custom application services and I am a partner in 
Miss Cal Orchards, a California-based almond farm. Because of the 
diversity of my business portfolio I believe I'm able to offer a unique 
perspective on the agriculture industry.
    I am also a member of the Governor's Sustainable Water Task Force; 
Director for the Mississippi Association of Conservation Districts; 
Chairman of the Tunica Soil and Water Conservation District; Member of 
the Mississippi Rice Council; and Member of the Conservation Committee 
of the USA Rice Federation. If you cannot tell already, agricultural 
conservation is more than business; it is my passion.
Conservation in the Agricultural Act of 2014
    From a farmer's standpoint, I cannot thank the Agriculture 
Committee and the rest of Congress enough for the countless hours of 
work you and your staff put into the Agricultural Act of 2014 (farm 
bill). This critical, bipartisan legislation provides the backbone 
giving farmers the certainty and tools to stay in business during tough 
times and incentivizes them to invest in valuable conservation 
practices on their land. The farm bill has the ability to directly 
affect my bottom line so the policies and programs being debated every 
5 years are of great interest to me and the livelihood of my operation.
    It was also good to see that Congress, particularly this Committee 
understands the value of investing in the future of our business 
through promotion of voluntary, incentive-based agricultural working 
land conservation. Working land programs not only address resource 
concerns, they increase productivity yielding sustainability by making 
cropland more diverse and efficient. The consolidation and streamlining 
of the conservation title will make these programs more efficient and 
easier to use for farmers and ranchers.
Rice Stewardship Partnership
    In February 2012, the USA Rice Federation (USA Rice) and Ducks 
Unlimited (DU) forged a model of collaboration between a farm group and 
a conservation organization--the Rice Stewardship Partnership. This 
Partnership has been working tirelessly to bring about meaningful and 
long-term improvements to three of the nation's critical natural and 
economic resources: working ricelands, water, and waterfowl. To achieve 
these objectives, we have and will continue to engage in public policy 
making, conservation programs, communications strategies, and strategic 
research and land management efforts that advance these resources.
    This unlikely partnership between our organizations should be 
labeled as ``historic'' to say the least. The relationship between rice 
farmers and duck hunters and conservationists is symbiotic and has been 
in the works long before the Partnership was established. I'd even go 
as far as to say that it could be used as the model going forward. 
While both organizations have separate missions and methods we have 
managed to collaborate and find a large amount of common ground and 
develop goals for our partnership.
Sustaining the Future of Rice Project
    One of the programs new to the last farm bill was the Regional 
Conservation Partnership Program (RCPP). This program consolidated and 
streamlined a number of regional programs into one comprehensive 
program. RCPP uses a unique and innovative approach to investing in 
natural resource conservation. Key to the program is leveraging Federal 
funds with private, state and local assets. It empowers partnerships to 
design solutions and deliver specific measurable results. These unique 
partnerships draw on local knowledge and resources; and this locally-
led approach is critical to the effectiveness of the program. RCPP 
offers the use of existing conservation programs such as the 
Conservation Stewardship Program (CSP) and the Environmental Quality 
Incentives Program (EQIP) to help reach a specified goal and helps to 
target critical conservation areas where work is most needed.
Map 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Figure 1: Illustrates the key location of rice production in 
        correlation to the Mississippi River Basin (where 44% of the 
        U.S. freshwater sources drain) and the regions serve as major 
        waterfowl flyways. This relationship further demonstrates the 
        need for a strong relationship between rice farmers and 
        waterfowl conservationists.

    The Partnership submitted an RCPP proposal which was accepted 
during the Fiscal Year 2014/2015 funding cycle entitled ``Sustaining 
the Future of Rice.'' This project is a natural fit for our 
organizations to pursue and offers rice producers from every major 
rice-growing county in each of the six rice-growing states the 
assistance needed to address water quantity, water quality and wildlife 
habitat on their farms. The Natural Resources Conservation Service 
(NRCS) is providing $10 million in funding to the project leveraged by 
$6.8 million of cash and in-kind contributions from private sector 
partners to utilize EQIP and CSP on rice farms. Several conservation 
practices from each of the two programs that are geared toward rice 
production will be offered (i.e., drainage water management, irrigation 
land leveling, irrigation reservoir construction, wetland wildlife 
management, etc.). One thing that is nice about the flexibility built 
into RCPP is the ability to tailor programs such as EQIP and CSP which 
as ``stand alone'' programs are not necessarily geared towards rice 
production. Thanks to this new program, we have been able to tailor 
these effective programs to fit the unique needs of the rice farmer and 
go the extra mile. As of now, each state is set to receive a minimum of 
$1 million in funding from the NRCS contribution along with private 
contributions from partners and each will operate similarly to the 
others with tweaks depending on local conditions.
    The project attracted over 40 collaborating partners from every 
sector, from the field to the market and we have estimated that up to 
63,000 acres throughout the six states will benefit from our project. 
This effort represents the first ever of its kind--totally focused on 
rice farmers and what works best on rice-producing lands and we are 
lucky to have such a willing group of farmers to help make this a 
success.
RCPP Implementation Status
    The NRCS staff has worked tirelessly to ensure that this program 
has been implemented as smoothly as possible. The folks writing the 
Announcement for Program Funding for RCPP stayed very true to the 
intent of what Congress authorized in the statute and were able to 
maintain the flexibility of the language throughout the application 
process. USA Rice and DU have had a very positive experience during the 
negotiating process but because our final contract with NRCS has been 
fairly complex we have just recently finalized our agreement.
    While specific dates may vary from state to state, sign-ups for 
EQIP are expected to begin this summer and run through early fall. 
After the sign-up ends, applications will be ranked and contracts 
awarded. After the contracts are set, on-farm work will start shortly 
thereafter. In order to ensure project funds go to rice growers, NRCS, 
USA Rice Federation and Ducks Unlimited are developing screening and 
ranking criteria targeted to rice lands.
    While EQIP will be the first out of the gate, the CSP won't be far 
behind. Work is underway to develop a specific package of enhancements 
for rice lands and it is expected that the sign-up will occur early in 
2016. USA Rice Federation, DU, NRCS, and partners will notify rice 
producers of the specific dates when the sign-ups start in their state. 
Interested rice growers will sign-up in local NRCS offices like normal 
and just inform NRCS that the application falls under the Sustaining 
the Future of Rice RCPP project. The RCPP funds are in addition to 
regular EQIP and CSP and other funding may be available to growers as 
well.
    Now that the Announcement for Program Funding has been published 
for the Fiscal Year 2016 funding cycle, the Partnership is looking 
again to see how else we are able to work together to increase our 
effectiveness. It is exciting to see the projects we are working on 
materialize and we are looking forward to using this project as a 
stepping stone for continuing our work together in the future.
Conclusion
    As an industry we've put years of work into finding new ways to 
reduce erosion, reduce water usage and address a number of other 
critical conservation priorities. For those unfamiliar with rice 
production, rice fields are flooded during the growing season to 
provide water that the plants need and to help control weeds. Because 
of the unique methods for farming rice compared to other commodity 
crops, sensitivity of water quantity/quality and soil stability are 
particularly essential to maintain operations. That being said, the 
RCPP is a natural fit for our industry to further augment our already 
impressive conservation platform.
    We are looking forward to bringing the USA Rice/DU project to 
fruition over the next couple of years and showing the success that can 
be achieved through unlikely partnerships. We anticipate that NRCS will 
continue to be supportive along the way from the Chief to the field 
staff on the ground helping to implement the EQIP and CSP practices.
    I thank this Subcommittee for holding this important hearing to 
assess the implementation process of the farm bill. And I appreciate as 
a farmer, a conservationist and on behalf of the USA Rice Federation 
the work you have done to ensure that farmers have the tools they need 
to implement conservation practices on the landscape and feed our 
growing population. While conservation may not necessarily be a 
controversial issue, it is a vital part of our industry and a necessary 
investment if we want to leave our land and operations as a legacy for 
our children.
    Again, thank you for your leadership and for the opportunity to 
offer my testimony this morning. I look forward to working with you and 
your staff and will be happy to respond to any questions you might 
have.

    The Chairman. Thank you, Mr. Allen, for your testimony.
    And now, Ms. Martynick, please go ahead and proceed with 
your 5 minutes of testimony when you are ready.

   STATEMENT OF HON. KAREN L. MARTYNICK, EXECUTIVE DIRECTOR, 
            LANCASTER FARMLAND TRUST, STRASBURG, PA

    Ms. Martynick. Thank you. Chairman Thompson and Members of 
the Subcommittee, my name is Karen Martynick, and I am the 
Executive Director of Lancaster Farmland Trust, a not-for-
profit land trust located in Lancaster County in Pennsylvania, 
the home state of the Chairman.
    It is an honor to testify before you today on the 
Agricultural Conservation Easement Program, or ACEP, and share 
with you the perspective of a land trust that has utilized both 
the farm and ranchland protection program and ACEP.
    Lancaster County, Pennsylvania is known as the garden spot 
of the United States. Just a few miles west of Philadelphia, 
Lancaster County ranks 15th in the nation in agricultural 
production. It has the most productive non-irrigated soils in 
the country. The county's 5,700 farms, 99 percent of which are 
family owned, contribute $6 billion to the economy each year.
    Lancaster County is also a leader in farmland preservation. 
In 2013, the county became the first county in the country to 
preserve 100,000 acres of farmland, a remarkable accomplishment 
when you consider the fact that the average size farm is just 
78 acres. Today, there are more that 1,300 preserved farms in 
Lancaster County, farms that have been preserved utilizing 
public and private funds.
    My comments today are intended to make ACEP as good as it 
can be. We are deeply appreciative of the work of NRCS staff 
and this Committee and the partnership we have with them to 
carry out the goals of ACEP. It is a great step forward, and we 
think that working together, we can make it even better.
    First and foremost, the program must follow the statute. 
Much work went into making ACEP a new and improved FRPP. 
However, the rule does not always reflect the language or 
intent of the statute.
    The program should not be overly complicated. Rules and 
procedures that micro-manage the work of land trusts will make 
them reluctant to participate. Land trusts have vast experience 
in protecting natural resources, and the rules should recognize 
and reflect that experience.
    The program must be clear and concise. Decisions must be 
received in a timely fashion. Our experience with FRPP is that 
a project could take as long as 2 years to complete, while a 
project using other government funds can be completed in 6 
months or less. Let me give you some specifics.
    On the minimum deed terms: There is a contradiction between 
the statute and the final interim rule on the issue of minimum 
deed terms. The statute states that a, ``eligible entity shall 
be authorized to use its own terms and conditions for 
agricultural land easement so long as the Secretary determines 
such terms and conditions meet their conditions.''
    While this clearly gives eligible entities the ability to 
use their own language, the interim final rule on ACEP states 
that eligible entities, ``must use the NRCS required minimum 
deed terms specified therein.'' This will force Lancaster 
Farmland Trust, for instance, to use language that does not 
necessarily fit its program and does not recognize the special 
characteristics of Lancaster County.
    Appraisal reviews: If you ask any land trust what causes 
the most delays, they would most likely say it is the appraisal 
review process. Lancaster Farmland Trust works only with 
certified appraisers. With 1,300 preserved farms in Lancaster 
County, the appraisers have a wealth of experience determining 
the value of conservation easements. When we submit an 
appraisal for review by NRCS, it can take months to get 
comments back. The reviewers are from other parts of the 
country and have little knowledge of Lancaster County.
    One way to save time would be to stop requiring the 
reviewers to establish value on a property he has never visited 
and in an area with which he is not familiar. The reviewer 
should be charged with determining if the appraisal was done by 
a certified appraiser and if that appraisal meets all the 
required criteria. This would save a great deal of time.
    Eligible entity certification: The certification is 
critical to streamlining the ACEP process; however, the terms 
necessary to achieve certification may be too onerous for land 
trusts to participate. The manual states that NRCS may require 
the entity to return any financial assistance provided by NRCS 
for easements that fail a quality assurance review. However, 
the manual does not provide criteria for quality assurance 
review. This provision prevents sufficient financial risk for a 
land trust like Lancaster Farmland Trust, and we would be 
unlikely to apply for certification because of that.
    Clearly defining the standard about when such a nuclear 
option would occur would be absolutely necessary for land 
trusts to participate. These are just three examples of ways in 
which the interim final rule for the Agricultural Conservation 
Easement Program could be improved or could be clarified. I 
have included additional information in the written testimony I 
submitted.
    On behalf of Lancaster Farmland Trust, I thank you for your 
time this morning and your consideration of my comments. The 
land trust community is committed to protecting the country's 
working lands and stands ready to assist NRCS in determining 
and implementing improvements for the Agricultural Conservation 
Easement Program. I appreciate your interest and am happy to 
take any questions you have. Thank you.
    [The prepared statement of Ms. Martynick follows:]

  Prepared Statement of Hon. Karen L. Martynick, Executive Director, 
                Lancaster Farmland Trust, Strasburg, PA
Introduction
    Lancaster Farmland Trust appreciates the opportunity to present 
testimony to the House Committee on Agriculture Subcommittee on 
Conservation and Forestry regarding the interim final rule for the 
Agricultural Conservation Easement Program (ACEP) of the Agricultural 
Act of 2014. As a private, not-for-profit land trust, Lancaster 
Farmland Trust has utilized funding from the Farm and Ranch Land 
Protection Program and currently has two projects pending under the 
ACEP program.
    Lancaster County, Pennsylvania, the ``Garden Spot'' of the United 
States, has the most productive, non-irrigated soils in the country. 
The county's 5,500 farms--99 percent of which are family owned--
contribute $6 billion to the economy each year and provide one out of 
every five jobs in the county.
    In addition to being a leader in agricultural production, Lancaster 
County is a national leader in farmland preservation. In 2013, the 
county became the first county in the nation to preserve 100,000 acres 
of farmland--a remarkable accomplishment considering that the average 
sized farm is just 78 acres! Today, there are more than 1,300 farms 
that have been preserved by Lancaster Farmland Trust and the Lancaster 
County Agriculture Preserve Board utilizing Federal, state, county and 
private funds.
    Lancaster Farmland Trust was established in 1988 to work with Amish 
farmers to preserve their land. In the 27 years since its founding, the 
Trust has preserved 28,000 acres on 453 farms. Although reluctant when 
the program started, the Amish have embraced preservation. Now, 
approximately 80 percent of the farms preserved by Lancaster Farmland 
Trust are owned by Amish families.
    Lancaster Farmland Trust is accredited by the Land Trust 
Accreditation Commission having received accreditation in 2008 and 
renewal of accreditation in 2014. In order to achieve accreditation, a 
land trust must demonstrate that it upholds the highest operating 
standards.
General Comments
    Lancaster Farmland Trust is a member of the Land Trust Alliance 
which represents 1,700 land trusts throughout the country. 
Collectively, these organizations have protected 47 million acres of 
land in the United States. More than 140 of the member organizations--
including Lancaster Farmland Trust--are eligible entities under the 
Farm and Ranchlands Protection Program or the Agricultural Conservation 
Easement Program. These organizations share the commitment of Congress 
and the Natural Resource Conservation Service to protect the country's 
most productive soils and are proud to have been entrusted with the 
responsibility of ensuring the program's success.
    Lancaster Farmland Trust recognizes and appreciates the time that 
has been spent by NRCS staff in developing the interim final rule and 
responding to concerns and questions prior to and since its 
publication. The suggestions and comments contained in this testimony--
and those offered by the Land Trust Alliance and other land trusts--are 
intended to improve the program and increase the ability of Lancaster 
Farmland Trust and other land trusts to carry out the goals of the 
program. The comments refer specifically to the rule as well as other 
NRCS materials including the new policy manual related to the program.
    First and foremost, it is important that the program not be overly 
complicated. While recognizing the need for oversight, rules and 
procedures that micro-manage the work of land trusts will serve only to 
make those organizations reluctant to participate. Land trusts have 
vast experience in protecting the nation's natural resources and the 
rule should recognize and reflect that experience.
    It is also critical that the rule be flexible to accommodate 
geographic and land use differences but it cannot be uncertain. 
Obtaining decisions and answers in a timely fashion helps to move 
projects along. Our experience with FRPP is that a project could take 
as long as 2 years to complete while a project using other government 
funding (state, county or municipal) can be completed in 6 months or 
less. The additional staff time required to complete a federally funded 
project utilizes resources that would otherwise be used to further our 
organization's mission.
    It is with this as background that Lancaster Farmland Trust 
respectfully submits the following suggestions to enhance the 
Agricultural Conservation Easement Program. The comments reflect the 
experience of Lancaster Farmland Trust as well as other land trusts.
Suggestions for Improvement
Minimum Deed Terms
    Section 1265B(b)(4)(C) of the statute clearly states under 
``Minimum Terms and Conditions'' that ``an eligible entity shall be 
authorized to use its own terms and conditions for agricultural land 
easements so long as the Secretary determines such terms and conditions 
(meet certain conditions).'' However, Section 1468.20(a)(2) of the 
interim final rule states that eligible entities ``must enter into a 
cooperative agreement with NRCS and use the NRCS required minimum deed 
terms specified therein.''
    Further, 1468.25(c) states ``The eligible entity may use its own 
terms and conditions in the agricultural land easement deed, but the 
agricultural land easement deed must contain the minimum deed 
requirements as specified NRCS in the cooperative agreement, either in 
the deed or in an addendum that is incorporated therein.''
    In the case of minimum deed terms, there is a contradiction between 
the statute and the final interim rule. Clearly the intent of Congress 
was to recognize a land trust's ability to structure an easement to 
meet the terms and conditions intended by NRCS without using specific 
language prescribed by the agency. This has the effect of forcing an 
eligible entity to use language that may not fit its program, may not 
recognize characteristics specific to its geographic location and land 
use, and may not provide the eligible entity with the ability to make 
an easement more restrictive than the minimum deed terms specified by 
NRCS.
    Allowing eligible entities the flexibility to use their own 
easement language will not only fulfill the intent of the statute, it 
will strengthen the program by reflecting regional and organizational 
differences and ensure adoption by eligible entities responsible for 
accomplishing the goals of the program.
Minimum Deed Terms--Enforcement
    Section 1265B(b)(4) of the statute states that the terms and 
conditions of an easement must ``include a right of enforcement for the 
Secretary that may be used only if the terms of the easement are not 
enforced by the holder of the easement.'' While providing a right of 
enforcement is understandable, the interim rule goes further by 
defining the right of enforcement as ``the right of the United States 
to inspect the easement area and to enforce the easement entered into 
under this part in those instances in which the grantee of the easement 
does not fully protect the interests provided to the grantee under this 
easement.''
    The statute is clear that it is the responsibility of the eligible 
entity to monitor and enforce the easement and that NRCS may only step 
in ``if the terms of the easement are not enforced by the holder of the 
easement.'' The construction of the rule could easily be interpreted to 
mean there is a right to inspect independent of the easement not being 
enforced.
    Additionally, in Section 1468.28(c), the interim rule states:

          ``NRCS . . . reserves the right to enter upon the easement 
        area if the annual monitoring report provided by the eligible 
        entity documenting compliance with the agricultural land 
        easement and agricultural land easement plan is insufficient or 
        is not provided annually, the United States has evidence of an 
        unaddressed violation or to remedy deficiencies or easement 
        violations.''

    Lancaster Farmland Trust believes that the eligible entities' 
failure to file a report or the filing of an incomplete report should 
not be sufficient to trigger NRCS's right to enter the easement area 
and that a failure to file a report or filing an incomplete report 
could be a procedural failure and should be handled between the 
eligible entity and NRCS and should not involve the landowner. Further 
evidence of a violation--other than the lack of a monitoring report--
should be required before the ``right to enter the easement area'' is 
exercised.
Cash Match Availability
    The interim rule (Section 1468.20(b)(1)(iv)) requires ``sufficient 
evidence of . . . the availability of funds at the time of application 
sufficient to meet the eligible entity's contribution requirements for 
each parcel proposed for funding;'' while the program manual states 
that entities must ``document or certify that, at the time of 
application, . . . the required funds (are) available for each 
parcel''. While NRCS staff has acknowledged it is not their intent to 
require that the eligible entity have the funds in its possession at 
the time of application, the language in the program manual seems to 
suggest that requirement.
    Requiring the availability of funds at the time of application 
places an unnecessary burden on eligible entities and fails to 
recognize that other sources of funding utilized for project may have 
different requirements and timelines but would be available in 
sufficient time to complete the project.
    To resolve the inconsistency in language between the rule and the 
manual, it is recommended that the rule language be used in the program 
manual. Further, it is recommended that ``sufficient evidence'' include 
a successful history of obtaining matching funds from public and 
private sources.
Agricultural Land Easement Plans
    What is an Agricultural Land Easement Plan? Lancaster Farmland 
Trust has asked this question of NRCS staff who have acknowledged they 
do not yet know. This raises questions about what will be required of 
the eligible entity and the landowner.
    NRCS has a long and successful tradition of voluntary conservation 
planning in which NRCS provides technical assistance and, in 
partnership with the landowner, decides what is reasonable to improve 
their operation. Given the success of conservation planning and the 
familiarity landowners have with that process, we believe inventing a 
new plan is unnecessary and will place an unreasonable burden on the 
eligible entity to monitor and enforce.
    In addition, we have concerns that, eligible entities may not have 
the authority to ``enforce'' the elements of the plan nor the expertise 
to assist the landowner with compliance.
Eligible Entity Certification
    The Eligible Entity Certification is critical to streamlining the 
ACEP process. We believe that NRCS is committed to making this element 
of the program successful so that both NRCS and the eligible entity can 
save time and conserve their resources. We agree that this is critical 
to the success of the program and hope that agreement can be reached on 
what is required to become ``certified''.
    The provisions of one section of the manual (528.75(I)) may deter 
eligible entities from seeking certification. This section states that 
``NRCS may require the entity to return any financial assistance 
provided by NRCS for easements that fail a quality assurance review and 
are not remedied to NRCS's satisfaction.''
    The manual does not provide criteria for or a definition of a 
``quality assurance review.'' There are sufficient checks and balances 
throughout the process to provide NRCS opportunities to remedy any 
concerns it may have with an easement prior to closing or withdraw the 
offer of funding. Additionally, NRCS retains the right of enforcement 
if the entity fails to enforce the easement, thereby ensuring that the 
easement would not ``fail'' once executed.
    Requiring the return of funds would present a tremendous hardship 
for any organization and would seem to be an unreasonably harsh 
penalty. This provision presents sufficient financial risk to make it 
unlikely that an eligible entity would apply for certification. 
Therefore, defining clear standards about when such a ``nuclear 
option'' would be used (i.e., fraud, enrollment of an ineligible 
property) is absolutely necessary.
Ineligible Lands--Rights of Way
    Section 1468.20(e)(5) of the rule designates land ineligible for 
the ACEP program ``where the purposes of the program would be 
undermined due to onsite or offsite conditions, such as risk of 
hazardous substances, proposed or existing rights of way, 
infrastructure development, or adjacent land uses . . . .''
    The manual goes into more detail (528.34) which may, in some cases, 
be interpreted too broadly resulting in lands being determined as 
ineligible when they should be eligible. The prohibition in subsection 
(3)(ii) cites as disqualifying circumstances ``proposed or existing 
rights of way, either onsite or offsite, such as transmission lines, 
highways, pipelines or other existing or proposed infrastructure that 
introduce disturbances of risks that undermine the purpose of the 
easement.''
    Depending on how this is executed, Lancaster County, Pennsylvania--
with some of the best farmland in the country--could be largely 
ineligible to access ACEP funds. Lancaster County lies between 
Pennsylvania's Marcellus Shale region and markets and export facilities 
to the south. Currently three pipeline projects that traverse more than 
60 preserved farms are either approved or proposed for Lancaster 
County. Others are anticipated. Lancaster County's success in 
preserving farmland makes it impossible to cite a large-scale utility 
project without impacting a preserved farm.
    We believe that NRCS should more clearly define ``proposed'' and 
would suggest that a parcel not be deemed ``ineligible'' unless it lies 
along a route included in a preliminary or final application to the 
Federal Energy Regulatory Commission or appropriate state agency and, 
then, only if the right of way would materially affect the conservation 
purpose of the proposed easement.
Appraisal Review
    If you ask any land trust that participated in the FRPP program 
what step in the process caused the most delays, they would most likely 
say the appraisal review process. Therefore, we were surprised that the 
appraisal review of ACEP easements was barely mentioned in either the 
rule or the manual.
    We believe that more attention should be paid to improving the 
review process and recommend that the Chief work with eligible entities 
to review the current contract for review appraisers and the agency's 
instructions to those reviewers with the goal of improving and 
streamlining the process. Specifically, we would suggest that the 
appraisal be reviewed only to determine if all criteria has been met 
and not to determine value since the reviewing appraisers are 
unfamiliar with the particular situations relevant to that appraisal. 
If the reviewer does not need to establish value--but certifies that 
the value presented appears to be valid--the time taken by the review 
could be shortened.
Conclusion
    Lancaster Farmland Trust appreciates the opportunity to comment on 
the interim final rule on the Agricultural Conservation Easement 
Program and is grateful to have the opportunity to participate in the 
program. The funds provided to us by the program help farm families 
realize their dream of protecting their land so that their children and 
grandchildren will have the opportunity to farm as they do. They are--
above all else--committed to protecting the land and we are proud to be 
able to help them do so.
    We hope that the comments we have offered in this testimony improve 
the program and help ensure that it achieves the goals intended by 
Congress and NRCS.
    Finally, Lancaster Farmland Trust appreciates the efforts of the 
Land Trust Alliance to represent our interests and those of other land 
trusts who protect working lands. Specifically, we are grateful for the 
efforts of Russ Shay and his staff who have spent countless hours 
working to improve the Agricultural Conservation Easement Program and 
who provided assistance in the preparation of this testimony. Their 
work contributes to our success and ensures the success of the program.

    The Chairman. Ms. Martynick, thank you so much for your 
testimony.
    Now, I am pleased to introduce Mr. Inglis for your 5 
minutes of testimony, please.

       STATEMENT OF JAMES E. INGLIS, GOVERNMENTAL AFFAIRS
  REPRESENTATIVE, PHEASANTS FOREVER, INC. AND QUAIL FOREVER, 
                       UPPER SANDUSKY, OH

    Mr. Inglis. Okay. Thank you, Chairman Thompson, Ranking 
Member Lujan Grisham, and the Members of the Committee. I am 
the Governmental Affairs Representative with Pheasants Forever 
and Quail Forever based out of St. Paul, Minnesota. I am a 
wildlife biologist by education and experience. I grew up on a 
dairy farm in Western New York, and I currently live in Upper 
Sandusky, Ohio.
    I am here today representing our 750 community-based 
Pheasants Forever and Quail Forever chapters, and 142,000 
members and volunteers that work every day to promote and 
implement conservation programs. To compliment the work of our 
dedicated volunteers, we have a team of Farm Bill Biologists 
that work as natural resource professionals that have expertise 
in wildlife biology, forestry and range management. They work 
with landowners to find the best voluntary conservation 
solutions that fit the needs as part of their agriculture 
operations and their personal goals.
    Over the last 12 years, these Farm Bill Biologists have 
worked with landowners in over 148,000 projects covering 5.1 
million acres. These projects involve the establishment of 
quality conservation practices that improve soil health, water 
quality, and provide habitat benefits to a wide variety of 
wildlife, not only pheasants and quail but other species such 
as the Golden-winged warbler in Pennsylvania, Lesser Prairie 
chicken in the Southern Great Plains, Elk and Sage Grouse in 
the West, and honey bees and Monarch butterflies throughout our 
great country.
    In addition, all Americans benefit from these conservation 
practices that improve the soil health, water quality and 
quantity. We are here today to discuss conservation program 
implementation, and I would like to spend a few minutes to 
highlight a couple of them. First of all, I would like to 
highlight the Conservation Reserve Program that we have heard 
quite a bit about here this morning. CRP celebrates its 30th 
anniversary this year. Farmers, ranchers, landowners, and 
sportsmen will tell you that the program has been and continues 
to be very popular and productive.
    We support CRP's ability to deliver a variety of 
conservation practices to landowners that address landscape-
scale wildlife and natural resource concerns. This would 
include options to sign up conservation practices during a 
general CRP sign-up period but also having more targeted 
practices that are available through the year.
    We supported Secretary Vilsack's recent announcement that 
USDA will host a general signup at the end of this calendar 
year, as well as adding 800,000 additional continuous acres. We 
are thankful to have the opportunity to work with USDA to make 
improvements to CRP to better carry out the intent of Congress 
by providing conservation benefits for taxpayers as well as the 
technical and financial resources for landowners and farmers.
    Included in my written testimony are details on the CRP 
implementation recommendations that several sportsmen and 
wildlife groups recently drafted for USDA and FSA leadership at 
their request.
    I would also like to highlight the Regional Conservation 
Partnership Program. We are one of 22 partners in the regional 
grassland, bird and grazing land enhancement project being 
coordinated by the Missouri Department of Conservation and 
implemented in four states: Missouri, Iowa, Nebraska, and 
Kansas. The partnership utilizes NRCS' Environmental Quality 
Incentives Program and agricultural land easement funds to 
improve forage quality on grazing lands while benefiting 
Bobwhite quail, and the Greater Prairie chicken, and numerous 
other grassland wildlife.
    Ultimately, we are enhancing these working land grazing 
systems making them more productive and more resilient to 
periods of drought. Preliminary signup results, just in the 
last couple of weeks, suggest that there is going to be more 
interest from landowners than funds available. One of our 
organization's top priorities, along with many of our partners, 
are to maximize the wildlife benefit, soil health, and water 
quality on as many acres of farms, fields, ranches, forestlands 
as possible.
    For example, this would include considering individual 
species' lifecycle needs in the design of conservation plans, 
such as addressing limiting factors of pollinators in that 
area. This could also be accomplished by something as simple as 
using updated seeding specifications and management techniques 
that would establish and maintain a diversity of vegetative 
cover but also addresses soil, water, and wildlife concerns.
    CRP Mid Contract Management is another great example of 
having tools available to maximize the benefit to the program 
throughout the length of the contract.
    I need to emphasize that these successes would not be 
possible without the numerous partnerships that we have across 
the country, especially with the Natural Resources Conservation 
Service, Farm Service Agency, and the state fish and wildlife 
agencies. There are hundreds of partnerships at the state and 
local levels around the country that leverage the Federal funds 
for the implementation of the individual conservation programs 
and practices and for the boots on the ground to deliver them.
    Mr. Chairman, in closing, we often hear the term 
``precision agriculture'' is going to be the way of future, and 
with the technology and partnerships we have available across 
this great country, we can also have precision conservation. 
The voluntary incentive-based conservation programs in the farm 
bill clearly give us the tools to accomplish that. I thank you 
for the opportunity to be here, and I look forward to any 
questions.
    [The prepared statement of Mr. Inglis follows:]

      Prepared Statement of James E. Inglis, Governmental Affairs
    Representative, Pheasants Forever, Inc. and Quail Forever, Upper
                              Sandusky, OH
    Chairman Thompson, Ranking Member Lujan Grisham, and Members of the 
Subcommittee, my name is Jim Inglis and I am the Governmental Affairs 
Representative with Pheasants Forever and Quail Forever based out of 
St. Paul, Minnesota. I am a wildlife biologist by education and 
experience; grew up on a dairy farm in western New York, and currently 
live in Upper Sandusky, Ohio.
    I am here today representing our 750 community based Pheasants 
Forever and Quail Forever chapters; and 142,000 members and volunteers 
that work every day to promote and implement conservation programs. 
Each year our chapters complete more than 30,000 individual projects 
with farmers, ranchers and forest owners. To complement the work of our 
dedicated volunteers, we have a team of Farm Bill Biologists that work 
as natural resource professionals with expertise in fields such as 
wildlife biology, forestry, and range management. They work with 
landowners every day to find the best voluntary based, conservation 
solutions that fit producers' needs as part of their agriculture 
operations and personal goals.
    Over the last 12 years, these Farm Bill Biologists have worked on 
over 148,000 projects with landowners covering over 5.1 million acres. 
These projects involve the establishment of quality habitat that meet 
the life cycle needs of a wide variety of wildlife, not only pheasants 
and quail, but other species such as Golden-winged warbler in 
Pennsylvania, Lesser Prairie Chickens in the Southern Great Plains and 
the iconic Elk and Sage Grouse in the West, and Monarch butterflies 
throughout the country. In addition to wildlife benefits, all Americans 
benefit from improved soil health and water quality and quantity by 
implementing these practices.We are here today to discuss farm bill 
implementation and I would like to spend a few minutes discussing a 
couple of the individual programs.
Conservation Reserve Program
    First, I would like to highlight the Conservation Reserve Program 
(CRP). As many of you know, the CRP celebrates its 30th anniversary 
this year, and farmers, ranchers, landowners and sportsmen will tell 
you that the program has been, and continues to be popular and 
productive. We support CRP's ability to deliver a variety of 
conservation practices to landowners, both options of larger general 
CRP signup periods, and more targeted continuous practices are 
important for addressing landscape scale wildlife and natural resource 
concerns. We supported Secretary Vilsack's recent announcement that 
USDA will host a general signup the end of this calendar year, as well 
as open 800,000 additional continuous acres. We are also thankful to 
have the opportunity to work with USDA to make improvements to CRP, to 
better carry out the intent of Congress to conserve soil, water, and 
wildlife, providing conservation benefits to taxpayers as well as 
financial incentives to producers. Included with my written testimony 
are details on CRP implementation recommendations that several 
sportsmen and wildlife groups, including PF/QF, recently drafted for 
USDA and FSA leadership at their request.
    Unlike some programs discussed today, the CRP rule has not been 
released so our recommendations are on how the CRP can best be 
implemented. On May 27th, a group of wildlife organizations including 
Pheasants Forever and Quail Forever provided our combined 
recommendations for the Conservation Reserve Program to USDA and FSA 
leadership. The below recommendations aim to help maximize enrollment 
on both the general and continuous sides of the program, in order to 
give landowners and producers a robust set of tools with which to 
implement conservation on their land.
Signups and Expiring Acres
    One of the first priorities from several groups was that USDA hold 
a general signup as soon as possible, which will occur in December of 
this year. In addition, we recommended that USDA provide re-enrollment 
options to producers for the 2.17M acres that are set to expire at the 
end of this fiscal year (267,000 acres extended from FY14 and 1.91M 
acres set to expire FY15). USDA announced that producers will have an 
option to re-enroll for 1 year, allowing enough time to enroll lands 
under the general signup, or potentially a more targeted CCRP practice.
    We also believe USDA should expand CCRP initiatives to cover areas 
with high contract expiration rates. As these acres come out of a 
general contract and are not extended/re-enrolled, we would ask USDA to 
promote keeping environmentally sensitive/important lands in CCRP 
practices. The trend has been that when a general CRP contract expires, 
the entire field is brought back into production.
Conservation Practices, Initiatives, and Management
    We thank and support that USDA addressed the acres of CP38 State 
Acres For Wildlife Enhancement (SAFE) and CP37 duck nesting habitat as 
part of the recent announcement. We also would ask USDA to clarify with 
states their requested for acres and modifications to existing 
initiatives (e.g., CP33, CP38, CREP). We encourage USDA to reevaluate 
initiatives and practices that are stagnant, with specific attention to 
improving incentives and/or lowering enrollment caps on those under-
performing practices, and consider raising caps on the most successful 
initiatives.
    We would like to see USDA continue to enroll lands in the highly 
erodible lands initiative, but better balance water quality and soil 
erosion with habitat and upgraded grassland cover. We think it is 
important for USDA to reevaluate the mid contract management cost share 
annual caps to encourage quality habitat management. The current caps, 
which have not been updated since 2002, do not adequately address 
management cost to achieve maximum benefits.
Working Grasslands
    One of the most exciting additions to the CRP was adding 2 million 
acres of grassland eligibility. We would recommend fully enrolling the 
authorized 2 million acres by 2018. We also would like to see USDA 
prioritize limited acreage around specific resource concerns: target 
areas of high rates of native grassland conversion, maintaining 
perennial cover, especially on native grasslands and existing CRP 
enrollments; enrolling acres in areas with high risk of conversion; 
provide priority wildlife habitat through diverse, vegetation and large 
tract enrollment as appropriate to the species, protecting grasslands 
with proximity to wetlands or in regions with high wetland densities. 
In addition, we urge USDA to collect and publish data on native 
grassland loss annually.
    We would to like to see USDA implement the program similar to the 
CRP SAFE by accepting Federal, state, local agencies and partner 
proposals for collaborative, stakeholder-sponsored enrollments but 
partners should not be required to contribute financial assistance as 
in CREP. We would greatly support an exemption of working grasslands 
acres from CRP county caps since these lands will be in agriculture 
production. We would also like to see USDA require a comprehensive 
conservation plan for all enrollments. Finally we recommend giving this 
new program a distinctive and recognizable name to avoid confusion by 
participants, partners, and USDA staff.
Regional Conservation Partnership Program
    Another program that I would like to highlight is the Regional 
Conservation Partnership Program (RCPP) by providing a specific 
example. We are one of 22 partners in the Regional Grassland Bird and 
Grazing Land Enhancement project being coordinated by the Missouri 
Department of Conservation, which is being implemented in Missouri, 
Iowa, Nebraska and Kansas. The partnership utilizes NRCS' Environmental 
Quality Incentives Program (EQIP) and Agriculture Land Easement (ALE) 
programs to improve forage quality on grazing lands while benefiting 
the greater prairie chicken, bobwhite quail and numerous other 
grassland wildlife. Ultimately we are enhancing grazing systems and 
wildlife habitat that will be more resilient to periods of drought, 
like we experience in this region in 2012. These working lands will be 
more productive, have the ability to absorb more water and reduce 
erosion in high rainfall events. Preliminary sign up results just in 
the last couple weeks suggest that there is more interest from 
landowners than funds available.
Voluntary Public Access--Habitat Improvement Program
    The last farm bill conservation program we would like to highlight 
is the Voluntary Public Access--Habitat Improvement Program (VPA-HIP) 
that we work on with our state wildlife agency partners. As you are 
aware, hunting, fishing and outdoor recreation can be an economic 
driver in many parts of the country. Hunters and anglers spend 
approximately $75 Billion pursuing their passions every year. In 
addition wildlife watchers spend about $55 billion each year. These 
expenditures include everything from rods and reels, guns, ammunition, 
boats, decoys, bows and arrows and tree stands, to hotel stays and 
dinners in small rural towns across the country. As you may also 
recognize public access for hunting, fishing and recreation can be a 
factor in the lost participation because some areas of the country are 
limited on amount of accessible lands, especially in those landscapes 
that are comprised by mostly private ownership. VPA-HIP helps address 
that by working with state and local partners to provide incentives for 
landowners to voluntarily open up their lands for recreation, while 
conducting wildlife habitat improvements. We support the announcement 
of the first $20 million earlier this year, and look forward to the 
remainder of the funding allocation in the near future.
Improving Habitat Quality
    One of our organizations top priorities, along with many of our 
partners, are to maximize the wildlife benefits, soil health, and water 
quality through voluntary Federal, state and local conservation 
programs on as many acres of fields, farms, ranches and forestlands as 
possible. This includes, for example, considering individual wildlife 
species life cycle needs, such as with pollinators, in the design of 
conservation plans that compliments an ecosystem approach. This can be 
accomplished by something as simple as updated seeding specifications 
and management techniques that establish and maintain a diversity of 
vegetative cover in conservation planning process. This will result in 
longer term natural resource benefits with a reduced need for 
management in the future.
    We feel there are several opportunities to increase the value of 
conservation program plantings for pollinators like honey bees and 
Monarch butterflies as well as a wide range of upland wildlife. Some of 
the updates to USDA conservation programs that would have an immediate 
and positive impact on pollinators and wildlife include implementing up 
to date USDA seeding specifications currently being used to design 
conservation program seeding mixtures in some states. Examples of 
seeding specification improvements include:

  (1)  Allow and encourage the use of a broader range of species 
            adapted to a geographic area. Both Honey Bees and Monarch 
            Butterflies are known to receive increased benefits from 
            highly diverse seeding mixtures. The more species that are 
            included in a seeding mixture, the more pollinator species 
            the seeding mixture will benefit. As an example, several 
            state seeding specifications currently do not allow for the 
            inclusion of critically important species for Monarch 
            butterflies like Common Milkweed (Asclepias syriaca) and 
            other species critical for fall migration.

  (2)  Update seeding specifications to build seeding mixtures based on 
            Pure Live Seed (PLS) seeds per square foot instead of the 
            outdated PLS pounds per acre method. A continued reliance 
            on PLS pounds per acre seeding specifications in some 
            states produces an inconsistency within USDA about how 
            conservation program seeding specifications are written and 
            applied. Pollinator mixtures increasingly require the use 
            of wildflower species with a very wide range of seed sizes 
            and weights. In order to create a balanced, properly 
            designed and cost effective seeding mixture, the mixture 
            needs to be based on the number of seeds that are being 
            planted per given area and not the bulk pounds of species 
            that have a wide range in the size of the seeds. This is an 
            important update as some of the most important states to 
            honey bee and Monarch butterfly health have not yet made 
            these updates to their USDA seeding specifications.

  (3)  Move forward with the adoption and use of a USDA `Seed 
            Calculator' in creating conservation program seeding 
            mixtures that are based on PLS per square foot seeding 
            specifications. The use of a ``seed calculator'' to help 
            create mixtures based on ratios assigned to species is 
            important, yet many states that use a seed calculator still 
            rely on PLS pounds per acre. Examples of seed calculators 
            already exist within both USDA and the private sector that 
            are function using PLS per square foot. There has been 
            discussion within USDA regarding the creation of a USDA 
            seed calculator for use by USDA staff for several years. 
            Such a tool would enable staff to better design seeding 
            mixture recommendations that are balanced, cost effective, 
            had a higher diversity and provided increased quality 
            pollinator habitat.

  (4)  Implement seed establishment practices that allow a broader 
            range of establishment options that includes dormant 
            seedings in the fall and no-till drill seeding without 
            disking ahead of seeding. In several of the states that are 
            the most important for Honey Bee and Monarch Butterfly 
            foraging habitat, USDA seeding specifications provide 
            direction that limits several of the best establishment 
            practices. Seeding specifications to establish high 
            diversity, pollinator habitat should allow the use of 
            dormant seedings, broad cast seeding and eliminate field 
            disking recommendations prior to establishment.

    Each of these recommendations are already successfully in place in 
some of the state USDA seeding specifications in the country. 
Unfortunately, some of the most critical states for Honey Bee and 
Monarch Butterfly health have not yet incorporated these updated 
seeding specifications. When these seeding specification 
recommendations are all applied, the benefits include establishing 
habitat with significantly increased wildlife habitat quality, mixtures 
that are more cost effective and providing tools that allow resource 
professionals to design improved seeding mixtures.
Closing Statement
    I need to emphasize that these successes wouldn't be possible 
without numerous partnerships that we have with the Natural Resources 
Conservation Service, Farm Service Agency, state fish and wildlife 
agencies, and other national, state and local agencies and 
organizations. There are hundreds of other partnership positions at the 
county and state levels that leverage funding for conservation 
practices, and for ``boots on the ground'' delivery.
    Mr. Chairman, in closing, we often hear the term precision 
agriculture as the way of the future, and with the technology and 
partnerships we have available across this great country, we can also 
have precision conservation. The voluntary, incentive based, 
conservation programs in the farm bill, clearly deliver that.
    Thank you and I look forward to any questions.
                               Attachment
Farm Bill and Partnership Biologist Program Summary
  <bullet> Pheasants Forever (PF) and Quail Forever (QF) Farm Bill 
        Biologist (FBB) Program started in South Dakota in 2003 with 
        four positions; there are currently 117 partnership positions 
        in 19 states. Since inception, these individuals have worked on 
        over 148,000 projects with landowners impacting 5.14 million 
        acres. In addition, they have hosted over 920 landowner 
        workshops to promote farm bill and other conservation programs 
        that farmers, ranchers, and landowners use as part of their 
        operations.

  <bullet> Funding sources are diverse, and the effort would not be 
        possible without the financial support of State Fish and 
        Wildlife Agencies, USDA-NRCS, USFWS, Joint Ventures, National 
        Fish and Wildlife Foundation, Local PF&QF chapters, watershed 
        groups, foundations, and other state and local partners. FSA is 
        also a key partner.

  <bullet> With the increasing wildlife focus of the farm bill and 
        various other state and Federal initiatives, FBB's add 
        wildlife, range, forestry and other specialized technical 
        assistance capacity in USDA offices. They assist NRCS/FSA and 
        conservation partners maximize the benefits conservation 
        practices provide on a landscape scale.

  <bullet> Through the NRCS Working Lands For Wildlife and other 
        wildlife focused initiatives, PF has entered into several 
        agreements with partners (i.e., State Wildlife Agencies, 
        Intermountain West Joint Venture, Western Association of Fish 
        and Wildlife Agencies) to assist in the delivering the Sage 
        Grouse, Lesser Prairie Chicken, and Golden-winged Warbler 
        Initiatives. PF&QF host positions and provide implementation, 
        administrative and financial assistance services in these 
        targeted regions.

  <bullet> These partnership positions are involved in several other 
        initiatives and projects such as expanding private land acres 
        open to the public through NRCS's Voluntary Public Access and 
        Habitat Incentive Program (VPA-HIP) along with state funded 
        public access programs.
Location and Number of Partnership Positions by State
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


------------------------------------------------------------------------
                             Year Partnership        Current Number of
          State                 Implemented        Partnership Positions
------------------------------------------------------------------------
     South Dakota                      2003                      10
         Nebraska                      2004                      19
        Minnesota                      2004                      16
             Ohio                      2005                       9
        Wisconsin                      2007                       6
     North Dakota                      2008                       5
             Iowa                      2009                       6
         Illinois                      2010                       5
           Kansas                      2010                       6
         Colorado                      2010                       3
            Idaho                      2010                       6
     Pennsylvania                      2011                       9
         Missouri                      2011                       6
       Washington                      2011                       1
           Nevada                      2011                       2
            Texas                      2011                       3
       New Mexico                      2011                       1
          Wyoming                      2012                       1
        Tennessee                      2013                       3
                         -----------------------------------------------
  Total.................                                        117
------------------------------------------------------------------------
For more information contact: Jim Inglis, Governmental Affairs
  Representative.


    The Chairman. Thank you, Mr. Inglis.
    Thanks to all members of all the panel for your testimony. 
And now I am pleased to yield to the gentleman from Georgia, 
Mr. Allen, for 5 minutes of questioning.
    Mr. Allen of Georgia. Yes, sir. Thank you, Mr. Chairman. 
Many Members of this Committee see farmers as the best stewards 
of our land, but the EPA seems to think differently at times. 
And Congress has given producers tools through cost-share 
programs and voluntary incentive-based programs to improve 
water, soil, and air quality.
    Can each of you speak to the importance of conservation 
programs in conjunction with these possible regulations, and 
also, Mr. Van Dyke and Mr. Allen, you talked about, on your own 
property, the importance of conservation and obviously their 
incentives to conserve with these various programs.
    How responsible would farmers and ranchers be without such 
incentives? And I will address that to first, Mr. Van Dyke, and 
anybody else that would like to comment on those two questions, 
as far as the regulatory environment and then the incentive 
issue?
    Mr. Van Dyke. Well, thank you very much, and I strongly 
believe the majority of producers out there want to do the 
right thing, and they obviously are the stewards of the land. 
Their livelihood depends on healthy lands, healthy soil, 
healthy air, clean water. And as we deal with Federal 
regulations like the Clean Water Act and the Endangered Species 
Act, voluntary farm-based conservation programs can help 
positively address those issues.
    And like myself, I farm and ranch because it is something 
that my family has always done, and I want to pass on that 
operation to my children, and I cannot do that if I destroy the 
environment in any way. I think the majority of producers are 
proactive. I think soil and water districts need to address 
local issues and find local solutions. That is what we have 
been doing for 80 years and have the relationships to do that. 
We are all about clean water and clean air.
    Mr. Allen of Georgia. Okay. Mr. Rice. Mr. Allen, I am 
sorry.
    Mr. Allen. Well, I agree with Mr. Van Dyke's comments, but 
I would like to add that in the declining nature of our 
commodity values today, any practice that does not create 
revenue is hard to justify, and as a producer, I said earlier 
that my productivity increases when I apply stewardship, and it 
makes me more sustainable, and I believe that.
    But I believe that the title II programs and the cost-share 
incentives are critical and mandatory for the type of 
stewardship that we have described.
    Mr. Allen of Georgia. Okay. So you would suggest that from 
an investment standpoint, these incentives are necessary for 
you and other farmers and ranchers to sustain your operations?
    Mr. Allen. Absolutely.
    Mr. Allen of Georgia. Okay. Any other comments on those 
questions?
    Okay. Well, great. I yield back the remainder of my time, 
Mr. Chairman.
    The Chairman. Thank you. The gentleman yields back. I am 
pleased to recognize the Ranking Member for questioning.
    Ms. Lujan Grisham. Thank you very much, Mr. Chairman, and I 
want to thank the entire panel. It is gratifying to hear about 
the successes, and we really are working diligently to make 
sure that we are organized in such a fashion to make sure that 
with the limited resources that we have available to USDA for 
the farm bill, that we are doing the very best that we can, but 
it is also important for us to hear about where those gaps are.
    Mr. Van Dyke, it is wonderful to have you here, and it is 
impressive that NACD is involved in over 100 RCPP projects 
across the country, and having you as a partner in those 
projects, I know, unequivocally, really helped in moving them 
and getting them off the ground.
    In your testimony, you discuss how the RCPP program has 
allowed you to form new partnerships that were previously 
impossible in the other programs like the traditional EQIP and 
CSP programs.
    And I am most encouraged to hear about your work with the 
acequias. And I have talked a little bit about acequias, and 
now the Chairman is familiar, and we are working hard to get 
the entire Committee, but acequia refers, when they talk about 
the New Mexico ditches, to a traditional communal irrigation 
system, and it dates back literally to the Spanish colonial 
area from the 1500s, and they play a very significant and very 
critical role not only in our history and our culture, but that 
is how we continue today to deliver water for agricultural 
areas, particularly in rural areas.
    And their involvement in conservation programs then, is 
critical to long-term success and broad and significant 
participation by New Mexico, and it highlights that there are 
going to be unique circumstances around the country that we are 
going to have to identify and encourage in order to take the 
full use of these programs.
    I would love it, Mr. Van Dyke, if you could give me some 
specific examples about how the flexibility has changed the 
dynamic in other areas, what that means to the program overall, 
and how these efforts really assisted you to expand these 
partnerships and roles.
    Mr. Van Dyke. Well, thank you. We in New Mexico are so 
excited to have the RCPPs. Acequias, as we all know in New 
Mexico, are traditional. They represent rural New Mexico. They 
represent those communities that have been there forever, long 
family heritage and traditions, and we don't want those 
children leaving those communities because they do not have the 
opportunity to make a living, provide for their families, and 
it is amazing how RCPP, which prior to 2014, never had the 
opportunity to qualify for some of these programs.
    And with the alternative funding and flexibility that is 
now in with the RCPP, it gives us the opportunity to address 
those natural resource concerns with input from those local 
communities and the local people who do have the answers to 
some of those resource concerns and bringing in non-traditional 
partners. Partnerships is what it is all about, whether you are 
in Chama, New Mexico or Carlsbad, Clovis, New Mexico, it is all 
about partnerships, and RCPP brings those people to the table 
to identify those needs and come up with solutions.
    Everybody, that way, has skin in the game, so they really 
are more concerned with its success. And you are absolutely 
correct, the ability to address those acequia issues is so 
important to New Mexico, so we appreciate that, another tool in 
that NRCS toolbox.
    Ms. Lujan Grisham. With the limited time I have left, and I 
really appreciate your leadership here and your stewardship, 
and really, Mr. Chairman, I wanted to highlight that if we 
don't have the flexibility, these programs can often work 
against us as we try to leverage those resources to create 
partnerships. And we talk about drought driven and economic 
situations that are not stable and have been really damaging, 
frankly devastating to states like New Mexico and other states 
in the Southwest, this is the only way to leverage those 
limited resources, create relationships and partnerships that 
make the best out of conserving and providing opportunities for 
farmers and ranchers.
    So I want to thank you again for your leadership and I want 
to thank the entire panel for highlighting those efforts and 
successes around the country.
    The Chairman is doing something that is very unique in 
these committees, which I hope reflects that this is a very 
bipartisan Committee. He said that basically I could ask 
anything I want and talk as long as I want, and that has----
    The Chairman. Now, wait a minute. The gentlelady can 
yield--or consume as much time as she desires.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. I really, I 
don't have any other specific questions. I will end with if 
you, anybody on this panel can identify other ways in which we 
might encourage USDA in the context of limitations about how 
flexible some of those programs can be, but they also ought to 
be in a position as they really look at leveraging that 
flexibility that meets the needs of all partners around the 
country and takes into account the different nuances in each of 
the regions.
    I would be interested, and Mr. Chairman, perhaps we could 
get ideas funneled back to the Committee about ways in which we 
should be preparing to even highlight and identify additional 
places where we could be more flexible and make more programs 
available.
    I am working on making sure that EQIP works for a group 
that is not a local body of government but operates in that way 
in their land-grants, and so there are still areas where we are 
not getting to the right groups the resources that they need, 
and those ideas would be very meaningful to me, and they would 
be meaningful to the Committee as we continue to do our work.
    Thank you all very much. I yield back, Mr. Chairman.
    The Chairman. I thank the gentlelady. I will have a line of 
questioning here.
    Ms. Martynick, in your testimony you referenced that in 
your experience a federally funded project could take as long 
as 2 years to complete, but a state or county funded project 
could be completed in 6 months or less. In your opinion, why 
the difference? Why does it take so much longer to complete a 
federally funded project?
    Ms. Martynick. Well, there are a number of reasons. The 
first and foremost, I would say it is the--how long it takes to 
get answers to any questions. Our experience with FRPP, and 
obviously ACEP has improved a lot of this, but ACEP still has 
some of the same issues that there is enough that is unclear 
that you have to constantly go back and forth with NRCS to make 
sure that you are doing the right thing.
    And there are a lot of things that need to be reviewed, 
there are a lot of documents that need to be reviewed and 
sometimes reviewed more than once, and it just takes a long 
time to do that. I highlighted the issue of the appraisal 
reviews. That takes months and months to get an appraisal 
review.
    In a county and state program, that is not necessary as 
long as the appraiser is certified, because after all, they 
have to meet certain standards in order to be certified, so as 
long as the appraiser is certified, they are looking at the 
appraisal more quickly and getting and turning that back to the 
land trust or the county agency more quickly.
    It is every step of the way there, it is a belt-and-
suspenders thing in every step, so it just takes longer to get 
the answers. Sometimes it takes too long to get the answers, or 
takes longer to get the answers, how do we do something, and 
then it takes a long time when things have to be reviewed. I 
think that is probably what takes the most time.
    The Chairman. I wanted to follow up, and you had made 
reference to a comparison between the previous authority that 
we had for easements and what we did within the farm bill, and 
there were a number of changes made in them in the 2008, 2014 
Farm Bill to the easement programs. The creation of the 
consolidated Agricultural Conservation Easement Program, or 
ACEP, was done with the intention of providing flexibility and 
streamlining delivery of the program. Is the Lancaster Farmland 
Trust more or less inclined to participate in ACEP compared to 
the FRPP program?
    Ms. Martynick. I think that the ACEP program has cleared up 
a lot of the issues that we had with FRPP, and hopefully, as we 
move forward, we have two projects pending currently, so we are 
kind of feeling our way at this point, but we definitely can 
see the difference between this and FRPP, although there were 
some things in the ACEP program, things that we thought were 
going to be there that have turned out not to be there, at 
least in terms of the interim rule that has been issued by 
NRCS. I pointed out one major one, which is the minimum deed 
terms.
    If you look at a place like Lancaster County, we work 
mostly with Amish farmers. It is a very specific constituency. 
Lancaster County is a unique place in many ways. It is really 
necessary, in order for us to effectively use the program, to 
be able to use our language, and as long as our language meets 
the minimum standard of NRCS, it just works out so much better 
for us if we don't have to use the language provided to us by 
NRCS.
    When we have to use the language provided by NRCS, we do a 
lot of workarounds, and that doesn't make the easement any 
stronger. It certainly doesn't make the process any shorter, 
and proving that our language is just as effective and being 
able to utilize that language would help a great deal.
    The Chairman. Okay. Thank you.
    Mr. Inglis, there is a lot of interest, obviously, of this 
Committee, the full Agriculture Committee on pollinators, given 
the current state of pollinators, and anyone who likes growing 
food, pollinators play a pretty important role. And you had 
mentioned that in both your written and verbal testimony, so I 
wanted to follow up. Can you talk a little more about how the 
Pheasants Forever is working in this area and some of your 
suggestions in how we can improve pollinator habitat?
    Mr. Inglis. Sure. We have been involved in trying to make 
as many acres of grassland as productive as possible, so we 
like to say what makes good pollinator habitat is going to make 
good nesting habitat, is going to help benefit soil health and 
water quality, so we have been involved in that for several 
years.
    Some of the most recent projects we have been involved with 
is the Honey Bee and Monarch Partnerships in some areas of the 
country, and we are really putting some resources towards that 
to try to educate, whether it is landowners, farmers, and 
ranchers that this is an opportunity, and it might not be the 
best fit for their operation, but we want to make sure that 
they have the tools available to be able to address those.
    As far as making them a little bit better, it is the 
education piece. We heard some concerns this morning that maybe 
the pollinator practices aren't going as well, and some of that 
can come back to updated seeding specifications and updating 
the technical methods to establish those. It is maybe a little 
bit different to establish, so we are all engaged in trying to 
make that process as easy as possible.
    The Chairman. Thank you. Mr. Van Dyke, in your testimony 
you mention that conservation districts will play an important 
role in the implementation of linking conservation compliance 
with crop insurance. Today, what types of activities has the 
NACD engaged in to do this, and especially important for 
specialty crop producers who for the first time are subject to 
conservation compliance, was your organization or the members 
of the organization or conservation districts, both, certainly 
the volunteers, many volunteers who are involved and are 
professionals who are there, were they able to--did they 
participate in any outreach to educate these producers about 
filling out the AD-1026. Are we doing any current outreach to 
see if we missed some folks, some people that are going to get 
a really bad surprise when the bill comes in October?
    Mr. Van Dyke. Well, thank you. And I concur with you, the 
effects of not being in compliance could be very negative, but 
through our national organization communication outreach, we 
have done a good job of reaching out to those producers, 
starting at the national level with our E-notes and our 
mailings, working through our state associations. Every state 
association also had outreach not only nationally, and then 
that outreach also goes down to the local level because there 
is a local soil and water conservation district in just about 
every community in the United States, so starting with the 
national down through the state associations, and then the 
base, the locals' own water districts getting out to their 
cooperators.
    And the unique thing about soil and water districts is 
those supervisors that are elected locally are usually leaders 
in their community in agriculture and conservation, so they 
will help disseminate that type of information. So those are 
the areas that we have worked to get the word out about AD-
1026.
    The Chairman. Okay very good. Well, I appreciate the work 
that you have done and others and certainly the USDA, and 
hopefully we won't have a lot of folks who are caught by 
surprise of not knowing that to qualify for that, it is a self-
certification, but you did need to fill that form out by a 
certain date.
    Mr. Allen, in your testimony you mentioned that as a stand-
alone program, EQIP and CSP are not necessarily geared towards 
rice production, but with the flexibility in the RCPP, USA Rice 
has been able to tailor those programs to achieve the 
conservation goals of rice farmers. Can you expand on that and 
give me some examples of how this is being done?
    Mr. Allen. Yes, sir, Mr. Chairman. Many of the best 
management practices that are conducive to be associated with 
rice production don't rank as well in the ranking models from 
NRCS' larger structural installations, like the construction of 
an irrigation storage reservoir or tail water recovery system. 
The irrigation management practices generally find themselves 
unfunded because they have been outranked by the other 
practices I just described, so this is an opportunity to 
feature those and give them priority, and that now we actually 
have new forms of conservation being installed on the working 
lands because of that.
    The Chairman. Very good. Thank you very much. I want to 
thank all the panelists for taking the time to come to 
Washington to be able to testify today and provide your written 
testimony and your oral testimony and your leadership, 
respective leadership.
    The process that we have of--and this really was an 
oversight hearing, a chance to exercise oversight on the 
implementation of the provisions of the 2014 Farm Bill, to be 
able to get kind of an overview from USDA and their leadership 
in terms of how that is being done, but also to get a, as 
importantly, for those end-users, those folks who are using 
those programs, to get feedback.
    I think this represents a good partnership. I think that 
partnership and that sincerity of this partnership of make 
making sure that we got it right when we did the farm bill and 
that we are getting it right as we implement it, I think that 
is reflective of the fact that Chief Weller, who was here 
through the second panel, I sit on a lot of committees, I don't 
always get that. Sometimes we get a hard time getting 
individuals from the Administration to come, but that is not 
the case with the USDA.
    They are great partners, and sometimes, as hard as we try, 
we don't always get it exactly the way we want it. Perhaps we 
will find that we fail--we did pretty good on the farm bill, 
but you know what, that is why we do these oversight hearings, 
to make sure and work on that partnership, and so I want to 
thank everyone for being here.
    And under the rules of Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional materials and supplementary written responses from 
the witnesses to any questions posed by a Member. This hearing 
of the Subcommittee on Conservation and Forestry is now 
adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
                          Submitted Questions
Response from Jason Weller, Chief, Natural Resource Conservation 
        Service, U.S. Department of Agriculture,
Questions Submitted by Hon. Glenn Thompson, a Representative in 
        Congress from Pennsylvania
    Question 1. The conservation compliance provisions of the farm bill 
also required that any ``affiliated person'' of a producer requesting 
benefits subject to Highly Erodible Land Conservation (HELC) and 
Wetland Conservation (WC) also file an AD-1026. Has your agency, along 
with RMA and FSA, identified persons that this might affect, and if so, 
how were those individuals identified and notified of the new 
conservation compliance requirements? In your estimation, how many of 
these producers are now out of compliance?
    Answer. Matters pertaining to the filing of AD-1026 forms fall 
under the administrative responsibility of the Farm Service Agency. 
According to FSA, all producers that identified ``affiliates'' in block 
4 of AD-1026 are entered into the system by FSA as ``Awaiting Affiliate 
Certification''. Producers are reminded that they are not ``Certified'' 
for AD-1026 until those producers they identified as affiliates are 
also ``Certified''. It is the producer's responsibility to communicate 
to their affiliates that they need to complete their certification in 
order for the original certification to be complete and for the person 
to receive USDA benefits in the form of premium subsidies.
    In addition to the responsibility of the producer to inform 
affiliates, RMA and FSA are working together to flag any remaining 
certifications that are awaiting affiliates and reminding producers of 
the requirement. Specifically, RMA has passed to FSA the first 
applicable sales closing date these producers had in 2014 that are 
entered into the system as ``awaiting affiliate certification''. FSA 
reaches out to the identified producers in advance of the sales closing 
date. FSA stresses the importance to these identified producers that 
they must communicate to their affiliates to come in and certify to 
conservation compliance by their first applicable sales closing date in 
order to remain eligible for the 2016 crop insurance premium subsidy.

    Question 2. NRCS is in the process of finalizing a method for 
making off-site wetland determinations, but there seems to be a great 
deal of confusion about what you are doing. The wetland determination 
process has been, and probably still is, one for the most controversial 
processes for producers to go through with NRCS, and now producers are 
even more concerned with the conservation compliance linkage to crop 
insurance premium subsidies.
    What are you doing to help guide producers through this process?

    Question 2a. What information are you making available to them to 
help them understand the changes that you have made to the 
determination process?

    Question 2b. How are you explaining the terms and data you are 
using and information that you need from producers to make 
determinations?
    Answer 2-2b. The revised state off-site methods for wetlands 
determinations updates procedures that have been used since 1988, uses 
new mapping technologies to streamline initial determinations, and 
reduces the need for field visits, which will help expedite 
determinations and decrease the backlog. The revision process has 
included public listening sessions, review of the procedures at state 
technical committee meetings, posting of the revised procedures in the 
Federal Register, and a national webinar. Additionally, NRCS has 
conducted training for staff on the revised methods so that they can 
effectively explain and help producers through the process.
    The revised process doesn't involve any change of regulatory 
language but incorporates the use of new technology, and improves the 
consistency and efficiency in how determinations are completed. The 
main change in terminology is that the agency now calls its technical 
procedures ``State Offsite Methods'' instead of ``State Mapping 
Conventions.'' NRCS only completes wetland determinations when a USDA 
participant indicates they are planning to undertake a drainage 
improvement action in an area where no previously completed 
determination has been made. NRCS asks producers that indicate they are 
planning to make drainage improvements to provide their drainage 
records for the affected area. The process allows participants multiple 
avenues to request an onsite review and reconsideration with agency 
staff to fully explain the process.

    Question 3. In 2015 NRCS released a number of new enhancements for 
CSP. While it is important for producers to have a number of 
conservation practice options to choose from, the availability of those 
options seems inconsistent in the field. This is resulting in producers 
not being able to sign up for all the enhancements available.
    What are you doing ensure that field staff is trained on these 
options and that all producers have access to the enhancements offered?

    Question 3a. Are state NRCS offices permitted to alter the CSP 
enhancements if they are not appropriate for crops grown in their 
state?
    Answer 3-3a. CSP enhancements are defined conservation activities 
linked to one or more conservation practice standards. NRCS agency 
staff obtain technical training on enhancements through their state 
program and technical specialists and are also guided by the technical 
information contained in the Field Office Technical Guide.
    The specifics of all enhancements offered to producers under each 
sign-up, including a full listing and description of the activities, is 
made available on the NRCS website. NRCS State Conservationists also 
may recommend new enhancements to encourage the adoption of new and 
emerging conservation technologies on farms, ranches and forest lands 
with an increased focus on resource concerns at the local level.
    NRCS State Conservationists have the authority to modify the CSP 
activity list to target specific enhancements to a geographic area or 
to remove enhancements that are not applicable to crops grown in a 
state. While State Conservationists do not have the authority to change 
the purpose of an enhancement, they may refine enhancements to address 
local needs; for example, Grazing Management to Improve Wildlife 
Habitat may be adjusted to incorporate provisions that protect wildlife 
nesting periods in the state. State Conservationists make these 
decisions in consultation with NRCS technical staff and State Technical 
Committees.

    Question 4. NRCS awarded $370 million for projects in the initial 
rollout of the Regional Conservation Partnership Program (RCPP). In 
May, NRCS announced another $235 million in RCPP funding to be 
available in FY 2016. I assume implementing this new and innovative 
program has had its share of challenges, but NRCS has been operating 
the program without a rule. Do you intend to create a rule for RCPP? 
Why or why not?
    Answer. NRCS did not develop a rule for the Regional Conservation 
Partnership Program (RCPP) but has implemented the program through an 
Announcement of Program Funding (APF) process similar to its 
predecessor programs. The APF approach followed the program's statutory 
language, which provided solid structure and allowed for timely 
implementation of this new program. In addition, RCPP is delivered to 
producers through covered programs, each of which have program 
regulations. Correspondingly, RCPP technically is delivered via the 
EQIP, CSP, ACEP, HFRP, and P.L. 83-566 regulations. To strengthen that 
regulatory relationship, NRCS incorporated special RCPP provisions into 
each of the covered program rules, such as the ability of the Chief to 
waive the Adjusted Gross Income limitation or regulatory provisions in 
certain RCPP project areas. The APF process to solicit creative 
proposals from potential partners, combined with the consistent 
regulatory framework already in place through the covered programs, 
allowed a fair and flexible approach to delivering comprehensive 
conservation assistance to producers. At this time, NRCS does not 
intend to initiate rulemaking for RCPP; however, the approach may be 
revisited in the next regulatory cycle following a farm bill.

 
 
 
    Question 5. Through its initiative to improve habitat, NRCS has placed quite a bit of emphasis on the sage grouse. Can you tell me how much has been
 spent on the Sage Grouse Initiative by program, by year, and by state?
    Answer. See the following tables.
 


                                                                                                         Sage Grouse Initiative
                                                                                 Number of Agreements, Contracts, Projects & Financial Dollars Obligated
                                                                                                        Contract Fiscal Year 2010
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                             Environmental Quality Incentives  Program         Wildlife Habitat Incentives  Program                  Grassland Reserve Program                              Grand Total
                                         -----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
            State                 FIPS        No. of                                          No. of                                          No. of                                        Contracts/
                                             Contracts     FA Obligated        Acres         Contracts     FA  Obligated       Acres         Contracts     FA  Obligated       Acres        Agreements     FA  Obligated       Acres
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
California                             6              11      $1,787,245          77,328              10      $1,497,739          41,069                                                              21      $3,284,984         118,397
Colorado                               8               6        $687,279          13,059               3         $81,617           1,818               1        (*)                  640              10        $768,896          15,517
Idaho                                 16              20      $1,089,991         159,349               1         $64,629             891                                                              21      $1,154,620         160,240
Montana                               30               7      $2,275,679          73,810               3        $622,399          13,803                                                              10      $2,898,078          87,613
Nevada                                32                                                               5        $575,577           3,645                                                               5        $575,577           3,645
North Dakota                          38              18        $499,858          23,919               1         $32,984             795                                                              19        $532,842          24,713
Oregon                                41              13      $1,472,466          14,360               7        $611,417           3,271                                                              20      $2,083,883          17,630
South Dakota                          46               4        $557,042          35,795                                                                                                               4        $557,042          35,795
Utah                                  49              13      $1,061,093          26,055               1         $20,179           1,196                                                              14      $1,081,272          27,251
Washington                            53              74      $2,507,912          19,450               3         $44,674          11,701                                                              77      $2,552,586          31,151
Wyoming                               56              20      $2,725,336         117,151               3        $264,990          11,429                                                              23      $2,990,326         128,580
                                         -----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Total                                              186     $14,663,901         560,276              37      $3,816,205          89,618               1                             640             224     $18,480,106         650,532
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
* Not Available.


                                                                                                                                                 Sage Grouse Initiative
                                                                                                                         Number of Agreements, Contracts, Projects & Financial Dollars Obligated
                                                                                                                                                Contract Fiscal Year 2011
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                 Environmental Quality Incentives Program         Wildlife Habitat  Incentives Program           Farm & Ranchland  Protection Program                Grassland Reserve  Program                     Wetlands Reserve  Program                              Grand Total
                             -------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      State           FIPS         No. of                                         No. of                                         No. of                                         No. of                                         No. of                                       Contracts/
                                  Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres       Agreements       FA  Obligated      Acres
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      California           6                19        $4,946,064    159,628                 6          $990,815      6,233                                                                                                                                                             25        $5,936,879      165,861
        Colorado           8                 1           $91,821      3,377                 2          $104,812      8,242                 2        $2,886,250      5,017                 2          $700,000      2,760                                                                7        $3,782,883       19,396
           Idaho          16                26        $1,698,196    105,018                 5          $109,313     17,277                                                               13        $9,503,450     22,369                                                               44       $11,310,959      144,664
         Montana          30                 9        $1,197,875    115,557                 1            $5,100        665                 2        $3,500,000     42,191                                                                                                              12        $4,702,975      158,413
          Nevada          32                 7          $986,989      4,834                 4          $473,516      1,612                                                                1          $618,170      1,269                 3        $3,196,215      3,695                15        $5,274,890       11,410
    North Dakota          38                11          $507,833     24,540                                                                                                                                                                                                            11          $507,833       24,540
          Oregon          41                21        $2,748,134     28,122                11          $699,725      9,196                                                                                                                                                             32        $3,447,859       37,318
    South Dakota          46                 5          $646,713     63,424                 2          $110,751     11,893                                                                                                                                                              7          $757,464       75,317
            Utah          49                 7        $1,030,477      9,307                 3          $288,609      8,969                                                                5        $1,426,595     17,476                                                               15        $2,745,681       35,752
      Washington          53                 5          $224,940      8,833                                                                                                                                                                                                             5          $224,940        8,833
         Wyoming          56                16        $3,917,340    295,502                 4          $375,453     27,848                36       $38,000,000     88,335                10       $10,430,313     31,820                                                               66       $52,723,106      443,505
                             -------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Total..........                          127       $17,996,382    818,142                38        $3,158,094     91,935                40       $44,386,250    135,543                31       $22,678,528     75,694                 3        $3,196,215      3,695               239       $91,415,469    1,125,009
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                                                                                                 Sage Grouse Initiative
                                                                                                                         Number of Agreements, Contracts, Projects & Financial Dollars Obligated
                                                                                                                                                Contract Fiscal Year 2012
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                 Environmental Quality Incentives Program         Wildlife Habitat  Incentives Program           Farm & Ranchland  Protection Program                Grassland Reserve  Program                     Wetlands Reserve  Program                              Grand Total
                             -------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      State           FIPS         No. of                                         No. of                                         No. of                                         No. of                                         No. of                                       Contracts/
                                  Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres       Agreements       FA  Obligated      Acres
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      California           6                14        $1,497,700     93,473                 3           $90,360      1,026                                                                                                                                                             17        $1,588,060       94,499
        Colorado           8                 5          $368,152      8,452                                                                6        $2,886,250     12,563                 1          $557,325      1,200                                                               12        $3,811,727       22,215
           Idaho          16                24        $2,787,103     89,031                                                                                                              13        $5,393,800     14,038                                                               37        $8,180,903      103,069
         Montana          30                11        $2,474,809    169,261                10          $256,256      6,080                                                                1        $1,309,845      3,809                                                               22        $4,040,911      179,150
          Nevada          32                15        $2,067,160    328,964                 6           $97,789      4,347                 1        $5,001,790      4,064                 1        $2,218,565        741                 2        $3,980,442      6,136                25       $13,365,747      344,252
    North Dakota          38                11          $364,424     24,740                 4          $171,050     12,300                                                                                                                                                             15          $535,474       37,040
          Oregon          41                28        $3,307,965     44,854                10        $1,041,530      8,315                                                                                                                                                             38        $4,349,495       53,169
    South Dakota          46                 6          $835,231     31,840                11        $1,090,400     45,198                                                                                                                                                             17        $1,925,631       77,038
            Utah          49                10        $1,139,010     31,002                                                                                                                                                                                                            10        $1,139,010       31,002
      Washington          53                 5          $537,479      8,299                 7          $748,622     12,482                                                                                                                                                             12        $1,286,101       20,781
         Wyoming          56                29        $4,553,673    355,002                11          $845,207     37,314                 7        $5,731,350     14,065                 1        $3,100,338      8,402                                                               48       $14,230,568      414,783
                             -------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Total..........                          158       $19,932,706  1,184,918                62        $4,341,214    127,062                14       $13,619,390     30,692                17       $12,579,873     28,190                 2        $3,980,442      6,136               253       $54,453,627    1,376,998
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                                                                                                 Sage Grouse Initiative
                                                                                                                         Number of Agreements, Contracts, Projects & Financial Dollars Obligated
                                                                                                                                                Contract Fiscal Year 2013
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                 Environmental Quality Incentives Program         Wildlife Habitat  Incentives Program           Farm & Ranchland  Protection Program                Grassland Reserve  Program                     Wetlands Reserve  Program                              Grand Total
                             -------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      State           FIPS         No. of                                         No. of                                         No. of                                         No. of                                         No. of                                       Contracts/
                                  Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres        Contracts       FA  Obligated     Acres       Agreements       FA  Obligated      Acres
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      California           6                11        $1,321,531     27,879                 2           $36,818        782                 0                $0         --                 1        $1,464,710      2,037                 0                $0         --                14        $2,823,059       30,697
        Colorado           8                 8          $789,589     38,551                 0                $0         --                 4       $10,600,000     30,196                 9        $4,301,680      1,964                 0                $0          0                21       $15,691,269       70,711
           Idaho          16                26        $2,546,201     80,716                 0                $0         --                 0                $0         --                 7        $6,607,444     16,210                 0                $0         --                33        $9,153,645       96,926
         Montana          30                11        $2,385,236     76,957                11          $435,758      5,633                 1          $500,000      4,087                 3        $2,776,137      6,933                 0                $0         --                26        $6,097,131       93,610
          Nevada          32                14          $808,707     45,168                 7          $156,145      5,957                 0                $0         --                 2        $8,105,847      4,456                 3        $7,300,000        926                26       $16,370,699       56,508
    North Dakota          38                 7          $344,426     15,598                 1           $39,470      1,840                 0                $0         --                 0                $0         --                 0                $0         --                 8          $383,896       17,438
          Oregon          41                31        $3,048,196     42,237                16        $1,014,109     17,408                 0                $0         --                 0                $0         --                 0                $0         --                47        $4,062,305       59,645
    South Dakota          46                 9          $900,437     44,034                 3          $455,658     21,885                 0                $0         --                 0                $0         --                 0                $0         --                12        $1,356,095       65,919
            Utah          49                16        $2,544,891     18,906                 0                $0         --                 0                $0         --                 3        $5,996,800     16,289                 0                $0         --                19        $8,541,691       35,195
      Washington          53                10          $869,588     12,745                 0                $0         --                 0                $0         --                 0                $0         --                 0                $0         --                10          $869,588       12,745
         Wyoming          56                15        $1,410,280    116,371                 0                $0         --                 6        $5,269,766     17,972                 0                $0         --                 0                $0         --                21        $6,680,046      134,343
                             -------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Total..........                          158      $16,969,0815     19,162                40        $2,137,958     53,504                11       $16,369,766     52,255                25       $29,252,618     47,888                 3        $7,300,000        926               237       $72,029,423      673,735
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                                                         Sage Grouse Initiative
                                                                                 Number of Agreements, Contracts, Projects & Financial Dollars Obligated
                                                                                                        Contract Fiscal Year 2014
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                             Environmental Quality Incentives  Program     Agricultural Conservation Easement Program--    Agricultural Conservation Easement Program--                     Grand Total
                                         ------------------------------------------------                   ALE Program                                         WRE                      -----------------------------------------------
            State                 FIPS                                                   ------------------------------------------------------------------------------------------------
                                              No. of       FA Obligated        Acres          No. of                                          No. of                                        Contracts/     FA  Obligated       Acres
                                             Contracts                                       Contracts     FA  Obligated       Acres         Contracts     FA  Obligated       Acres        Agreements
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
California                             6              11      $1,917,054          13,583               1      $3,000,000           2,400               0              $0              --              12      $4,917,054          15,983
Colorado                               8               9        $611,877          50,831              $0              --               0              $0              --               9        $611,877          50,831
Idaho                                 16              22      $1,967,689          21,060               2      $2,560,763           3,839               0              $0              --              24      $4,528,452          24,899
Montana                               30               5      $1,473,078          53,686              $0              --               0              $0              --               5      $1,473,078          53,686
Nevada                                32               9        $656,886          48,499               2      $1,467,750           4,556               1        $589,000             108              12      $2,713,636          53,163
North Dakota                          38               7        $182,773           9,277              $0              --               0              $0              --               7        $182,773           9,277
Oregon                                41              41      $4,649,511          56,496              $0              --               0              $0              --              41      $4,649,511          56,496
South Dakota                          46               3        $871,593          41,669              $0              --               0              $0              --               3        $871,593          41,669
Utah                                  49              34      $4,308,895          92,922               5      $3,729,750           9,312               0              $0              --              39      $8,038,645         102,234
Washington                            53              11        $722,869          11,626              $0              --               0              $0              --              11        $722,869          11,626
Wyoming                               56              13      $2,034,497         171,278              $0              --               0              $0              --              13      $2,034,497         171,278
                                         -----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
  Total                                              165     $19,396,722         570,926              10     $10,758,263          20,107               1        $589,000             108             176     $30,743,985         591,141
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Question 6. Under this Administration, NRCS has launched a number 
of special initiatives to target natural resource concerns. Do you 
believe EQIP and CSP dollars are better invested in the initiative 
areas?
    Answer. Targeting natural resource concerns through special 
initiatives and the new Regional Conservation Partnership Program 
allows NRCS and partners to align and leverage resources to address 
shared objectives. While targeting efforts through initiatives address 
prioritized resource concerns, there are also significant and diverse 
resource concerns identified at the local level that NRCS conservation 
programs effectively address. For that reason, NRCS has maintained 
initiative spending below 20 percent of the overall budget of our 
programs. This allows us to adequately fund a number of high priority 
regional efforts, while also making available significant funding for 
producers to address resource concerns in areas where initiatives are 
not targeted.

    Question 7. What percentage of EQIP and CSP funding is being used 
for Technical Assistance (TA)? How does this compare to recent years?
    Answer. The following table provides the technical assistance (TA) 
and financial assistance (FA) funding for the Environmental Quality 
Incentives Program (EQIP) and the Conservation Stewardship Program 
(CSP):

                                         EQIP and CSP Funding, 2012-2015
                                             (Dollars in thousands)
----------------------------------------------------------------------------------------------------------------
    FY        EQIP Total     EQIP FA      EQIP TA    EQIP TA %    CSP Total    CSP FA      CSP TA      CSP TA %
----------------------------------------------------------------------------------------------------------------
    2012       1,400,000    1,018,075      381,925        27.3%     768,500     695,534      72,966         9.5%
    2013       1,400,000    1,018,075      381,925        27.3%     945,905     847,396      98,510        10.4%
    2014       1,350,000      981,715      368,285        27.3%   1,078,942     962,871     116,071        10.8%
  2015 *       1,398,685    1,000,176      398,510        28.5%   1,210,167     974,682     235,485        19.5%
----------------------------------------------------------------------------------------------------------------
* Note: FY 2015 figures include unobligated balances generally related to Regional Conservation Partnership
  Program (RCPP) agreements needing to be carried over from FY 2014.

    FY 2015 was the first re-enrollment year for the new CSP, roughly 
35 million acres in total, correspondingly the apportionment was 
adjusted to provide for the increased the technical assistance 
workload.

    Question 8. Are EQIP dollars being invested on public lands?
    Answer. NRCS does allow eligible agricultural producers to receive 
EQIP payments for completed conservation practices on public lands, 
provided that the:

  <bullet> public land is a working component of the participant's 
        agricultural and forest operation,

  <bullet> participant has control of the public land for the term of 
        the contract, and

  <bullet> conservation practice on public land will contribute to an 
        improvement in the identified natural resource concern.

    Question 9. With the extreme droughts we have seen in recent years, 
what is being done to target conservation of water quantity?
    Answer. Since 2012, historically dry conditions in large parts of 
the United States have compelled NRCS to make substantial investments 
to help producers manage acute drought conditions and increase the 
resilience of their operations against extreme weather events. From 
2012 to 2014, NRCS has invested more than $1.5 billion to help 
producers implement conservation practices that have a benefit to water 
conservation or improve operation resilience. This substantial 
investment includes $27 million in special funding directed toward 
states impacted most severely by the historic drought of 2012. During 
this drought, NRCS partnered with nearly 2,000 producers to implement 
practices to protect soil, reduce water use and increase the resiliency 
of their operations. In May of 2015, an additional EQIP allocation of 
$21.3 million was provided to Utah, Texas, Oklahoma, Nevada, Idaho and 
California, to assist producers with addressing resource concerns 
caused or exacerbated by the drought.
    In 2011, NRCS launched the Ogallala Aquifer Initiative to target 
financial and technical assistance to this unique resource underlying 
parts of Colorado, Kansas, Oklahoma, Nebraska, New Mexico, Texas, South 
Dakota and Wyoming. Since the Initiative's inception, NRCS has invested 
more than $66 million in financial assistance to more than 1,540 
producers to help them implement groundwater conservation on 
approximately 325,000 acres of agricultural lands.

    Question 10. Could you go over the accommodations available for 
producers who are subject to the conservation compliance for the first 
time as far as the length of time available for developing and 
implementing a conservation plan? How many producers are in the 
situation of utilizing those provisions now that we have passed the 
deadline for filing AD-1026 forms for this year?
    Answer. Producers who are subject to conservation compliance for 
the first time have 5 years to develop and comply with a conservation 
plan approved by NRCS from the date they are determined, through 
exhaustion of administrative appeal, to have highly erodible land. If 
the producer has participated in USDA programs before, but dropped out 
of the programs due to a violation, they have 2 years to develop and 
comply with a conservation plan approved by NRCS. Based on a recent 
review of AD-1026 filings, there are 23,617 producers who are new to 
conservation compliance who have 5 years to develop and comply with a 
conservation plan if they are farming highly erodible land.
Questions Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. The Committee included provisions in the farm bill to 
allow CRP acreage in its final contract year to be prepared for 
enrollment in other programs. Is this something you are able to be 
doing already? Or is this held up waiting for the final rule?
    Answer. Allowing Conservation Reserve Program (CRP) acreage in its 
final contract year to be enrolled in conservation programs helps to 
sustain the investment to protect designated highly erodible and other 
sensitive lands and their accompanying resource benefits. NRCS and FSA 
have been coordinating their respective program efforts to ensure that 
producers transitioning lands back into production are able to access 
other conservation program opportunities to further the environmental 
benefits obtained through their participation in CRP. The new provision 
will be implemented once the CRP regulation is published.
    NRCS has policy under the Environmental Quality Incentives Program 
(EQIP) to allow producers who currently own or operate CRP land to 
request NRCS assistance in the development of grazing or upland 
wildlife habitat management systems to retain these lands in permanent 
cover. Additionally, the Conservation Stewardship Program and the 
Agricultural Conservation Easement Program prioritize enrollment of 
land that is coming out of CRP. For example, NRCS amended the CSP 
regulation to allow transitioning land to participate in CSP as 
authorized in the 2014 Act, and has established a seamless process to 
transition from CRP back to agricultural production. Presently, NRCS 
offers four enhancements designed to preserve the benefits gained while 
in CRP or mitigate negative effects from transitioning expired CRP 
lands to production agriculture.

    Question 2. The Committee heard from existing CSP contract holders 
who were surprised to find out that they would be receiving a lower 
payment rate for their acres upon re-enrollment, even though they are 
doing additional and potentially just as costly practices as in their 
original contracts. Can you help shed some light on why producers are 
being offered a lower rental rate on re-enrollments?
    Answer. Renewal contracts are not simple extensions of an initial 
contract and require a higher level of conservation above and beyond 
what was implemented in the initial contract. Under a renewal contract, 
activities that were newly adopted during the initial CSP contract 
period are now considered existing activities, and compensated at a 
lower rate than in the initial contract. Total payments under the 
renewed contract may be higher or lower depending on the number of 
additional activities selected for implementation as well as their 
magnitude and duration, respectively. Field office personnel have the 
capacity to explain publicly available programmatic information sheets 
which detail scoring and payment processes. With CSP, our goal is to 
provide incentives to farmers, ranchers and forest landowners to adopt 
and continue to improve upon conservation work that leads to cleaner 
water and air, healthier soil and better wildlife habitat.

    Question 3. The Committee has also heard frustrations from some 
landowners who did not re-enroll their acres because they found it hard 
to find additional practices that they thought made sense, particularly 
on forestland. What are the states doing to address these situations?
    Answer. In FY 2015, NRCS released a revamped conservation activity 
list which included thirteen innovative enhancements and four bundles, 
beyond those previously available, benefiting forest production or 
wildlife habitat improvement. With these expansions for forest land 
conservation, producers have many more options for enhancements that 
fit their operations and conservation objectives.

    Question 4. The Committee has heard from landowners that it takes 
months to get easements completed under Wetland Reserve Easements, as 
was the case with its predecessor, WRP. What is the agency doing to 
ensure that signing up for wetland easements is not a long, drawn out 
process that tends to dampen landowner interest?
    Answer. NRCS has updated its policy to require much of the due 
diligence to be completed prior to entering into easement purchase 
agreements. This will help ensure that issues that would preclude or 
delay the acquisition of the easement, such as legal issues, title 
issues, hazardous substance contamination issues, etc., are detected 
prior to entering into a purchase agreement.
    Typically acquisition delays result from issues detected after the 
purchase agreement had been executed and often take significant amounts 
of time to resolve, for example, the landowner obtaining subordination 
or release from a holder of a superior interest in the property. By 
identifying and addressing these issues prior to entering into the 
purchase agreement, NRCS can ensure that properties move to closing in 
a timely manner.

    Question 5. How many eligible entities has NRCS certified under Ag 
Land Easements? Has this number increased or dropped off since we gave 
you the authority in the 2008 Farm Bill?
    Answer. NRCS has not yet certified any eligible entities under the 
Agricultural Conservation Easement Program--Agricultural Land Easement 
authority. Under the 2008 Farm Bill only four entities submitted 
requests to be certified; one was approved. With the publication of the 
ACEP Interim Rule and ACEP Policy Manual in February and March, 2015, 
NRCS introduced a few key changes to streamline and improve the 
certification process and expand the availability of certification to 
eligible entities. NRCS has conducted outreach to eligible entities to 
make sure they are aware of the new certification process and benefits 
of certification. NRCS received a number of inquiries regarding 
certification, however, to date NRCS has not received any requests for 
certification under the new process.
    We anticipate that NRCS will receive certification requests in the 
early part of next fiscal year. Because entities have not had the 
opportunity to submit requests for certification in Fiscal Year 2015, 
any entities certified in Fiscal Year 2016, will be able to 
retroactively apply the benefits of certification to include parcels 
selected for funding in Fiscal Year 2015.

    Question 6. We've also heard some frustration about the amount of 
funding that is getting out the doors for ag land easements. Have we 
streamlined things or do we have too many points where the Federal 
interest is bogging things down? Is the program operating as a pass-
through of funds or is NRCS duplicating many of the same steps that the 
enrolling entities also do? We will hear from a witness on the second 
panel which makes me believe we still have issues.
    Answer. NRCS simplified the easement enrollment process under the 
new ACEP-ALE, including the use of significantly pared down and 
standardized deed terms. This new approach streamlines program 
delivery, increases the transparency of program requirements, ensures 
the equitable treatment of all participants, and reduces inconsistency 
in the long-term management and enforcement of the easements. Eligible 
entities are permitted to use their own deed terms, including those 
that are more restrictive than those terms required by NRCS.
    ACEP-ALE is not structured as a pass-through program. Statutory 
requirements make clear the intent for the Secretary to administer and 
manage achieving the program purposes, for example, the requirements to 
include a right of enforcement for the United States, subject the land 
to an agricultural land easement plan, limit on impervious surfaces 
consistent with the agricultural activities to be conducted, and 
determine that program funds are not used to acquire easements on 
ineligible land. These and other statutory requirements are to protect 
the Federal investment and require NRCS due diligence, such as 
determining that the amount of Federal funds provided is supported by 
an appraisal or other valuation method, that the easement deed meets 
the statutory requirements and program purposes, and that the land 
meets the statutory eligibility requirements. These NRCS reviews are 
not a duplication of the eligible entity's acquisition procedures but 
rather derive from an oversight role to ensure that the specific 
statutory requirements of the ACEP-ALE are met.

    Question 7. How does the agency deal with right of way issues such 
as we'll hear about on the second panel? Is the hassle of potentially 
dealing with a utility or highway work worth it to protect farmland in 
some of the country's most vulnerable areas?
    Answer. NRCS deals with right-of-way and utility issues in the 
initial evaluation of the eligibility of the parcel or, for easements 
that have already been acquired, through an evaluation of requests for 
an easement administration action. Prior to selecting a parcel for 
funding, NRCS is required by statute to determine whether the purposes 
of the program would be undermined due to on-site or off-site 
conditions, such as proposed or existing rights-of-way, infrastructure 
development, mineral development potential or adjacent land uses. 
Therefore, NRCS will conduct an evaluation prior to determining the 
land eligible for enrollment under ACEP-ALE.
    For parcels on which the easement has been acquired, in the ACEP 
Interim Rule and ACEP Policy Manual, NRCS has published the criteria 
and procedures for evaluating and authorizing easement administration 
actions which include the modification, exchange, subordination, or 
termination of all or a portion of the Federal interest on a 
conservation easement acquired using Federal funds.
    NRCS understands that addressing potential highways or utilities is 
part of the responsibility any easement management agency assumes when 
administering programs in the rural landscape. The conservation values 
that are achieved through easement protection, especially in the 
country's most vulnerable areas, greatly outweigh any administrative 
inconvenience of addressing potentially conflicting land use 
objectives.

    Question 8. Can you tell us whether you waived any program rules in 
the recently signed round of RCPP awards?
    Answer. In the recent round of RCPP awards, NRCS received and is 
processing 26 requests for adjustment of terms related to the following 
topics:

  <bullet> Adjusted Gross Income (AGI) Waivers.

  <bullet> Payment schedule updates.

  <bullet> Interim practices.

  <bullet> Alternative ranking processes.

  <bullet> Changing payment method.

    Question 9. How many RCPP projects did you have drop out between 
the initial awards and the final signed 5 year contracts? Why did some 
project sponsors end up not being able to make it to that step?
    Answer. None of the 115 projects that were approved for funding 
dropped out, thus all 115 have moved forward with signed 5 year 
partnership agreements.

    Question 10. What can we expect to see further efforts to utilize 
the $10 million for wetland mitigation that was provided in the farm 
bill? Could those funds be used to help farmers or ranchers facing 
potential mitigation as a result of the expanded definition of Waters 
of the U.S. under final rule announced by EPA and the Army Corps?
    Answer. The 2014 Farm Bill provided NRCS with up to $10 million to 
develop a wetlands mitigation banking program to help agricultural 
producers remain in good standing with the wetlands conservation 
compliance provisions in Subtitle C of Title XII of the Food Security 
Act of 1985, as amended. Consequently, NRCS's focus will be on wetlands 
that fall under these statutory provisions. NRCS' approach is intended 
to make this type of mitigation cost-effective for producers who decide 
that off-site mitigation is their best wetlands compliance alternative.

    Question 11. Where do things stand with helping smaller and limited 
resource producers improve their irrigation systems? I know you were 
trying to provide flexibility in this area on what counted as having a 
``history of irrigating'' to include systems that smaller operations 
might be using.
    Answer. Historically, NRCS has had EQIP rule and policy 
requirements to provide evidence that land has been irrigated 2 of the 
past 5 years, to ensure that EQIP assistance addresses a natural 
resource concern and that it does not result in adverse impacts to 
aquifer depletion or surface streams experiencing decreased flow. 
However, the strict irrigation history requirement may have 
inadvertently disadvantaged some individuals or groups and there may be 
specific situations where adjustment of the requirement may be 
appropriate. Therefore, pursuant to the Secretary's authority under 16 
U.S.C. 3844 to address barriers to participation by historically under-
served producers, NRCS incorporated a limited waiver to the irrigation 
history requirement under the revised EQIP regulation that was 
published in December 2014.
    NRCS believes that this narrowly tailored waiver provision will 
address these participation barriers in a manner that ensures EQIP 
continues to meet its statutory purposes. The waiver authority is only 
available to limited resource and socially-disadvantaged producers, 
including individual Indian tribal producers, and Indian Tribes who 
wish to install an efficient irrigation system as a means to assist 
with the adoption of sustainable agricultural production methods, as 
determined by the Chief, and such adoption will not adversely impact 
limited surface water or groundwater supplies.
    NRCS has incorporated this waiver into its policy manual and 
provided training to the states so that they are able to identify 
whether affected producers may qualify for a waiver. In addition to the 
waiver provision above, the NRCS has clarified policy to allow 
producers to use various forms of justification to document irrigation 
history such as: aerial photography, written records, water rights 
certificates, water bills, etc.

    Question 12. What kinds of projects are states using the Voluntary 
Public Access funding for?
    Answer. The state wildlife agencies of Arizona, Georgia, Illinois, 
Iowa, Michigan, Montana, Pennsylvania, South Dakota and Texas, and the 
Confederated Tribes and Bands of the Yakama Nation, all received FY 
2014 funding from the Voluntary Public Access and Habitat Incentive 
Program (VPA-HIP). They are using VPA-HIP funds for the following kinds 
of projects:

  <bullet> Enrolling new private landowners and their lands into 
        existing state Public access programs.

  <bullet> Extending or initiating leases with private landowners to 
        allow public access.

  <bullet> Enhancing existing private property public access lands to 
        facilitate non-consumptive (e.g., hiking, nature watching, 
        photography, camping) recreational uses in addition to the 
        existing hunting and fishing activities.

  <bullet> Enhancing fish and wildlife habitat on existing and new 
        private property public access lands.

  <bullet> Taking advantage of the opportunity to provide public access 
        to lands already enrolled in other natural resources 
        conservation programs where wildlife habitat is being enhanced.

  <bullet> Monitoring outdoor recreational use data to assess the 
        impact of new lands being accessible.

  <bullet> Soliciting the level of satisfaction and suggestions for 
        improvement from both participating private landowners and 
        public recreationists.

  <bullet> Increasing outreach to the public about the Public Access 
        programs through hard copy materials, web pages, public 
        meetings, signage, presentations, and other marketing methods.

  <bullet> Installing improved signage to facilitate a more positive 
        outdoor recreational experience by the public.

  <bullet> Establishing new river access sites for fishing, paddling, 
        and wildlife viewing.

  <bullet> Improving outreach to youth and young adults to encourage 
        their participation in outdoor recreational activities.

  <bullet> Working in partnership with USDA-Natural Resources 
        Conservation Service staff to ensure compliance with 
        requirements of the National Environmental Policy Act.

    Question 13. The Committee tried to help give you support in your 
apportionment requests to the Office of Management and Budget. Have you 
generally asked to spend all the funding that is available under the 
farm bill? Has OMB been granting your full apportionment requests?
    Answer. The apportionment requests provided to the Department and 
OMB request the authority to obligate all funding provided under the 
authorities provided in the Agricultural Act of 2014 (2014 Farm Bill), 
including unobligated balances carried forward from FY 2014 to FY 2015, 
and OMB has been approving those apportionments as submitted.

    Question 14. Why did you open up the producer side of your IT 
modernization first?
    Answer. The NRCS Conservation Client Gateway (CCG), one of the 
three components of the Conservation Delivery Streamlining Initiative 
(CDSI), provides information and tools to enable many client-centric 
activities, like asking a technical or programmatic assistance 
question, requesting technical assistance for a conservation plan, 
applying for financial assistance, documenting the completion of 
conservation practices, and requesting and tracking payments for 
completed conservation practices. Traditionally, these activities 
required the client to make several trips into the NRCS field office.
    By deploying CCG now, clients and NRCS are able to immediately reap 
the benefits of reduced trips to and from the office to perform these 
activities. By empowering the clients to perform these tasks virtually 
if they choose, it reinforces that clients own their conservation plans 
and have access to them 24 hours a day, 7 days a week in their document 
library in CCG.

    Question 15. Are your computer systems and more importantly, the 
producer information databases, accessible by each agency in the field?
    Answer. The USDA Service Center agencies: Natural Resources 
Conservation Service (NRCS), Farm Service Agency (FSA), and Rural 
Development (RD), share a single database that contains basic producer 
information needed to administer authorized programs. The Service 
Center Information Management System (SCIMS) contains producer 
information that includes name, address, telephone numbers, e-mail 
addresses, demographics (race, gender, ethnicity), and entity type 
(e.g., individual, business entity). SCIMS is a secure information 
system and has controlled access for authorized employees.
    SCIMS is in the process of being replaced by a new system, Business 
Partners (BP). Business Partners is being maintained by FSA, who makes 
these data available to NRCS. Currently, entry and editing of client 
information is restricted to authorized FSA employees.

    Question 16. Have we finally fixed the communication and 
overlapping issues on cover crops?
    Answer. NRCS has worked with Risk Management Agency (RMA), Farm 
Service Agency (FSA), and a wide number of stakeholder groups to 
address cover cropping issues. There is good progress being made in 
communicating and addressing issues as appropriate for different 
regions of the country.
Question Submitted by Hon. Michelle Lujan Grisham, a Representative in 
        Congress from New Mexico
    Question. Mr. Weller, in your testimony you mentioned the 
importance of conservation programs and their impact on endangered 
species listings. I often hear concerns from landowners and industry 
about how the listing of a species could impact their livelihood and 
their businesses. I also hear concerns from environmental and 
conservation groups on how species population numbers and critical 
habitat continue to shrink. It's clear to me that both of these groups 
have the same goal in mind, which is to protect species and prevent 
listings. I have seen stakeholders from many different backgrounds come 
together and work toward this goal. In 2011, the oil and gas industry 
was very concerned that the listing of the dunes sagebrush lizard would 
eliminate drilling across the Permian Basin, which produces 20 percent 
of all oil in the lower 48 U.S. states. As you can imagine, this would 
have had significant consequences all over the country. Thankfully, the 
listing was avoided because landowners in New Mexico and Texas 
proactively took steps to remove threats to the lizard on 600,000 
acres, which covered 88% of the lizards' habitat. I am very interested 
in seeing these efforts and outcomes replicated all over the country 
and I believe NRCS in a position to encourage real innovation in this 
area. However, I finding it concerning when stakeholders tell me that 
they do not have the resources or information they need to participate 
in conservation programs.
    Can you please describe what kind of outreach NRCS is doing to 
educate and engage landowners on these conservation programs? Can you 
describe what efforts NRCS is making to create a collaborate 
environment that will encourage stakeholders, from backgrounds, to work 
together on conservation projects?
    Answer. In recent years, NRCS has dedicated significant funding and 
innovative policy development to help landowners impacted, or 
potentially impacted, by an Endangered Species Act (ESA) listing. 
Single-species focused efforts such as the Sage-Grouse Initiative and 
the Lesser Prairie-chicken Initiative include a variety of landowner 
outreach activities and coordination with Federal agencies as well as 
state wildlife agencies to achieve their intended goals. The results of 
the Sage-Grouse Initiative helped inform the U.S. Fish and Wildlife 
Service's (USFWS) recent decision to not list the bi-state Greater 
Sage-grouse population as threatened or endangered, a significant 
victory for the birds and private landowners in Nevada and California.
    In addition, NRCS has worked closely with the USFWS to provide 
landowners who are doing the right thing for candidate and potentially 
listed species with regulatory predictability. Landowners who engage 
with NRCS and undertake actions favorable to a select group of species 
can receive from the USFWS a letter that allows the landowner to keep 
farming or ranching consistent with current practices, for up to 30 
years, even if the species is eventually listed. This innovative 
approach has been extended to all seven of the species included in 
NRCS's Working Lands for Wildlife initiative.
    NRCS has engaged in significant efforts to provide outreach to 
landowners, through national, state, and local media outlets. NRCS also 
coordinates closely with state wildlife agencies and local partners on 
many of these efforts, including both the Sage-Grouse and the Lesser 
Prairie-chicken Initiatives. When providing technical assistance, NRCS 
creates landowner awareness about threatened and endangered species 
issues as well as makes suggestions on improving threatened and 
endangered species habitat. Conservation plans oftentimes include an 
alternative that addresses a limiting habitat factor. Both financial 
assistance and easement programs provide financial support to 
landowners interested in addressing threatened and endangered species 
issues.
    NRCS has taken additional steps through the Working Lands for 
Wildlife initiative to promote landowner awareness about threatened and 
endangered species issues and how landowners can become involved in 
preventing the need to list or supporting a de-listing or down-listing 
of species under the Endangered Species Act through implementation of 
specific conservation practices and associated conservation measures. 
NRCS has generated, in coordination with the USFWS, many public 
outreach materials and fact sheets in association with Working Lands 
for Wildlife. Additionally, the NRCS public affairs division maintains 
Working Lands for Wildlife as a priority for news releases and public 
events.
Questions Submitted by Hon. Suzan K. DelBene, a Representative in 
        Congress from Washington
    Question 1. Recently, NRCS announced that Washington State has been 
allocated $750,000 for the ACEP-ALE (Agricultural Conservation Easement 
Program--Agricultural Land Easements) 2015 grant cycle. As you know, 
the national budget for the NRCS ACEP program is $322 million.
    While I understand that programs were consolidated and funding has 
been cut in recent years, Washington is receiving a very small amount 
of funding given the total program budget. At the same time, land 
trusts alone have measured demand for the program at $10,083,925 for 27 
projects and 22,837 acres.
    A number of conservation folks in my district have been unable to 
determine how ACEP funds are distributed across the United States and 
why certain geographical areas receive huge investments and others 
receive relatively little. In 2014, only three farmland preservation 
projects moved forward in Washington state with NRCS matching dollars, 
a critical component for preserving farmland.
    Can you clear up how the funding allocation for ALE is determined 
for states--what is it based on and when? Is it a continuous nationwide 
competition or are there distinct state allocations based on a formula?
    Answer. There are distinct state allocations. ACEP allocations are 
based on an analysis of data from the Agency's State Resource 
Assessment process, as well as program application data, NRCS landscape 
initiatives and priority resource concerns, demand, distribution, 
historic allocation and obligation data, and workload. For FY 2015, the 
State NRCS offices submitted their State Resources Assessments in 
December 2014 and allocations were provided to states in February 2015.

    Question 2. ALE funding in Washington in 2014 was roughly $1.6 
million. Why did ALE suffer a 53% reduction in WA from 2014 to 2015, 
far greater than the 7% across the board reductions?
    Answer. In FY 2014, Washington obligated a total of $1,071,000 for 
ACEP-ALE. In FY 2015, Washington has been allocated $840,000 for ACEP-
ALE, which is 78% of FY 2014 (a 22% reduction from FY 2014). When 
determining a state's ACEP allocation, both components of ACEP (WRE and 
ALE) are taken into account as it is now a consolidated program. 
Washington's total ACEP allocation for FY 2015 is 92% of what was 
obligated in FY 2014, which is above the national average.

    Question 3. Other farm bill programs like EQIP have been 
underutilized by WA in the past. How much has/does this impact the 
funding allocation for ALE? How, in your opinion, can we raise the 
funding level to match the demand?
    Answer. State use of EQIP funds is not a factor in the ACEP 
allocations. The FY 2015 allocation to Washington will address 76 
percent of the demand for ACEP based on the information regarding 
demand and capacity that was provided by the Washington NRCS State 
Office in their State Resource Assessment. Total funding under ACEP is 
approximately 47 percent of what was previously available under the 
former easement programs that are now combined under ACEP. As a result, 
NRCS is not in a position to have the funding levels match the demand 
for the program, but at this time, Washington is receiving allocations 
above the national averages.

    Question 4. Is the new RCPP (Regional Conservation Partnership 
Program) impacting allocations to ALE-ACEP? If so, should land trusts 
be pursuing RCPP as an avenue to rebuild some of the Federal support 
for easements in Washington?
    Answer. Interested, eligible entities should certainly consider 
RCPP as an avenue they should be pursuing for funding ACEP easements. 
As required by statute, ACEP contributes 7 percent of its available 
funding to RCPP. However, RCPP also receives $100 million each fiscal 
year beyond funds contributed by the covered programs, and any of these 
RCPP funds can be requested by a potential partner to fund ACEP 
projects.

Response from Val Dolcini, J.D., Administrator, Farm Service Agency, 
        U.S. Department of Agriculture
Questions Submitted by Hon. Glenn Thompson, a Representative in 
        Congress from Pennsylvania
    Question 1. Now that the deadline to file an AD-1026 has passed, do 
you know how many producers have been affected by conservation 
compliance?

    Question 1a. Could you provide any additional details on (1) how 
many producers could have been potentially impacted by the new 
requirements, and (2) how many of those producers failed to file their 
AD-1026 forms by the June 1 deadline?
    Answer 1-1a. Since the passage of the Agricultural Act of 2014 
(2014 Farm Bill), approximately 245,000 AD-1026s have been filed at FSA 
by producers to certify conservation compliance. Late in calendar year 
2014, the Risk Management Agency (RMA) reported approximately 44,000 
persons and entities earned a crop insurance premium in 2014 and did 
not have an AD-1026 on file. As of June 22, 2015, RMA reported that 
9,352 producers that earned a crop insurance premium subsidy in 2014 
still did not have an AD-1026 on file. This number includes producers 
that timely filed the AD-1026, but there was inadequate information to 
make a determination. These producers have until their first applicable 
sales closing date for reinsurance year 2016 to provide this 
information and still be eligible for the premium subsidy. In July 
2015, USDA announced that over 98.2 percent of producers have met the 
2014 Farm Bill requirement to certify conservation compliance to 
qualify for crop insurance premium support. Of the small number of 
producers who have not certified their conservation compliance, USDA 
records suggest the majority are no longer farming or may have filed 
forms with discrepancies that can still be reconciled. FSA and RMA are 
proactively reaching out to all of these producers before their sales 
closing date and working with individuals facing extenuating 
circumstances who have not filed the form in order to assist them with 
certifying compliance.

    Question 2. FSA has had to implement several farm bill programs 
over the past year and a half, and because of this, offices have 
experienced a backlog.
    How bad is the backlog for processing AD-1026s?
    Answer. There is no backlog of completed applications waiting to be 
entered. There are only a few hundred forms that were timely filed but 
have inadequate information (e.g., missing Tax Identification Number) 
to make a determination. FSA and RMA are working with producers to fill 
in the missing information.

    Question 2a. Obviously this has been concentrated in specialty crop 
growing areas. What is the backlog in some of these areas, such as 
California, Texas, Florida, compared with the rest of the country?
    Answer. California, Texas and Florida report all AD-1026s have been 
filed timely and entered. FSA County Offices will continue to working 
on the AD-1026s with inadequate information (as all states will) up 
until the first applicable sales closing dates for reinsurance year 
2016.

    Question 2b. How will producers caught in this backlog be treated, 
especially if they produce crops will an early crop insurance sales-
closing date?
    Answer. There is no backlog of completed AD-1026s waiting to be 
entered. For the AD-1026s that are missing information or that require 
a correction, the date the form was originally delivered to the FSA 
office will be entered into the system as the certification date and is 
the date transferred to RMA for their use. As long as the certification 
date is on or before June 1, these producers are treated the same as 
any other producer.

    Question 3. With the June 1 deadline for producers to file their 
AD-1026 form passed, how will those producers who did not file an AD-
1026 be notified that they no longer have premium support for Federal 
crop insurance? Will one of your agencies be sending them a letter, 
postcard, e-mail, phone call? Surely you're not going to wait until 
they receive a bill from their crop insurance agent.
    Answer. In May 2015, USDA made over 25,000 phone calls to remind 
remaining producers of the new requirements. In July 2015, RMA sent 
letters to producers that did not have the AD-1026 on file to make them 
aware of the possibility that they may lose premium subsidy. In 
addition, for most crop insurance policies, producers will have forty 
five days after the sales closing date to cancel their policies if they 
do not have an AD-1026 on file. Prior to upcoming sales closing dates, 
RMA is calling every producer that our records show do not have an AD-
1026 on file to ensure they take appropriate action to make corrections 
to the AD-1026 to come into compliance or take action to cancel their 
policy to avoid paying full premium.

    Question 4. What is FSA doing to address new producers that do not 
have an AD-1026 on file when they start farming?
    Answer. RMA grants an exemption for filing the AD-1026 by June 1 if 
a producer is new to farming after the June 1 filing date. If producers 
certify they meet the parameters that qualify them for this exemption 
it is granted by RMA.

    Question 4a. What about for producers who bring new land into 
production that is not covered by their AD-1026?
    Answer. As with past provisions of conservation compliance, all new 
land brought into production by a producer that does not have a highly 
erodible land determination must file a new AD-1026. Also if any 
activities are planned that may impact wetlands (land leveling, 
filling, dredging, land clearing, or excavation) to enable bringing 
this new land into production, that have not been evaluated by NRCS, 
the producer would also be required to file a new AD-1026.

    Question 4b. Will outreach efforts be made in subsequent years to 
have new farmers or farmers without an AD-1026 to file an AD-1026 in 
time for the next reinsurance year?
    Answer. Yes. Outreach efforts will continue each year with 
information about the June 1 filing deadline for the applicable 
reinsurance year.

    Question 5. We've talked a lot about crops being impacted by 
conservation compliance, but I want to shift the focus to livestock and 
pasture. How many livestock and pasture insurance policies were 
impacted by conservation compliance and AD-1026 form requirements?
    Answer. RMA reports approximately 64,000 producers had policies in 
which they earned a premium subsidy in 2014 for livestock and pasture. 
Of these, less than one percent are reported as not having an AD-1026 
on file for reinsurance year 2016. This number includes those timely 
filed with inadequate information and those that will not obtain 
insurance in 2016 for a variety of reasons (e.g., obsolete entity, 
retirements, decided not to participate, converted to row crops, etc.)

    Question 5a. What efforts were made to reach out to individual 
producers and to industry groups to be sure that these producers were 
aware of the new requirements prior to the June 1 deadline?
    Answer. The average producer without an AD-1026 on file received 
2015 policies with the requirement in their contract, received three 
coordinated mailings from USDA (two RMA letters, one FSA postcard), was 
on at least four lists given to agents/AIPs who conducted outreach, 
received at least one call from FSA/RMA, received county specific 
mailings/newsletters from FSA and NRCS, and likely saw news articles 
and agent/AIP newsletters with information about the need to file an 
AD-1026. The end result of these outreach efforts was that over 98 
percent of crop insurance participants had an AD-1026 on file.
    FSA and RMA participated in a U.S. Cattlemen Association's 
conference call to inform them about the conservation compliance 
requirements for the crop insurance premium subsidy benefit. With 
widespread drought over significant areas in the past few years, over 
600,000 cattlemen signed up for the Livestock Forage Program from FSA 
since February 2014 and would have already completed an AD-1026.
    USDA held several meetings with stakeholder groups, including 
hosting recurring meetings with the Specialty Crop Farm Bill Alliance 
representatives. We developed Factsheets, Question and Answer 
documents, process flow sheets for producers to understand how the 
process works, and brochures for RMA customers that were available 
through RMA, FSA and NRCS websites. NRCS created a website for 
producers that were new to conservation compliance to walk them through 
the process. Additionally, USDA hosted a webinar for specialty crop 
producers nationally that could be downloaded and redistributed. In 
Florida and California, USDA staffs participated with stakeholders in 
webinars stakeholders hosted for producers who were new to conservation 
compliance. Our state and field offices attended many meetings and 
events across the country where they distributed information about 
conservation compliance. Our RMA, FSA and NRCS staffs were on hand 
locally and nationally to address questions as they were raised.

    Question 6. ``Affiliated producers'' are also required to file AD-
1026's to certify conservation compliance. How is FSA defining 
affiliated producers?
    Answer. The definition of affiliated persons is unchanged by the 
2014 Farm Bill. Affiliated persons for conservation compliance purposes 
for individuals are:

  a.  spouses and minor children.

  b.  estates, trusts, partnerships, and joint ventures in which the 
            individual or the individual's spouse or minor children 
            have an interest.

  c.  corporations in which the individual or the individual's spouse 
            or minor children have more than 20 percent interest.

    Affiliated persons of general partnerships, limited partnerships, 
limited liability companies, joint ventures, estates, irrevocable or 
revocable trusts, and Indian Tribal ventures or groups are:

  d.  first level members of the entity.

    Affiliated persons of corporations with stockholders are:

  3.  first level shareholders with more than 20 percent interest in 
            the corporation.

    Any person or entity requesting benefits that are subject to 
conservation compliance must file AD-1026. Any affiliated person or 
entity, not requesting benefits, but has a separate farming interest 
(owner, operator, tenant or share cropper on any farm or undeveloped 
land), based on the above affiliation, must also file AD-1026 and be in 
compliance with conservation compliance provisions in order for the one 
receiving the benefit to also be considered in compliance.

    Question 6a. What sort of outreach was made to these groups?
    Answer. Outreach efforts to all specialty crop groups included the 
information about who affiliated persons are and the parameters that 
requires them to adhere to conservation compliance provisions due to an 
affiliation to a person or entity receiving benefits that are subject 
to conservation compliance. The person submitting the name of an 
affiliated person has an interest in informing the affiliate of the 
need to file the AD-1026.
    We understand that the affiliated person provisions are 
complicated. Therefore we included information about affiliated persons 
in our factsheets, question and answer documents and during our 
webinars. We had many teleconferences and meetings with stakeholder 
groups where affiliated person provisions were discussed to ensure the 
provisions were understood.

    Question 6b. Can FSA guarantee that its definition of affiliated 
producers is being applied consistently from one county office to the 
next?
    Answer. This is not a new definition or process. This definition 
and procedures have not changed with the 2014 Farm Bill and have 
remained the same since 1985. Virtually all FSA programs have required, 
and continue to require, the same conservation compliance certification 
including the affiliated persons' provisions. FSA conducted a refresher 
National Training on affiliated persons in September 2014. Affiliated 
persons filing requirements are published in FSA Handbook 6-CP and in 
number 7 of the appendix of form AD-1026. All FSA employees are given 
the same consistent information on affiliated persons and that any 
incorrect interpretations of affiliate persons that are discovered are 
remedied.

    Question 7. The conservation compliance provisions of the farm bill 
also required that any ``affiliated person'' of a producer requesting 
benefits subject to Highly Erodible Land Conservation (HELC) and 
Wetland Conservation (WC) also file an AD-1026. Has your agency, along 
with NRCS and RMA, identified persons that this might affect, and if 
so, how were those individuals identified and notified of the new 
conservation compliance requirements?
    Answer. All producers that identified ``affiliates'' in block 4 of 
AD-1026 are entered into the system by FSA as ``Awaiting Affiliate 
Certification''. Producers are reminded that they are not ``Certified'' 
for AD-1026 until those producers they identified as affiliates are 
also ``Certified''. It is the producer's responsibility to communicate 
to their affiliates that they need to complete their certification in 
order for their certification to be complete and eligible to receive 
USDA benefits in the form of premium subsidies.
    In addition to the responsibility of the producer to inform 
affiliates, RMA and FSA are working together to flag any remaining 
certifications that are awaiting affiliates and reminding producers of 
the requirement. Specifically, RMA has provided FSA the first 
applicable sales closing date these producers had in 2014 that are 
entered into the system as ``awaiting affiliate certification''. FSA 
reaches out to the identified producers in advance of the sales closing 
date. FSA stresses the importance to these identified producers that 
they must communicate to their affiliates to come into the local FSA 
County Office and certify to conservation compliance by their first 
applicable sales closing date in order to remain eligible for the 2016 
reinsurance year crop insurance premium subsidy.

    Question 7a. In your estimation, how many of these producers are 
now out of compliance?
    Answer. As of June 22, 2015, approximately 250 producers nationwide 
are not considered as ``Certified'' to conservation compliance because 
they are ``Awaiting Affiliate Certification''. However, they have until 
the first applicable sales closing date for their affiliates to certify 
or to correct the original form if an affiliate was erroneously 
included.

    Question 8. Crop insurance companies have told us that when they 
ask the local FSA office about whether or not their customers were on 
the non-compliant list, FSA has said that they cannot provide the 
information on whether farmers are eligible for subsidies due to 
privacy concerns. Unless the producer knows, which is unlikely, how are 
agents supposed to know if this customer will be eligible for premium 
support?
    Answer. Producers can ask their crop insurance agent to verify 
their compliance status. The Risk Management Agency (RMA) has worked 
with all of the Approved Insurance Providers (AIPs) to ensure that 
agents can promptly find out whether their producer has filed an AD-
1026 before a policy is purchased. Producers can also visit or call 
their local Farm Service Agency (FSA) to find out their conservation 
compliance status.

    Question 9. How many producers have taken advantage of the one-time 
early-out option of the CRP program? Was it concentrated in any 
specific regions of the U.S.?
    Answer. As of September 9, 2015, about 1,439 contracts utilized the 
early out option. Based on our most recent data, the state breakdown is 
as follows:

------------------------------------------------------------------------
              State                      Acres             Contracts
------------------------------------------------------------------------
                    Alabama                   20                    1
                   Colorado                1,790                    8
                    Florida                  432                    8
                    Georgia                   58                    1
                      Idaho                1,656                   11
                   Illinois                2,500                   73
                    Indiana                  700                   39
                       Iowa                3,194                   86
                     Kansas                7,060                   98
                   Kentucky                  424                   10
                   Michigan                3,108                   87
                  Minnesota                9,112                  196
                Mississippi                  265                    5
                   Missouri                2,209                   43
                    Montana               31,508                  157
                   Nebraska                6,990                  132
                 New Jersey                   36                    1
                   New York                  871                   32
             North Carolina                  166                    5
               North Dakota                7,146                   82
                       Ohio                5,017                  140
                   Oklahoma                2,864                   34
                     Oregon                  182                    4
               Pennsylvania                  332                   17
             South Carolina                  419                    6
               South Dakota                1,671                   30
                  Tennessee                   78                    3
                      Texas                6,999                   43
                   Virginia                  199                    6
                 Washington                7,064                   32
                  Wisconsin                  805                   49
                                 ---------------------------------------
  Total.........................        104,876.3               1,439
------------------------------------------------------------------------


    Question 10. You have announced a General Sign-up to begin in 
December of this year as well as the availability of 800,000 acres for 
Continuous Sign-up. How do you make these announcements without a rule?
    Answer. Certain elements of CRP were not modified significantly in 
the 2014 Farm Bill and did not require a regulation to implement. For 
example, Continuous sign-up resumed soon after passage of the farm bill 
when authority to operate CRP was restored after it had lapsed. 
Similarly, the decisions related to Continuous allocations and whether 
and when to have a General sign-up are administrative decisions and do 
not require regulations. However, the interim rule was published in the 
Federal Register for comment from July 16, 2015 through September 14, 
2015 and all provisions pertaining to the 2014 Farm Bill, such as the 
new grasslands component of CRP and tree thinning incentives are now 
being implemented.

    Question 11. FSA recently announced a new general signup to begin 
in December and 800,000 acres available for continuous sign-ups. When 
will you begin sign-up for grazing land acres?
    Answer. Sign-up for CRP grasslands is currently under way. The 
sign-up began September 1, 2015 and continues through November 20, 
2015.
Questions Submitted by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. The Committee has been asking for several months now to 
get statistics on how many landowners have taken the early out option 
and where they are located. In your testimony you indicated that only 
about 90,000 acres have been terminated. Can you tell us how many 
contracts that includes and in what states?
    Answer. About 1,100 CRPAs of September 9, 2015, about 1,439 
contracts utilized the early out option. Based on our most recent data, 
the state breakdown is as follows:

------------------------------------------------------------------------
              State                      Acres             Contracts
------------------------------------------------------------------------
                    Alabama                   20                    1
                   Colorado                1,790                    8
                    Florida                  432                    8
                    Georgia                   58                    1
                      Idaho                1,656                   11
                   Illinois                2,500                   73
                    Indiana                  700                   39
                       Iowa                3,194                   86
                     Kansas                7,060                   98
                   Kentucky                  424                   10
                   Michigan                3,108                   87
                  Minnesota                9,112                  196
                Mississippi                  265                    5
                   Missouri                2,209                   43
                    Montana               31,508                  157
                   Nebraska                6,990                  132
                 New Jersey                   36                    1
                   New York                  871                   32
             North Carolina                  166                    5
               North Dakota                7,146                   82
                       Ohio                5,017                  140
                   Oklahoma                2,864                   34
                     Oregon                  182                    4
               Pennsylvania                  332                   17
             South Carolina                  419                    6
               South Dakota                1,671                   30
                  Tennessee                   78                    3
                      Texas                6,999                   43
                   Virginia                  199                    6
                 Washington                7,064                   32
                  Wisconsin                  805                   49
                                 ---------------------------------------
  Total.........................        104,876.3               1,439
------------------------------------------------------------------------


    Question 2. How much longer will folks in the field have to wait 
before they can utilize the grassland contract portion of CRP? Will the 
rule be issued in proposed form and mean further delays?
    Answer. Sign-up for CRP grasslands is currently under way. The 
sign-up began September 1, 2015 and continues through November 20, 
2015.

    Question 3. The Committee included provisions in the farm bill to 
allow CRP acreage in its final contract year to be prepared for 
enrollment in other programs. Is this something you are able to be 
doing already? Or is this held up waiting for the final rule?
    Answer. This provision has been included in the interim rule and is 
currently ongoing using the new names of the associated eligible NRCS 
programs.

    Question 4. Are your computer systems and more importantly, the 
producer information databases, accessible by each agency in the field?
    Answer. NRCS does have access to FSA's Customer Information, Farm 
Record Information including Geospatial Information, Producer 
Eligibility Information and Acreage Reporting Information. RMA 
Employees have access to FSA's Geospatial Information and Acreage 
Reporting Information. Agency initiatives are currently ongoing to 
share more customer information between these Agencies. Rural 
Development (RD) has access to FSA's Customer Information.

    Question 5. Have we finally fixed the communication and overlapping 
issues on cover crops?
    Answer. The Interagency Work Group on Cover Crops, consisting of 
representatives from NRCS, RMA, and FSA, have continued to work towards 
refining the Cover Crop Termination Guidelines and finalized revision 
three last fall. These guidelines were developed to provide consistent 
eligibility requirements for a crop planted following a cover crop. The 
planted crop, providing the cover crop is managed following the 
guidelines, will now be considered eligible for all program benefits 
across agencies, providing other eligibility criteria is met. These 
programs include crop insurance, ARC/PLC, and NAP.
    The guidelines have been presented by all three agencies using one 
or more of the following; webinar, teleconference, notices, national 
training, and web publications. A consistent set of questions and 
answers have been made available including input from all three 
agencies.
    The National Working Group on Cover Crops and Soil Health have 
continued to meet with representatives from all three agencies, as 
recently as this June, to communicate the current cover crop needs and 
to present action items for each agency to address. FSA has addressed 
their items and maintains a high level of cooperation with this group.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
